<html>
<title> - PALESTINIAN EDUCATION</title>
<body><pre>[Senate Hearing 108-290]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-290
 
             PALESTINIAN EDUCATION--TEACHING PEACE OR WAR?

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                    OCTOBER 30, 2003--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                                __________


                      U.S. GOVERNMENT PRINTING OFFICE

90-712                        WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001



                               

                      COMMITTEE ON APPROPRIATIONS


                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
RICHARD C. SHELBY, Alabama           MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                             Candice Rogers
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                             Carole Geagley




                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Statement of Itamar Marcus, director, Palstinian Media Watch.....     2
Statement of Hon. David Satterfield, Deputy Assistant Secretary 
  of State for Near Eastern Affairs, Department of State.........     3
    Prepared statement...........................................     5
Statement of James Kunder, Deputy Assistant Administrator for 
  Asia and Near Eastern Affairs, Director, Afghan Relief and 
  Reconstruction, USAID..........................................     9
    Prepared statement...........................................    10
Statement of Richard Solomon, President, U.S. Institute of Peace.    13
    Prepared statement...........................................    15
Prepared statement of Itamar Marcus..............................    32
Statement of Hassan Abdel Rahman, chief representative, PLO 
  Mission........................................................    33
Statement of Ziad Asali, president, American Task Force on 
  Palestine......................................................    38
    Prepared statement...........................................    40
Opening statement of Senator Hillary Rodham Clinton..............    52
    Prepared statement...........................................    54
Statement of Morton Klein, president, Zionist Organization of 
  America........................................................    55
    Prepared statement...........................................    59
Prepared statement of The American Jewish Committee..............    68


             PALESTINIAN EDUCATION--TEACHING PEACE OR WAR?

                              ----------                              


                       TUESDAY, OCTOBER 30, 2003

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senator Specter.
    Also present: Senator Clinton.


               opening statement of senator arlen specter


    Senator Specter. It is 9:30, the scheduled starting time 
for the hearing of the Appropriations Subcommittee on Labor, 
Health and Human Services, and Education.
    This morning, we are going to take up the issue of 
education of Palestinian young people, the issue of the funding 
of the U.S. Government for the Palestinian Authority, and the 
implications on the Mid-East peace process.
    A few days ago, I had an opportunity to see some videos of 
young Palestinians talking about suicide bombings and the 
benefits of participating in that kind of a suicide bombing as 
an entry to heaven and as an entry to paradise. Notwithstanding 
some substantial experience in terrorism and what is going on 
in the Mid-East I found these videos to be absolutely 
shocking--absolutely shocking that teenagers, attractive young 
Palestinians, were stating a view that the desired goal in life 
is to be a suicide bomber, to kill as many Israelis as they 
could as an entry to nirvana, to heaven, to paradise.
    This hearing has been scheduled as promptly as we could 
because of our views that these films ought to be known by the 
people of the United States and the people of the world as to 
what is going on. We have seen and heard a lot about suicide 
bombings, but I believe these videos have a portrayal and a 
depiction on an entirely different level.
    Consideration was given to having this hearing in the 
Foreign Operations subcommittee, where I'm a member, and I 
discussed it with the chairman there, Senator McConnell, and 
the decision was made to proceed in this subcommittee because 
the Foreign Operations appropriation bill is now under 
consideration by the full Senate and it was thought this was 
the better committee to proceed.
    We are going to be hearing from administration authorities. 
We're going to be hearing from the representatives of the 
Palestinian Authority. We're going to be hearing from people 
who are in favor of the peace process, people who have 
questions about the peace process.
    Since the Oslo Accords in 1993, the U.S. Government has 
contributed $1,200,000,000 to the Palestinian Authority, almost 
all of it going to non-governmental agencies. This year, some 
$20 million has been allocated under waiver provisions, 
allocated by the Department of State, and we're going to be 
questioning the wisdom of that, in light of the terrorism that 
the Palestinian Authority is a party to. Before, some $36 
million went directly to the Palestinian Authority, so most of 
the funding has been going to non-governmental agencies. But, 
even there, there's a substantial question as to where the 
money ends up.
    In 1995, Senator Shelby and I introduced an amendment to 
the Foreign Operations bill which prohibited governmental 
funding to the Palestinian Authority until the Palestinian 
Authority made a maximum effort to avoid terrorism and to 
recognize the State of Israel.
    Now, that is a very, very brief overview and a very brief 
introduction.
STATEMENT OF ITAMAR MARCUS, DIRECTOR, PALSTINIAN MEDIA 
            WATCH
    Senator Specter. We have a very distinguished panel of 
witnesses. We're going to start, really, out of turn here 
today, with Mr. Itamar Marcus, who is the director of the 
Palestinian Media Watch, showing us these videos, which, as I 
say, I saw a few days ago, and that will set the stage for the 
witnesses from the administration, the witnesses from the 
Palestinian Authority, and our other witnesses.
    Mr. Marcus, if you would identify yourself for the record, 
I would appreciate it.
    Mr. Marcus. Yes, director of Palestinian Media Watch.
    Senator Specter. And do you have in your possession certain 
videos?
    Mr. Marcus. Yes.
    Senator Specter. And where were the videos obtained?
    Mr. Marcus. Everything that you'll see was filmed in 
Palestinian Authority television. This is PBC, Palestine 
Broadcast Company, that is owned and operated by the 
Palestinian Authority.
    Senator Specter. All right, would you please show those to 
the subcommittee?
                           Video Presentation
    ``Ask for death'' is the message the Palestinian Authority has been 
conveying to its children since the start of violence in October 2000.
    In July 2002, two articulate 11-year-old girls were interviewed in 
a studio of official Palestinian television.
    What has caused this compelling desire for death among these 
children? The Palestinian Authority has been making a supreme effort to 
convince their own children that there is no greater achievement than 
to die for Allah in battle, known as Shahada. This indoctrination film 
clip is designed to offset a child's natural fear of death. It portrays 
Shahada as both heroic and tranquil, and was broadcast repeatedly over 
the last 2 years.
    The film's hero, a nice-looking school boy, leaves his father a 
farewell letter explaining his choice to carry out Shahada.
    This film was broadcast on official Palestinian television. Most of 
the scenes portray blood and death. The film ends with this screen 
displaying, in Arabic and in English, ``Ask for death. The life will be 
given to you.''
    In another film clip, ``I am the shahid, my mother,'' mothers are 
urged to be joyous over the Shahada death of their own children.
    The Palestinian Authority's Ministry of Education textbooks portray 
Shahada as an ideal. For example, the poem of the shahid appears in 
textbooks on four grade levels and extols yearning for death.
    A song honoring Wafa Idris, the first woman suicide terrorist, was 
broadcast on Palestinian television three times.
    The Shahada mandate comes from top Palestinian political 
leadership.
    The Palestinian Authority gives significant media exposure to 
parents who praise their children's choice to die.
    Palestinian religious leaders have been a driving force in calling 
for Palestinians to kill Jews, especially through suicide bombings, and 
direct these messages at children, as well.
    Palestinian polls show that 72 to 80 percent of Palestinian 
children desire death as Shahids. Having been repeatedly exposed to 
this indoctrination, Palestinian children today actively set their 
sights on Shahada as a personal goal.
    The Palestinian indoctrination has already led to the death of 
Palestinian children. Young children have written farewell letters to 
their parents in which they express pride in their desire to die and 
have set out on suicide terrorist attacks.
    The child Yusef Zakut wrote: ``Don't cry for me. Bury me with my 
brothers and with the Shahids.''
    The Palestinian Authority has created a violent death-seeking 
reality for their children, having taught them to see death for Allah, 
Shahada, as an ideal which they are expected to achieve.
    The examples presented in this report are a representative 
selection demonstrating the comprehensive campaign waged daily by the 
Palestinian Authority. Even if just 1 percent of the children attempt 
to fill their duty and seek Shahada through suicide terrorism, the 
ramifications will be cataclysmic. The targets of the future 
Palestinian terror wave will be Israel and, in all likelihood, other 
Western democracies, as well.
    This education is an indelible stain on Palestinian society and 
places the Palestinian Authority among the greatest child abusers in 
history.

    Senator Specter. Thank you very much, Mr. Marcus.
    The characterization at the end about child abusers is a 
vast understatement. They're civilization abusers. The children 
are their means to destroy civilization.
STATEMENT OF HON. DAVID SATTERFIELD, DEPUTY ASSISTANT 
            SECRETARY OF STATE FOR NEAR EASTERN 
            AFFAIRS, DEPARTMENT OF STATE
    Senator Specter. I will now proceed to the administration 
witnesses. We will first call on Mr. David Satterfield. 
Ambassador Satterfield is the Deputy Assistant Secretary of 
State for Near Eastern Affairs. He previously had served as 
ambassador to Lebanon, director of the State Department's 
Office of Israel and Arab-Israeli Affairs on the National 
Security Council staff. Satterfield is a graduate of the 
University of Maryland and Georgetown University.
    Welcome, Mr. Satterfield.
    We are going to limit the opening statements of witnesses 
to 5 minutes. I have been commenting, when the announcement is 
made about the limitation of time, to the Memorial service for 
Ambassador Walter Annenberg, where the time was 3 minutes, 
President Ford and Secretary of State Colin Powell and I and 
others were given 3 minutes. So I want you to know what a 
lengthy period 5 minutes is for an opening statement.
    Thank you for joining us, Ambassador Satterfield, and the 
floor is yours.
    Ambassador Satterfield. Thank you, Mr. Chairman.
    I would ask, first, that my prepared statement be entered 
into the record, and I do have some brief opening remarks to 
make.
    The video clips that we've just seen--and there are many 
others that could have been chosen--do, indeed, cultivate a 
climate of alienation, hostility, incitement, what has been 
termed a culture of death rather than a culture of life, hope, 
and promise. As I said, many more images of this kind could 
have been chosen.
    The subject of this hearing today is a very serious one for 
the administration. Indeed, Mr. Chairman, if we look back on 
the record of the modern peace process, since 1993, the issue 
which has been most problematic for us and for our partners in 
peacemaking to address, has been the challenge of how one 
changes minds, hearts, and attitudes. Frankly, too little 
attention was given to this challenge during many years of the 
peace process when focus was placed upon treaties, agreements, 
understandings. They have their place certainly, but the 
fundamental changes in the way people look at each other and 
deal with each other, the way they look at themselves and their 
culture and society, that also has to be addressed.
    The administration, in pursuit of President Bush's vision 
of two states, Israel and Palestinian--Palestine, living 
together in peace and security--has been focused upon building 
institutions for Palestinian statehood. Upon confronting the 
issue of incitement, incitement to violence, incitement to 
death, wherever it may be found, this is a major challenge, and 
I cannot minimize for you, Mr. Chairman, the magnitude of this 
problem.
    We have been making efforts to try, with our partners in 
the region and outside, with the Palestinian Authority and with 
the Government of Israel, and with institutions drawn from 
civil society on both sides, to find ways in which to tackle 
this problem. I cannot tell you that this is an issue which we 
have succeeded in addressing, which we have succeeded in 
transforming from the type of images of hostility and death 
that you just saw to something else. But we do believe some 
progress--and I'll be quite honest--some progress is being 
made.
    It's most important, if we look at how one changes minds 
and hearts, to begin at the earliest age possible in changing 
the nature of the culture and changing the nature of views of 
one people towards another. We have been successful, to an 
extent, in introducing changes into the textbooks used by the 
Palestinian educational system, the public educational system. 
Those textbooks, in the past, were marked by overt anti-
Semitism, rejection of Israel, images of hostility towards Jews 
and Israelis which were absolutely unacceptable in any climate 
of peacemaking.
    The current textbooks, which are in the process of being 
introduced through grades kindergarten to 12, sin more now by 
omission rather than commission. The images of anti-Semitism 
have been largely removed, but we want to see positive images 
of embracing Israel as a state, Israelis as a people, put in. 
We don't just want the absence of negative image. We want the 
presence of positive images, and this is a challenge that 
remains before us. Some progress, as I said, has been made, but 
much more needs to be done.
    Mr. Chairman, those images which we witnessed, the 
challenge that confronts us as we deal with Israel/Palestinian 
peacemaking also is reflected on a broader regional scale. We 
are committed to doing everything possible, not just to address 
the call for death, the call for martyrdom, which we saw here 
today, but also the continuing images of anti-Semitism, 
rejection of Israel, rejection of Israelis, rejection of Jews 
as a people who merit a life in peace and security in the 
Middle East and elsewhere throughout the Middle East and the 
world.

                           prepared statement

    Here, too, the challenge remains before us. Here, too, we 
have not been fully successful in our efforts with other 
governments in the region, indeed outside, in addressing this 
challenge. But the administration is fully committed to 
applying what resources we have to this goal, and we welcome 
the opportunity to appear here today in that pursuit.
    Thank you.
    [The statement follows:]
              Prepared Statement of Hon. David Satterfield
    Thank you, Chairman Specter. I wish to express my gratitude to all 
the Members of this Subcommittee for this opportunity to discuss 
Palestinian education.
    Mr. Chairman, let me begin by stating that we are in full agreement 
with the goals underlying this hearing. We all recognize that an 
education system that promotes peace and tolerance best prepares 
children for a bright future. We welcome this Committee's interests in 
the Palestinian education system and share its concerns. This is why we 
have placed such great emphasis on working with the Palestinian 
Authority to revise their curriculum to promote principles of human 
rights, democracy, diversity, tolerance and pluralism. That approach to 
education will provide a foundation for democracy and peace in the 
region, and the basis for a shared future.
    Of concern to our discussions today is the question, to what extent 
does the current Palestinian education system promote the hate and 
violence that undermine the foundations for stability and peace? It is 
clear that the old Palestinian curriculum in the West Bank and Gaza is 
unacceptable to us and everyone else in the international community 
genuinely interested in an education system that teaches children the 
truth, as opposed to hatred. The United States and other donor nations, 
as well as Israel, have long been concerned that materials used in the 
Palestinian education system and the UNRWA schools incited hatred. The 
curriculum--formed around a core of outdated Egyptian and Jordanian 
textbooks that fell out of use in those countries long ago--contained 
anti-Semitic and anti-Israeli content and promoted gender stereotypes. 
Moreover, the textbooks failed to promote critical-thinking, but rather 
favored rote memorization. The Palestinian Authority, at the urging of 
the United States and the international community, recognized that 
neither intolerance nor deprivation of independent thought would serve 
future generations of the Palestinian people. Accordingly, the 
Palestinian Authority undertook the revision of the entire curriculum.
    The revised curriculum represents a significant and positive step 
forward. There are no longer references to the Jews as ``the evil 
enemy'' or as being ``treacherous'', but rather there is clearly an 
avoidance of dealing with the Jewish-Islamic relationships in negative 
contexts. The new books seek to advance inter-religious tolerance and 
diversity, and have rid themselves of their anti-Semitic content. 
Concepts of good citizenship and ethics are stressed, as is respect for 
the environment and for others. The new curriculum also reflects an 
effort to promote active learning and critical thinking, over passive 
acceptance.
    Despite these important gains, the new books fall short of 
expectations in important ways. Israel's existence is not explicitly 
acknowledged either in narratives or on maps. Discussions of ``historic 
Palestine'' are ambiguous on the status of Israeli cities such as Haifa 
and Nazareth. Encouragement of inter-religious tolerance focuses on 
Islam and Christianity, without mentioning Judaism.
    A true peace curriculum must contain neither the sins of commission 
nor of omission. Therefore we will continue to press for further change 
and have dedicated the resources to do so. Revisions are underway for 
the remaining grades that use the older texts (grades 5, 10, 11, 12). 
Moreover, the Ministry of Education regards the development of the new 
curriculum as a continuing process, with further amendments expected 
once President Bush's two-state vision becomes reality. Obviously, that 
is not soon enough. We recognize that the new textbooks still contain 
certain historical and political omissions and inaccuracies. What they 
do not contain, however, is a call to violence or reason for hate. To 
further ensure that the positive concepts of peace and tolerance in the 
textbooks are being promoted, with funding appropriated by Congress, we 
have charged the Israel/Palestine Center for Research and Information 
(IPCRI)--a well-respected NGO--with continued monitoring of the 
content, distribution, and use of these new books, and with the 
training of Palestinian teachers in peace and tolerance. IPCRI's 
materials stress Israel's existence as a political and historical 
reality.
    We call upon your Committee to work to strengthen the hand of the 
President and Secretary as they seek to lead the region away from 
violence and towards peace by supporting these efforts. The future of 
the region depends on its children.
    Thank you very much Mr. Chairman and Members of the Subcommittee. 
I'd be pleased to take your questions.

    Senator Specter. Ambassador Satterfield, the roadmap states 
that: ``All official Palestinian institutions must end 
incitement against Israel,'' and the roadmap requires the 
Palestinian Authority to: ``undertake efforts on the ground to 
arrest, disrupt, and restrain individuals and groups conducting 
and planning violent attacks on Israelis anywhere.'' Are those 
requirements being complied with by the Palestinian Authority?
    Ambassador Satterfield. No, Mr. Chairman, they are not. We 
have not seen those basic steps necessary by the Palestinian 
Authority to confront violence and terror being taken to the 
extent that the roadmap requires and, indeed, any meaningful 
progress towards peace mandates.
    Senator Specter. And the depiction shows Chairman Yasser 
Arafat on film talking about Shahid. What efforts are being 
made to combat Arafat's efforts as depicted and shown on the 
screen?
    Ambassador Satterfield. Mr. Chairman, the position of this 
administration towards Mr. Arafat is very well known. We do not 
regard him as an interlocutor for the purpose of peacemaking. 
We have sought, working with the Government of Israel, working 
with individuals in the Palestinian Authority, and our partners 
in the region and the international community, to see an 
empowered, credible Palestinian leadership take office and move 
against terror and violence, as it moves towards the necessary 
institutional steps required, to see a Palestinian State 
achieved.
    Senator Specter. Now, Ambassador Satterfield, in light of 
this kind of filming, and in light of the failure of the 
Palestinian Authority to act to restrain violence, what's the 
justification for the U.S. Government this year advancing $20 
million to the Palestinian Authority?
    Ambassador Satterfield. Mr. Chairman, that decision was 
made after careful reflection, upon the state of Prime Minister 
Abu Masen's government, the credibility of Minister of Finance 
Salam Fayed, the institutional checks and balances, which both 
our own system and auditing mechanisms in place and the 
credibility of Abu Masen and Salam Fayed, established. We would 
not have taken this step--did not take this step lightly.
    We believe that that decision was appropriate. We believe 
that those monies are accountable, fully, and that they went to 
purposes for which they were intended. Obviously, the 
administration continued to look very closely at any future 
issue of direct financing for the Palestinian Authority. No 
such financing is under contemplation at this point. Were we to 
do so, we would obviously consult with the Congress. We would 
also reflect very carefully on the issue of transparency and 
accountability for funds.
    Senator Specter. Well, you say the monies have been 
accounted for. Where did the $20 million go?
    Ambassador Satterfield. They went through the Ministry of 
Finance, under mechanisms which we believe are transparent and 
accountable, for both salary payments and repayment of debt to 
the Palestinian private sector.
    Senator Specter. Can you be more specific than that?
    Ambassador Satterfield. Mr. Chairman, we can provide 
detailed specifics on where the $20 million----
    Senator Specter. We'd like you to----
    Ambassador Satterfield [continuing]. Went.
    Senator Specter [continuing]. Tell this subcommittee----
    Ambassador Satterfield. We'd be happy to.
    Senator Specter [continuing]. Where every dime of the $20 
million went.
    Ambassador Satterfield. We'd be happy to.
    [The information follows:]

    In July, $20 million from the Wartime Supplemental Appropriations 
Act was transferred to the Palestinian Authority (PA) though a ``Cash 
Transfer Grant Agreement'' between the PA (represented by the Ministry 
of Finance) and the U.S. Government (represented by USAID). Use of the 
$20 million was subject to a variety of controls and monitoring 
mechanisms.
    Under the terms of the agreement, up to $9 million could be spent 
on the financing of utility payments. On August 28 the USAID West Bank/
Gaza mission approved the use of $9 million to pay the Israeli Electric 
Company for bills owed by the PA. The PA made the payment on the same 
day.
    For the remaining $11 million of the Grant, the Ministry of Finance 
has proposed 65 projects--25 in the West Bank and 40 in Gaza--with a 
total estimated cost of $10,878,280. Most of the projects involve 
repair and rehabilitation of roads, water and wastewater facilities, 
and municipal halls.
    On September 22, following site visits by USAID staff engineers, 
USAID approved 30 projects, totaling $4,410,000.
    On October 21, USAID approved an additional 11 projects totaling 
$1,310,000. This brought the total of approved projects to 41, with an 
estimated cost of $5,720,000.
    Twenty-four projects ($5,158,280) proposed by the Finance Ministry 
have not yet been approved. Several of these will likely be approved 
once project designs and cost estimates are completed by the Ministry 
and reviewed by USAID engineers. The Finance Ministry will propose 
substitutions for any projects that are rejected.
    Funds for a given project are drawn down by the Finance Ministry in 
five tranches, corresponding to work completed and subject to USAID 
approval at each stage.
    The following mechanisms, incorporated into the Agreement and 
subsequent Implementation Letters, allow USAID to monitor use of the 
money:
  --The Ministry of Finance has certified that none of the money will 
        go to anyone involved in ``armed hostilities or other acts of 
        violence'' or for the purchase of military or police equipment;
  --The Ministry has established a separate bank account solely for 
        this money, so as to ensure it will not commingle with funds 
        from any other source;
  --The Ministry has sent an authorization letter to its bank, 
        authorizing USAID to access directly information about the 
        account;
  --The PA has agreed to keep detailed records and provide them for 
        USAID to review and audit;
  --Contractors are vetted using standard USAID procedures;
  --Reports are provided quarterly by the Ministry of Finance, 
        including copies of bank statements and a list of agreed-upon 
        uses;
  --The agreement contains a clause saying that the Ministry may be 
        required to pay back any money not supported by appropriate 
        documentation as being in accordance with the agreement;
  --At the conclusion of each project, a USAID engineer will visit the 
        site to confirm that the work was done as planned; and
  --USAID's regional Inspector-General will conduct a financial audit 
        of the Cash Transfer activity after all $20 million has been 
        expended.

    Senator Specter. Essentially, what you're saying is that 
$20 million was given to the Palestinian Authority to help Abu 
Masen in his effort to become the Prime Minister. Is that about 
the size of it?
    Ambassador Satterfield. Mr. Chairman, it was given to the 
Palestinian Authority in a way that we believe bolstered the 
credible empowered authority of Prime Minister Abu Masen, of 
the Ministry of Finance, and institutional mechanisms and 
safeguards which have been put in place under Minister Salam 
Fayed.
    Senator Specter. Well, are you essentially saying that the 
way things are today, with former Prime Minister Abu Masen 
having departed, that there will be no further payments by the 
U.S. Government to the Palestinian Authority?
    Ambassador Satterfield. Mr. Chairman, that was a one-time 
direct payment, the only such payment of its kind. Before we 
would contemplate any such step in the future, we would need to 
see in place an empowered, credible Prime Minister and Cabinet, 
with unified security services under the control of the Prime 
Minister and tangible steps taken on the ground to confront 
terror and violence, yes.
    Senator Specter. Would you go further and require proof 
that the Palestinian Authority is not going to be showing these 
videos, with young people glorifying and--self-sacrifice and 
being suicide bombers?
    Ambassador Satterfield. Mr. Chairman, we have made very 
clear that the Palestinian Authority, to be viewed as a 
credible partner for peace, must not just move against terror 
and violence--that's obviously a central critical priority--but 
also must move against the climate and culture of incitement 
and violence which underlies the actual acts of terror.
    Senator Specter. Well, that's not quite a flat statement 
that additional funds would not be advanced to the Palestinian 
Authority unless this kind of propaganda was stopped. Can you 
give this subcommittee that assurance flatly?
    Ambassador Satterfield. I can assure that we would not make 
any direct funding available to the Palestinian Authority if 
there was any question whatsoever regarding the commitment of 
that authority, translated into action on the ground, including 
with respect to incitement.
    Senator Specter. Like this----
    Ambassador Satterfield. As was seen here.
    Senator Specter [continuing]. Video.
    Well, okay, thank you, Ambassador Satterfield. We 
appreciate your coming over. We know you have commitments today 
and have asked to be excused at this point, and you are excused 
by the subcommittee.
    Customarily, we like the witnesses to stay, because there 
may be some comments at a later time for a response, but I 
understand your official duties, so we'll thank you.
    Ambassador Satterfield. Thank you, Mr. Chairman. Appreciate 
this opportunity.
STATEMENT OF JAMES KUNDER, DEPUTY ASSISTANT 
            ADMINISTRATOR FOR ASIA AND NEAR EASTERN 
            AFFAIRS, DIRECTOR, AFGHAN RELIEF AND 
            RECONSTRUCTION, USAID
    Senator Specter. Our next witness is Deputy Assistant 
Administrator for Asia and Near Eastern Affairs, Mr. James 
Kunder, Director for Afghan Relief and Reconstruction. Mr. 
Kunder received his master's degree in international relations 
from Georgetown, and his bachelor's in political science from 
Harvard University.
    Thank you for joining us, Mr. Kunder, and we look forward 
to your testimony.
    Mr. Kunder. Thank you, Mr. Chairman.
    I have a prepared statement that, with your permission, I'd 
like to submit for the record.
    Senator Specter. Your full statement will be made a part of 
the record.
    Mr. Kunder. I want to give a quick overview of the U.S. 
Foreign Assistance Program in the areas in which the Committee 
has expressed an interest. But just to start with a personal 
comment of, USAID throughout the world, with the support of 
taxpayer dollars, uses the media for a number of positive, what 
we refer to as, social marketing activities in AIDS prevention 
and better healthcare, participation of girls in school. And I 
just have to say, at a personal level, to see this kind of 
perversion of media targeted at children, knowing the powerful 
impact that media has on children, it's an abomination to see 
this thing firsthand.
    The U.S. Agency for International Development Program 
targeted at Palestinians is, as you described earlier, 
primarily targeted at international or Palestinian non-
governmental organizations, with the exception of the $20 
million direct cash transfer this past year. It works in the 
area of humanitarian assistance and, more broadly, at building 
Palestinian civil society so that there are voices of 
moderation in the political debate in Palestine. And that 
includes support for independent media organizations that show 
debate in the Palestinian Legislative Council, and otherwise 
bring in groups whose voices might not be heard in the 
Palestinian debate. Following the congressional guidance and 
the law, we do not give direct assistance to the Palestinian 
Broadcasting Company.
    We recognize that our attempts to bring voices of 
moderation into the political process, however, is subject to 
diversion of resources, and, therefore, we have put in place a 
range of safeguards, including the vetting within the American 
Embassy of all of the organizations, all the grantees and 
program partners with which we work. We have, in all of our 
grant agreements, a certification requirement that the 
organization receiving U.S. taxpayer dollars is not passing any 
of that money through to terrorist organizations. We have an 
extensive oversight operation where, consistent with the 
security situation on the ground, either U.S. Government 
direct-hire employees or our contractors are out monitoring the 
use of our funds to ensure that there are not abuses or 
diversions, and we are discussing these issues on a regular 
basis with the Israeli authorities in the West Bank and Gaza.

                           prepared statement

    So from our view, the totality of the U.S. foreign aid 
program is contributing to moderate voices being part of the 
Palestinian debate, and we have implemented a range of 
safeguards that we think ensure that U.S. taxpayer dollars are 
going to the purposes for which they are intended.
    I'd be glad to answer any questions, sir.
    [The statement follows:]
                Prepared Statement of Hon. James Kunder
    Mr. Chairman: Thank you for the opportunity to testify today on 
behalf of the U.S. Agency for International Development. I would like 
to begin by echoing the words of Deputy Assistant Secretary 
Satterfield: We appreciate the importance of education as a force for 
peace and progress in the world, and share the concern of this 
Subcommittee whenever the education of children is perverted to serve 
as a platform for violence and hatred.
                            program overview
    In order to provide context for the Subcommittee's inquires today, 
I would like briefly to summarize the U.S. foreign assistance program 
in the West Bank and Gaza. In general terms, the Mission responds to 
the humanitarian situation, providing relief to the poorest segments of 
the Palestinian population, while at the same time implements longer 
term development projects, supporting the road map and other U.S. 
foreign policy goals in the region.
    Consistent with Congressional guidance and in support of U.S. 
foreign policy priorities, the U.S. foreign assistance program in West 
Bank and Gaza consists of several elements. First, we are addressing 
basic human needs resulting from the severe economic downturn of the 
past three years. Our programs provide food, medical care and emergency 
water and create jobs for those who have lost them as a result of the 
depressed economy and the limited employment opportunities within 
Israel. Working with U.S. partners such as the YMCA, Save the Children, 
ANERA, CHF Inc. and local NGOs, we have created more than 1.9 million 
person days of employment since 2001. In addition, our support to food 
aid delivery through WFP and ICRC has ensured that more than 650,000 of 
the most vulnerable Palestinians have received a nutritional food 
basket on a regular basis. We also support vaccination projects, supply 
clinics and health NGOs with emergency medicines, and fund special 
training for doctors and nurses though our grants with CARE 
International.
    Second, we are promoting a wide range of reform efforts within the 
Palestinian Territories. Since the 1996 national elections, we have 
been the lead donor working with the Palestinian Legislative Council, 
which within the last 12 months has challenged the PALESTINIAN 
Executive Branch on issues relating to the designation of a Cabinet and 
delineation of the Prime Minister's responsibilities. In 1999, we 
initiated a rule of law program, which has trained scores of 
Palestinian judges and prosecutors and has led to the formation of two 
commercial Alternative Dispute Resolution Centers. We have also funded 
programs to develop the capacity of the Palestinian Monetary Authority, 
to assist the Minister of Finance in strengthening the internal audit 
capacity of the Palestinian Authority, and to restructure the new 
Ministry of National Economy. We are poised to support a Palestinian 
election process, having already conducted a comprehensive electoral 
assessment and provided technical assistance to the Central Election 
Commission. Lastly, we have a robust civil society program that funds 
Palestinian NGOs, which are advocates for reform and democratization.
    Third, our Mission has supported the ``revitalization'' of the 
private sector. Activities include direct technical assistance at the 
firm level to assist in their internal restructuring, grants to repair 
damaged business premises and providing loan capital for mid-size 
businesses. Our emergency micro lending programs have provided much 
needed cash to small business owners, mostly women. With $3 million of 
USAID funds, we have leveraged funds for small loans from two 
commercial banks in the amount of $17 million.
    Fourth, I would like to emphasize that we have maintained some of 
our longer-term development projects. These include the construction of 
much needed water infrastructure, which has provided potable water to 
much of the population in the Southern West Bank. We are also repairing 
small scale water infrastructure in several cities, working closely 
with the municipal governments. Our community services projects, which 
build schools, clinics, agricultural roads, youth centers, and other 
small infrastructure, are active in 50 per cent of the villages in the 
West Bank and Gaza.
    Fifth, through our scholarship and training programs, we are 
developing the human capital that a democratic Palestinian state will 
require. Since 2000, 90 Palestinians have received or are in the 
process of receiving Masters Degree scholarships from] U.S. 
universities. In addition to their academic studies, many of the 
returned scholars serve to educate their fellow-citizens about the 
reality of life in the United States. The Mission also has provided 
more than 300 full scholarships to Palestinians for study in local 
universities and funds short training programs in the IT sector that 
has benefited more than 115 Palestinians to date.
    Last, using the $50 million we received as part of the fiscal year 
2003 emergency wartime supplemental appropriation, we responded quickly 
to acute problems on the ground, repairing roads in 5 cities in the 
West Bank and repairing bridges, greenhouses, damaged business 
premises, and agricultural wells in Northern Gaza. Of this 
Supplemental, we used $20 million as a cash transfer to the Palestinian 
Authority. With the very tight restrictions and safeguards we attached 
to this cash transfer, I am happy to report that it is being used in a 
transparent manner to pay utility bills owed to the Israeli Electric 
Company and to make municipal infrastructure repairs throughout the 
West Bank and Gaza.
    These results have been achieved, notwithstanding the on-going 
violence, because of the dedication and commitment of our contractors, 
grantees and Palestinian partners, and with the full support and 
cooperation of the Government of Israel. Through creative mechanisms, 
which I will describe below, we have maintained adequate oversight to 
ensure that US taxpayer resources are well spent and support the 
foreign policy goals of the Administration.
    Having provided general background on the USAID program, let me now 
address the specific issues covered by this hearing related to 
Palestinian education and other issues related to the promotion of 
peace and moderation.
                               education
    Palestinians put a very high priority on education for children. 
USAID does not work specifically on curriculum development or 
textbooks. We do fund significant training programs for teachers and 
students, which help students deal in alternative ways with trauma and 
anger. Our ``psycho-social'' training project has reached over 32,000 
students between the ages of 6 and 18 and their teachers. Activities 
under this project, which is implemented by Save the Children, include 
play and art activities for children, geared towards helping them deal 
with the tension of the situation on the ground, and group discussions 
with parents and teachers. This program is implemented throughout the 
West Bank and Gaza, including such urban centers as Jenin, Ramallah, 
and Gaza City. The project is also active in rural areas. We also 
improve the learning environment by building and repairing classrooms, 
libraries, and labs. The 800 classrooms that USAID has remodeled and 
rebuilt provide improved learning environments for children. Among 
other things, these new classrooms provide the opportunity for girls to 
go to school in areas that they previously were unable to because of 
space limitations.
    In addition, our NGO support project, TAMKEEN, implemented by U.S. 
contractor CHEMONICS, has awarded some grants related to education. One 
NGO in Gaza supports university students' work on issues of democratic 
practice, including peer mediation and conflict resolution. Another NGO 
has provided extremely high quality civic education to thousands of 
people (mostly high school students) throughout the West Bank and Gaza. 
Our Moderate Voices program has awarded NGOs to work with teachers, 
Ministry of Education, and school administrators on a peace curriculum 
integrated with the regular school curriculum. It has also supported an 
initiative with high school students promoting democratic dialogue, 
attitudes, and skills, and an ongoing project in the Gaza Strip to 
enrich and emphasize democratic and human rights oriented values in the 
standard curriculum. Also in Gaza, a peer mediation and conflict 
resolution program conducted in UNWRA schools disseminates desired 
values and identifies and training peer leaders to act as mediators in 
conflict situations.
    One part of the the Wye-funded People to People program, being 
implemented by Professor Dan Bar-On of Ben Gurion University and Dr. 
Sami Adwan of Bethlehem University, works with Palestinian Ministry of 
Education and Israeli public school teachers on developing a curriculum 
that recognizes the views, values, narrative, and humanity of the each 
side in the conflict.
                                 media
    Since 1998 USAID has been prohibited from supporting the 
Palestinian Broadcasting Company. Still, through activities in our 
democracy and governance portfolio, we have funded various media 
programs produced by the independent television and radio stations and 
prepared for daily newspapers that provide outlets for voices of 
moderation and peace. For example, our ``Moderate Voices'' NGO project 
has funded the development and broadcasting of a popular soap opera 
series, which examine the daily conflicts inherent to Palestinian life, 
including, but not entirely focused on the interface with Israel and 
Israelis. Our flagship civil society support project, TAMKEEN, provides 
grants to Palestinian NGOs for media programs that provide voice to 
marginalized groups, including women and the disabled, and recently 
convened a workshop for eight media broadcasting outlets and teaching 
institutes to improve professionalism and competency. Lastly, our 
legislative assistance program has included a televised series 
regarding the role of women in the Council and in politics, televised 
proceedings of the Council and widely broadcast town hall meeting 
events with Council members. Through these programs and others, we have 
helped Palestinian media outlets provide information about democratic 
processes and facilitated debate among democratic actors.
    In a situation like the West Bank and Gaza, there is always a 
concern that U.S. assistance dollars may be diverted from their 
intended purposes and inadvertently be used to foment hatred or 
violence, in educational programs or in some other way. To counter this 
possibility, USAID has instituted a number of safeguards in our 
programs. I would like to describe briefly two such safeguards: our 
system of vetting program partners, and our system of program 
oversight.
                                vetting
    The Mission is well aware of the dangers associated with providing 
assistance to terrorist organizations or those who are affiliated with 
such organizations. Consequently, beginning in November 2001, the 
Mission implemented a program whereby Palestinian grantees and 
contractors must be vetted by the U.S. Country Team. This applies to 
all contracts in excess of $100,000 and to all grants regardless of 
dollar value. In each case, the organization and its key personnel are 
reviewed to determine whether they are engaged in terrorist activity. 
Also, individuals applying for scholarships or to participate in USAID 
funded training programs are similarly vetted. To date, the Mission has 
vetted more than 1000 Palestinian organizations and individuals.
                               oversight
    To oversee the USAID Mission's large portfolio, project managers 
and contracting officers at Mission headquarters and local staff work 
closely together, even when travel restrictions preclude face-to-face 
meetings. The Mission's staff includes three engineers residing in Gaza 
and another three in the West Bank, ensuring visits to construction 
sites during periods when U.S. staff are unable to enter the West Bank 
and Gaza.
    The Mission also utilizes information communications technology to 
ensure effective oversight. Telecommuting is common-place for staff 
unable to travel to Tel Aviv on a regular basis, and video-conferencing 
is used to maintain contacts between project officers in Tel Aviv and 
contractors/grantees with offices in Ramallah or Gaza. Our engineers 
often make use of digital photography to help keep the home office 
suitably informed of construction project progress.
    The Mission has pioneered a GIS-based performance monitoring system 
under which project information data are entered by project managers. 
This system allows almost immediate retrieval of data on any given 
activity. The system has been implemented for the Mission's largest 
strategic objective and will soon be applied to all the others.
    The Mission conducts portfolio reviews several times a year, and 
publishes a report detailing the status of each activity twice a year. 
In addition to periodic audits, the Mission, with congressional 
encouragement, has developed a robust risk assessment strategy. All 
Mission institutional contracts and grants--approximately 100--are 
audited on an annual basis by local accounting firms under the guidance 
and direction of USAID's Inspector General. Preliminary findings on the 
first 10 auditable units appear to indicate that except for some 
questioned costs, general compliance and internal controls appear to be 
adequate.
    Mr. Chairman: Once again, I appreciate the opportunity to testify 
today and the interest of this Subcommittee in the work of the U.S 
Agency for international development. We believe our stewardship of the 
U.S. foreign aid program in West Bank and Gaza has been a force for 
peace, and not for war; a force for moderation, and not for conflict. I 
welcome the Subcommittees questions on our programs and oversight 
mechanisms.

    Senator Specter. Well, thank you very much, Mr. Kunder.
STATEMENT OF RICHARD SOLOMON, PRESIDENT, U.S. INSTITUTE 
            OF PEACE
ACCOMPANIED BY STEVEN RISKIN, PROGRAM OFFICER, GRANT PROGRAM, U.S. 
            INSTITUTE OF PEACE

    Senator Specter. We have one further witness on this panel, 
Mr. Richard Solomon, president of the U.S. Institute for Peace. 
We'd like Mr. Solomon to come forward at this time.
    Dr. Solomon has served as the president of the U.S. 
Institute of Peace since 1993, previously served as Assistant 
Secretary of State for East Asia and Pacific Affairs and 
Director of Policy Planning at the Department of State. He 
holds a Ph.D. in political science from the Massachusetts 
Institute of Technology.
    Thank you for joining us, Dr. Solomon, and we look forward 
to your testimony.
    Dr. Solomon. Good morning, Mr. Chairman. And I and my 
colleagues really appreciate the opportunity to be with you 
this morning. As you know, our institution reports directly to 
the Labor, Health, and Human Services Committee. You fund our 
work directly, inasmuch as we're an independent federal 
institution. Normally, since I come up asking for financial 
support, it's a pleasure to be able to describe to you some of 
our activities that relate to this very serious issue that is 
on the agenda today.
    The Institute of Peace, as I think you know, was created as 
an educational institution, and what I will describe is a shift 
in our work over the last 20 years from educational activities 
largely focused here within the United States to activities in 
zones of conflict around the world. And those activities very 
substantially focus on the effort to promote educational reform 
in Muslim societies, ranging from Northern Africa, the Middle 
East, through South Asia, and Southeast Asia.
    Our objective is to try to mobilize those interested in 
reform, reconciliation within these societies in the interest 
of promoting peaceful resolution of disputes, reconciliation, 
tolerance, and certainly countering incitement.
    What we have discovered through a decade of activities that 
began with work after the Dayton Accords, when we went into the 
Balkans and worked with educators to promote an educational 
system that had been corrupted by the Milosevic regime, was, of 
course, that education is a very powerful tool for reform, for 
teaching reconciliation and breaking the cycles of hatred and 
violence. Indeed, the power of education is precisely why the 
extremists have been trying to capture the madrasa system and 
turn it against even existing Muslim governments, whether it's 
in Pakistan, Malaysia, or Indonesia. And so our work is 
attempting to empower those who seek to use the educational 
system for purposes of reconciliation. And one of the dilemmas 
our friends in these various parts of the world face is that 
many of them do not have the national government resources to 
fully fund their educational system, so that money comes in 
from abroad from what you might characterize as interested 
parties who are trying to turn the madrasa system in the 
direction of the kind of horrific propagation of violence that 
we saw in the opening video.
    Let me describe three very brief examples of the kind of 
work that the U.S. Institute of Peace supports through its full 
range of programming--our grant-giving, our fellowship 
activity, our education/rule-of-law programs, and our 
professional training activities.
    The first example would be the effort to support the Anti-
Incitement Commission that was established after the 1998 Wye 
River agreement. And two of our board members, former board 
members now, Father Theodore Hesburgh, of Notre Dame, and 
Shibley Telhami, professor at the University of Maryland, were 
on the Anti-Incitement Commission. And two of my colleagues who 
are with me here today, Dr. Jeff Helsing, who is with the 
Education Program, and Steven Riskin, who is with our Grant 
Commission, they are more specialists on this region than 
certainly I am. They brief the Commission on our experience 
about educational reform and efforts to limit incitement. 
Unfortunately, as Father Hesburgh concluded after a number of 
efforts to engage both sides in the region, was that issues of 
limiting incitement were just not open to discussion. This is 
the late 1990s.
    A second example is our support for Seeds of Peace, an 
effort to bring teenagers from the Israeli/Palestinian 
societies together in the pristine, secure environment of 
Northern Maine, an effort that's gone on for 10 years and has 
engaged over 2,500 teenagers. And I think the Seeds of Peace 
experience, which is documented in a book that we've published, 
written by John Wallach, the late John Wallach, who, 
tragically, died rather early, was that this kind of a 
cloistered experience, if run professionally, can help to break 
stereotypes, hostilities, establish friendships. And, indeed, 
what we find is that many of the Palestinian kids who went back 
to societies totally unsupportive of this reconciliation work 
demonstrated real courage in resisting the return to the kind 
of attitudes that we've seen here.
    The third project was an effort in which we supported a 
book project by a George Washington University professor, Dr. 
Nathan Brown, who analyzed the situation in the Palestinian 
areas of reform following the Oslo Accords. And his conclusion, 
and he should, of course, speak for himself, was that there had 
been modest change in the direction of a moving away from the 
kind of inciteful textbooks and the educational material that 
we've seen here today, but clearly much more incitement than we 
want to see in these instances, but some movement away from 
what it had been in earlier times. And the clear fact is that 
the political context which would support the moderating 
efforts of work like Seeds of Peace or the kinds of reform 
efforts that Dr. Brown describes are, at this point in time, 
just not supportive of significant reform.
    So, in conclusion, based on the experience of institute 
work, I would say the four issues I would stress is that 
intergenerational cycles of conflict, hatred, can be broken, 
especially if you work with teenagers, those who are much more 
impressionable. But, unfortunately, as we've seen in these 
videos, you can also see the opposite effect.
    Second, educational reform is not a short-term process. Our 
work with educational reformers in Northern Ireland indicates 
that this is a decades-long effort.
    Third, we have found professional educators who are 
receptive to reform, and our efforts are to support, at the 
civil society level, those who want to see a curriculum that 
will encourage reconciliation and peace.

                           prepared statement

    But, fourth, and most disturbing, of course, is that the 
political context, the leadership that would encourage these 
kinds of reforms, is, in the Palestinian areas, apparently 
totally lacking at this point, and that unless we have that 
kind of leadership, it seems unlikely we will see sustained 
efforts to promote this kind of reform.
    Thank you.
    [The statement follows:]
              Prepared Statement of Dr. Richard H. Solomon
                              introduction
    Thank you, Senator Specter, for inviting me to testify this morning 
before the Senate Appropriations Subcommittee on Labor, Health and 
Human Services and Education.\1\ The U.S. Institute of Peace \2\ has 
traditionally testified before this Subcommittee to discuss its annual 
budget, which is funded by this Subcommittee. We are honored to be here 
today to discuss an issue that is at the core of the Institute's 
mandate: educating people in the perspectives of tolerance and mutual 
understanding, and training professionals in the skills of conflict 
management and resolution.
---------------------------------------------------------------------------
    \1\ Dr. Solomon will be accompanied by Mr. Steven Riskin, Program 
Officer in the Institute's Grant Program.
    \2\ The U.S. Institute of Peace was established by Congress in 1984 
as an independent, nonpartisan federal institution to promote the 
prevention, management, and peaceful resolution of international 
conflicts.
---------------------------------------------------------------------------
    As you know, the Institute was created nearly two decades ago as an 
educational institution. In our first decade of work, we focused on 
raising the awareness of American educators about war and peace issues 
and conflict resolution strategies. During the 1990s, in the context of 
efforts to stabilize the post-Dayton peace in the Balkans, the 
Institute developed programs beyond our borders to promote conflict 
resolution education in zones of conflict. What the Institute has 
learned through these activities abroad is that education reform is a 
powerful force for change. Indeed, it is critical in efforts to break 
the cycle of violence in conflict-ridden societies. Educating for 
tolerance and reconciliation, and overcoming entrenched attitudes of 
prejudice and hatred, requires intensive efforts at a people-to-people 
level, with educators and other leaders of civil society.
    We recognize that educating for peace is not a substitute for a 
successful political process. In an atmosphere poisoned by relentless 
violence, it is tempting to conclude that education and other dialogue 
programs are either irrelevant or impossible to sustain. But such a 
conclusion ignores the reality that any peace process can be sustained 
only with broad public support.
    The Institute's ongoing work with Israeli and Palestinian 
educators, religious leaders, and legal experts, even in the face of 
terrorist violence, however, sustains hope among leaders in these 
societies, leaders who some day will be the builders of peace. These 
are the people, in both societies, whose support will be critical to 
any future peace agreement. They are the ones who will be called upon 
to promote reconciliation once the political process gets back on 
track.
    Thus, the Institute is sustaining its educational programs despite 
the horrendous violence over the last three years. Despite occasions 
when our activities are disrupted by a bombing or a failure of 
diplomacy, we are heartened that Israeli and Palestinian educators have 
the courage to seek reforms and promote mutual understanding.
    Given the topic of today's hearing, I would like to describe what 
the Institute has done, and is doing, through its range of programs--
our Grant, Education, Training, and Fellowship programs--to help bring 
Palestinians and Israelis together, to reduce incitement to conflict, 
and build constituencies in support of reconciliation. I will also 
summarize some lessons the Institute has learned, through its work in 
conflict zones around the world, about how education can be used as a 
peacebuilding tool.
       wye river memorandum and the anti-incitement subcommittee
    The Institute became involved with the issue of incitement to 
violence in the Israeli-Palestinian conflict after the signing in 1998 
of the Wye River Memorandum. That agreement established a Trilateral 
Anti-Incitement Committee ``whose purpose [was] to reduce tensions and 
create a positive atmosphere of positive cohabitation. Its purpose 
[was] not to incriminate but to solve pressing problems.'' Among those 
serving on the Committee were former Institute Board members Father 
Theodore Hesburgh, President Emeritus of Notre Dame University, and Dr. 
Shibley Telhami, Anwar Sadat Chair for Peace and Development at the 
University of Maryland. As Father Hesburgh noted at the time, getting 
both sides to discuss educational reform was a daunting challenge. In a 
recent conversation on the issue, Father Hesburgh recalled, ``Both 
sides were not open to discussion.''
    As the Trilateral Anti-Incitement Committee began its work, two 
Institute staff members, Dr. Jeffrey Helsing and Mr. Steven Riskin, 
briefed the Committee about the Institute's experience on this topic 
and also provided useful lessons from other societies that had been 
working to reduce incitement by reforming their educational curricula.
                  the significance of education reform
    As relations between Palestinians and Israelis have evolved since 
Madrid and Oslo, U.S. officials, researchers, and education specialists 
have increasingly recognized the importance of reforming education 
systems in the promotion of peace, tolerance, and reconciliation. 
Educators in Israel and the Palestinian territories have begun over the 
past decade to examine ways the formal educational systems--through 
school textbooks and other means--address such topics as the history of 
the region. A primary objective of revising textbooks is to lay the 
groundwork to advance mutual understanding, encourage greater 
tolerance, and promote coexistence. Reconciliation cannot happen until 
long-held prejudices are challenged and the history, culture, and 
religion of the other side are recognized as having their own 
legitimacy.
    This is obviously a monumental task given the long history and 
current intensity of the Arab-Israeli conflict. The Institute is using 
its resources in support of educational reforms--however incremental--
and confidence-building measures that will end incitement to conflict 
and violence.
    Let me give you a few examples of our programs in this regard.
                        institute-related grants
    Through the Institute's Grant Program,\3\ we have supported the 
work of Seeds of Peace, a summer camp experience that sends Arab and 
Israeli teenagers for six weeks of coexistence training in Maine. Since 
1993, Seeds of Peace has brought together more than 2,500 young people 
who have learned of alternatives to hatred and conflict.
---------------------------------------------------------------------------
    \3\ As mandated by Congress, the Institute distributes funds each 
year ($3.25 million in fiscal year 2003) in support of research and 
conflict resolution programs worldwide.
---------------------------------------------------------------------------
    In 1999, the Institute awarded a grant to Seeds of Peace to develop 
an educational, interactive CD-ROM program based on the experiences of 
Arab and Israeli youth who have participated in the summer camp program 
for use in classrooms around the Middle East. The initiative has also 
prepared related curricular materials, a manual to guide educators in 
the use of the CD-ROM program, and a students' handbook. The start of 
the current Intifada has slowed dissemination of the CD-ROM, but it is 
reaching schools across the region.
    I should also note that the Seeds of Peace founder John Wallach, 
who tragically passed away last year, was an Institute fellow in 1998. 
During his fellowship, John documented the work of his remarkable 
organization in breaking down stereotypes and seeking an end to 
incitement and violence. His fellowship year culminated in the 
publication by the Institute of a study, The Enemy Has a Face: The 
Seeds of Peace Experience.
    The Institute also provided a grant in 1999-2000 to George 
Washington University Professor Dr. Nathan Brown to study the reforms 
underway in Palestinian politics in the wake of the Oslo peace accords. 
The culmination of this grant was his recently released book, 
Palestinian Politics After the Oslo Accords; Resuming Arab Palestine. 
Dr. Brown focuses his work on five areas: legal development, 
constitution drafting, the Palestinian Legislative Council, civil 
society, and the effort to reform education and write a new curriculum. 
He devotes a chapter of this book to ``Democracy, Nationalism, and 
Contesting the Palestinian Curriculum.'' In this latter chapter, Dr. 
Brown sheds light on the challenges facing Palestinian educators in 
their efforts to reform education in Palestinian society, advance more 
modern and democratic approaches to learning, and develop and implement 
new curricula.
    In this important work, Dr. Brown outlines the debates among 
Palestinian educators and politicians about how to build a new 
generation of Palestinian citizens committed to democracy and 
coexistence. He writes that the textbooks in use in the West Bank and 
Gaza Strip before the establishment of the Palestinian Authority were 
old Jordanian and Egyptian textbooks used when the territories were 
held by those two countries prior to the 1967 war. They contained many 
offensive and inaccurate passages regarding the history of the region 
and the State of Israel. These educators confronted the need to remove 
outdated and inaccurate accounts of history and geography from the 
curriculum and replace them with new perspectives that are consistent 
with the two-state solution that Israeli and Palestinian leaders, as 
well as President Bush, now hold out as the goal of a political 
process.
    In reworking their own textbooks, however, Palestinian educators 
confronted the fact that no Palestinian state yet exists, and that 
their relationship with the Israelis is still undefined. As a result of 
this uncertainty, Dr. Brown concluded, the new Palestinian textbooks do 
not fully reflect a commitment to educating for coexistence. 
Nevertheless, he asserts, these new Palestinian teaching materials 
represent a significant improvement over the old textbooks.
    Dr. Brown's assessment of Palestinian textbooks reveals a mixed 
record of reform and considerable room for improvement. But that is not 
a reason for despair. The Institute's experience is that there are many 
moderates on both sides of this conflict prepared to improve the 
quality of education on behalf of coexistence. While political leaders 
must create the context for peace, the Institute's responsibility is to 
support educational professionals who are laying the basis for mutual 
understanding.
    Another example of our grant-making and education work is our 
collaboration with the Middle East Children's Association, a joint 
Israeli/Palestinian non-government organization that works with 
teachers to improve intercommunal relations and promote curriculum 
development. As one of the few educational organizations still working 
across the Green Line, the Middle East Children's Association was 
awarded an Institute grant in the summer of 2001 to engage Palestinian 
and Israeli elementary and middle school teachers to:
    (1) assess the impact of the current violence on teachers and their 
professional capacities in the classroom;
    (2) develop educational materials that introduce students to human 
rights concepts and their relevance to tolerance and mutual 
understanding; and,
    (3) design a work plan for continued inter-ethnic engagement among 
educators in the context of the ongoing violence.
    With Institute support, the Middle East Children's Association has 
trained more than 250 Palestinian and Israeli elementary, middle, and 
high school teachers to cope with trauma resulting from the conflict. 
The initiative will result in a guide for implementing seminars for 
educators dealing with trauma, tools assessing the impact of such 
sessions on the capacity of educators to identify and cope with the 
trauma of their students, and educational materials for use in the 
classroom.
    At the end of November, the Institute's Education Program will be 
training 40 Israeli and Palestinian educators in new cross-cultural 
learning techniques and curricular materials that were developed by 
teachers in other zones of conflict (specifically, Northern Ireland and 
Macedonia). As part of this program, training materials from the 
``Education for Mutual Understanding'' curriculum mandated throughout 
Northern Ireland are being translated into Hebrew and Arabic. In 
addition, the November workshop will help Israeli and Palestinian 
educators to enhance their facilitation and conflict resolution skills 
so that they can work effectively in bi-national teams.
    Other relevant Institute activities in the educational area 
include:
  --A recent grant to Catholic Relief Services is supporting a project 
        to explore how issues of peace and tolerance can be addressed 
        in Pakistani religious educational institutions. The initiative 
        will result in a report on ways to integrate peace education 
        into the religious curriculum and will produce a peace 
        education module to be implemented in those institutions.
  --With Institute funding, a study based at Brown University is 
        examining religious educational materials used in schools 
        across the Middle East, in an effort to identify and promote 
        more tolerant Islamic curricula.
  --A 1997 grant to Hebrew University of Jerusalem examined middle and 
        secondary school history and civics textbooks used by 
        Palestinian and Israeli students, focusing particular attention 
        on the treatment of Israeli-Palestinian history and interaction 
        from 1949 to 1987. A joint Israeli and Palestinian research 
        team produced a report that examined national narratives in the 
        textbooks and identified negative stereotypes of the other in 
        an attempt to weed out these stereotypes and hostile references 
        of each other.
  --A 2002 grant to the Hebrew University of Jerusalem is supporting a 
        human rights education project to develop, implement and 
        evaluate a pilot teacher training course in Hebrew and Arabic 
        on theories of and approaches to promoting human rights. 
        Targeting some two dozen Arab and Jewish teachers from 
        underserved areas in Israel and East Jerusalem, the program 
        will result in a ``Human Rights Reader'' in Arabic to accompany 
        its Hebrew analogue, provide teachers with educational tools to 
        integrate human rights concepts into lesson plans, and produce 
        a model for human rights education that will be disseminated to 
        university schools of education and other teacher training 
        institutions in Israel.
  --A 2003 grant to the Israeli organization, Yesodot--The Center for 
        the Study of Torah and Democracy--is underwriting a faith-based 
        peace building training program for 16 religiously observant 
        Jewish and Muslim teachers in Israel that explores the 
        theological, psychological and social roots of intolerance and 
        conflict. The initiative will result in a manual for 
        facilitators of future religious Jewish and Muslim school 
        encounters and a curriculum on coexistence for teachers that 
        includes religious Muslim and Jewish sources and simulation 
        exercises. A previous Institute grant to Yesodot supported an 
        education program that brought together principals of Jewish, 
        Muslim, and Christian religious schools in a series of bi-
        monthly workshops exploring religious tolerance, coexistence 
        and citizenship issues.
   lessons learned about education reform in other zones of conflict
    The Institute's work in conflict zones around the world has yielded 
lessons that we are applying in our work with Israelis and Palestinian. 
Our Education Program recently convened scholars from Israel, Northern 
Ireland, Macedonia, and South Africa (via the Internet) to evaluate the 
effectiveness of cross-community relationship-building and to share 
experiences of teaching and curriculum development.
    The experience of Northern Ireland is particularly instructive, as 
schools there were reinforcing negative stereotypes and promoting 
incitement to conflict. In the 1970s, a small group of Protestant and 
Catholic parents and teachers wanted to transform education in Northern 
Ireland so that it promoted tolerance, respect, non-violence, and human 
rights. The curriculum they developed began in only a few schools, but 
after twenty years--or one generation--it has been adopted as a 
requirement by the educational authorities throughout Northern Ireland. 
A new curriculum on civic education is now being developed by a 
combined group of Protestant and Catholic educators. Northern Ireland 
will be a significant case study for a workshop on conflict resolution 
education that the Institute's Education Program is putting together at 
Hebrew University of Jerusalem.
    The Institute's extensive work in the Balkans has included peace 
education. A 1997 grant to the Centre for Transition and Civil Society 
Research in Zagreb, Croatia, sought to examine the content of history, 
politics, and literature textbooks at the primary and secondary school 
level in Bosnia, Croatia, and Serbia. The study, conducted by a 
multinational team, assessed the utility of existing textbooks in 
promoting reconciliation, and developed recommendations for designing 
and implementing peace education programs in the former Yugoslavia.
    Through the Institute's Jennings Randolph Fellowship Program, in 
2000-2001 we hosted an educator from Macedonia (Violeta Petroska-Beska) 
who conducted a project on ``Education for Interculturalism: Learning 
to Live Together in a Multicultural Society.'' With our support, Dr. 
Petroska-Beska has written curriculum development guides for teachers 
and trainers in Macedonia on topics such as combating ethnic 
stereotyping and promoting ethnic tolerance. Dr. Petroska-Beska is one 
of the education experts participating in our workshop with the Middle 
East Children's Association.
    The history of South Africa also provides insight about how to 
address curriculum reform and how the reform process requires a long-
term commitment to be successful. With the end of apartheid in South 
Africa there were, initially, many school programs on tolerance 
(including a strong human rights component) and conflict management. 
But transforming the official education curriculum, particularly on 
issues such as history and race relations, has now taken more than a 
decade and is not scheduled to be completed before 2005. Education 
reform is not a short-term process.
    Through its Grant Program, the Institute of Peace is currently 
funding a major research initiative focusing on how the teaching of 
history--through textbooks and school-based programs--affects attitudes 
about former enemies and contested pasts. The project will involve 
comparisons among case studies (Northern Ireland, Russia, Kazakhstan, 
and North and South Korea) and is likely to yield fresh insights for 
educators seeking to advance reconciliation in conflict and post-
conflict settings.
    other institute programs promoting israeli-palestinian conflict 
                               resolution
    As mentioned earlier, the Institute is working with a range of 
civil society leaders in Israeli and Palestinian societies to support 
conflict resolution.
    The Institute's Religion and Peacemaking Program continues to 
support the follow-up work to the Alexandria Declaration, signed in 
January 2002 by prominent Jewish, Muslim, and Christian leaders from 
Israel and the West Bank. The Declaration stresses that none of the 
three religious faiths legitimizes political violence, and calls for an 
end to all violence in the region. Because of the religious arguments 
used by extremists in this conflict to justify the use of violence, it 
is especially important to mobilize religious leaders to speak out for 
peace and coexistence--to undercut the arguments of the extremists.
    The Institute's Training Program works with Palestinians, other 
Arabs, and Israelis to promote alternative strategies to the use of 
violence in bringing about change. During 2000 and 2001, Institute 
staff conducted two workshops for 40 young Arab and Israeli leaders 
from universities, governments, the media, non-governmental 
organizations, and civil society with the goals of networking and 
preparing for a non-violent future. Institute facilitators used 
training in conflict management and resolution to illustrate how skills 
such as analysis and negotiation could resolve conflicts and achieve 
political and social goals. Arabs and Israelis engaged in joint problem 
solving, many working with each other for the first time. They also 
engaged in dialogue on their visions of the future in the Middle East, 
while grappling with the ongoing violence between their communities. 
The Institute's Training Program is currently organizing another 
skills-building workshop for Palestinians and Israelis in the first 
half of 2004.
    The Institute's Rule of Law Program, at the request of the Israeli 
and Palestinian ministers of justice, organized a special initiative on 
a Palestinian-Israeli legal dialogue. The Institute seeks to build 
professional relationships between the two legal communities and enable 
them to jointly solve common problems--a process they had not been able 
to start without outside facilitation, and that no other international 
party had undertaken. At roundtables and follow-on working groups in 
the region, members of the two legal communities and foreign experts 
discuss issues affecting the daily interaction of their two systems, 
and develop proposed solutions to common problems. Over 120 members of 
the two legal communities have participated to date. Although the 
dialogue was suspended during the recent violence, the Institute is 
exploring ways to reactivate the program.
                 conclusion and policy recommendations
    To summarize, the U.S. Institute of Peace is committed to the 
concept that education, through curriculum reform and the training of 
teachers, can be an effective component of conflict resolution efforts 
between Israelis and Palestinians. We support this commitment with our 
funding and programming, and we are sustaining our efforts despite 
today's daunting environment of hostility and violence!
    In the case of the Palestinians' education curriculum, the process 
of change that supports coexistence is incomplete, incremental, and 
still controversial. But continued attention to this issue by Members 
of Congress and the Administration is one important way of encouraging 
further progress.
    Educational reform in the Palestinian Authority will fully advance 
only in the context of political reconciliation, a process that, as 
President Bush has stressed, is at the heart of the ``roadmap'' effort. 
Educational reform will be a vital means of ensuring that any future 
peace agreement is widely understood, supported, and sustained over the 
long-term. Thus, the links the Institute is helping to build today 
between Palestinian and Israeli educators, legal professionals, and 
religious leaders will be part of the public support structure 
necessary for preventing the kind of collapse that ended the Oslo 
process. It is an investment in future peace.
    Confronting deeply held views of history and territory, much less 
revising them in the interest of accommodation with an adversary, is 
one of the most difficult and long-term tasks in conflict resolution. 
But such changes in attitude are essential to helping peace take root 
and preventing future outbreaks of conflict. The U.S. Institute of 
Peace is committing its resources to support Israelis, Palestinians, 
and other communities in conflict to educate their children for peace 
by teaching conflict resolution skills and promoting the values of 
mutual understanding, tolerance, and respect for the other.
    We thank the Committee for its support of our work. My colleagues 
and I look forward to responding to your questions.

    Senator Specter. Well, Dr. Solomon, when you talk about 
breaking the pattern if there is education of teenagers, isn't 
it all going in the wrong direction? Is there any effort being 
made to educate teenagers away from the culture of violence?
    Dr. Solomon. We have seen some efforts of that sort. We 
have funded some activities----
    Senator Specter. Such as what?
    Dr. Solomon. Well, here again, I think, at this point, we 
may want my colleagues to give you much more detail. My formal 
testimony gives a number of examples of institutions of civil 
society, not associated directly with the Palestinian 
Authority, that are trying to promote a curriculum of 
reconciliation.
    Senator Specter. Well, what are they accomplishing?
    Mr. Riskin. Well, the institution has supported several 
initiatives----
    Senator Specter. Well, we hadn't planned to have more 
witnesses, but step up and identify yourself, and----
    Mr. Riskin. This is Steven Riskin, of our----
    Senator Specter [continuing]. Talk to the question, if you 
can.
    Mr. Riskin [continuing]. Of our Grant Program.
    Senator Specter. What is your name, sir?
    Mr. Riskin. Steve Riskin. I work in the institute's Grant 
Program, and I'm a----
    Senator Specter. I would like to know specifically what the 
Institute of Peace is doing. We fund you $17\1/2\ million from 
this subcommittee.
    Mr. Riskin. Correct.
    Senator Specter. And I believe there is going to be an 
additional allocation of funding in the supplemental 
appropriation. And my question to you, What specifically are 
you doing to counteract that kind of virulent terrorism which 
is depicted in those videos?
    Mr. Riskin. We're a bridge-builder. We work with a variety 
of organizations in the region that are moderate and that are 
interested in removing the hate----
    Senator Specter. What are they doing?
    Mr. Riskin. What are they doing? In one instance, for 
example, Yesodot, which is the Center for the Study of Torah 
and Democracy, they are bringing teachers together----
    Senator Specter. Study of Torah and Democracy?
    Mr. Riskin. Torah and--Muslim, Christian, and Jewish 
liturgy--to talk about and to ferret out the areas where there 
is promotion of tolerance and reconciliation.
    Senator Specter. Are you reaching----
    Mr. Riskin. These are----
    Senator Specter [continuing]. Are you reaching teenagers, 
such as those you saw in the videos?
    Mr. Riskin. The work with the teachers--the work that we 
are doing with the teachers does trickle down into the 
classroom. We have found that the religious communities, 
particularly--and educators, but the religious communities were 
not involved or engaged in the Oslo process, and this is one 
area that, in the future, they will not only be--they have--
religion has been seen as being an impediment to the peace 
process, but here are people on both sides, religious people, 
who are committed to promoting nonviolence and peace.
    One of the other activities that we have been involved with 
as an institute is the Alexandria Declaration. David Smock, who 
works in our Religion and Peacemaking Program, has been a 
proponent of this, and this brought together Jewish, Christian, 
and Muslim leaders in Cairo to--and they signed a declaration 
in support of the peace process and nonviolent approaches to 
resolving the conflict, and there is an array of activities 
that are flowing from that.
    Senator Specter. Well, I think----
    Mr. Riskin. Getting----
    Senator Specter [continuing]. I think at the level that you 
describe, it's commendable, but it's not too impressive to talk 
about ``trickle-down.'' How much of it----
    Mr. Riskin. There----
    Senator Specter. Excuse me. Finish the question. How much 
of it reaches the kind of young people we see on these videos?
    Mr. Riskin. There are other organizations that we have and 
are supporting, like Neve Shalom, in addition to the Seeds of 
Peace Program, that directly relates to youth and gets them 
engaged with the other in mutual understanding.
    Senator Specter. Palestinian youth?
    Mr. Riskin. Palestinian youth. There are organizations that 
work both in Israel, with Jews and Arabs, and across the Green 
Line, because it's our view that what is happening in relations 
between Jews and Arabs in Israel does have an impact across the 
Green Line, as well. But there are materials that are being 
developed--human rights materials at the Hebrew University, 
both for Jewish and Arab classrooms. There is teacher training 
that's going on, and this is certainly connected to moving 
toward a resolution of the conflict.
    Senator Specter. How would you evaluate the effectiveness--
how would you evaluate the effectiveness of all of that, 
contrasted with these propaganda videos, which are shown on 
Palestinian terrorism?
    Mr. Riskin. Well, this is a difficult environment, 
obviously. The last 3 years, the intensity of the conflict, it 
is very difficult to say, okay, here's a huge success that we 
have had. We are working with courageous moderate educators--in 
some cases, legal specialists--across the Green Line. These are 
people who are committed to working together to resolve the 
conflict. These are two competing narratives on the education 
front. We have supported work--and it's in the testimony--
Jewish and Arab educators together, looking at what is in the 
textbooks and seeing how events were portrayed and trying to 
work out, not a unified history, but at least an appreciation 
that can then be--and work has been done to translate that 
appreciation into material that's used in classrooms.
    Senator Specter. Let me come back----
    Mr. Riskin. It is----
    Senator Specter [continuing]. Let me come back to my 
question. How effective is that against this kind of video 
propaganda?
    Mr. Riskin. That's a difficult--it's a difficult question 
to answer. We know it is effective with the teachers who are 
engaged in these activities, because they are committed to 
working with the other and mutual understanding. And it is our 
hope--and this work is to expand the pool of moderate, in this 
case, educators----
    Senator Specter. We have seen----
    Mr. Riskin. [continuing]. Working through the system.
    Senator Specter [continuing]. We have seen the textbooks in 
the Palestinian schools, for a decade or more, preaching 
violence, terrorism, and hatred. Have those textbooks been 
changed?
    Mr. Riskin. Dr. Solomon referred to the study here that we 
funded, in part, that looked at those textbooks. And before 
1993, as you may know, the textbooks that were used in Gaza and 
the West Bank were Egyptian and Jordanian, and there was 
hateful material in those. And those are no longer, by and 
large, used. There is now new material coming out, and the 
study that we funded indicates that progress has been made. 
Still, there are problems with it, but significant progress 
about removing hateful references to Jews and Israel--in fact, 
the omissions that I think were mentioned earlier talking about 
Israel from a Palestinian perspective is a difficult thing to 
do, as it is for Israelis talking about it. Where do you draw 
the lines for a state? It's very difficult to present maps, for 
example, when you don't know where the limits of your----
    Senator Specter. Never mind the maps or the delineation of 
the states. Do the current textbooks being given to--in 
Palestinian schools to fourth-graders, fifth-graders, sixth-
graders, seventh-graders contain hateful information about 
Israel and Jews?
    Mr. Riskin. I have not done the study of those textbooks. I 
can only refer to some of the work that's been done here. It's 
been less than 10 years since there was a Ministry of 
Education, and there had--reform is underway, and I think a 
few--textbooks at a few levels--and there will be speakers 
later, I think, who can address this--there are textbooks at 
some of the levels that have come out that are a step clearly 
in the right direction, of removing hateful material.
    Dr. Solomon. Mr. Chairman, let me just add----
    Senator Specter. Excuse me----
    Dr. Solomon. Sure.
    Senator Specter [continuing]. Dr. Solomon.
    The subcommittee would like an answer to the question 
specifically. It shouldn't be too hard to answer. Those 
materials are available, and the subcommittee would like to 
know whether, currently, the textbooks being used in 
Palestinian schools have hateful and inciteful matters against 
Israel and Jews.
    You wanted to say something, Dr. Solomon?
    Dr. Solomon. Well, I was just going to repeat--I think my 
bottom line on this is, until you get a leadership in the 
Palestinian Authority that is committed to reform and 
reconciliation, the people that we work with in civil society 
are not going to be reinforced, empowered by their own 
leadership. And so that puts a substantial constraint on the 
impact of the kinds of things we're supporting.
    But you are certainly entitled to a full accounting of the 
projects that we support and as best an answer to your question 
as we can provide you.
    Senator Specter. Well, we'd like to have it, because every 
year we take a look at your request for money, and the budget 
is extremely tight, and we'd like to know what value is being 
received by the U.S. Government for the $17 million a year.
    [The information follows:]
       Teaching About Combating Incitement in Palestinian Schools
    Hate and incitement in Palestinian schools is a serious issue and a 
central concern of all the Institute's education work. We commend you, 
Senator Specter, for raising this issue to the attention of your 
colleagues and the American people, and taking a leadership role in 
addressing this very disturbing problem. Teaching children to hate is 
unacceptable, and the Institute is doing its part to address this 
problem.
    While hateful and inciting materials were clearly evident in older 
Palestinian textbooks, improvements are being made to eliminate such 
overt incitement statements in more recently published Palestinian 
textbooks. When the Palestinian Authority (PA) assumed control over 
education in the West Bank and Gaza in 1994, it initially relied on 
Jordanian and Egyptian textbooks, pending the composition of a new, 
Palestinian curriculum. That new curriculum was designed between 1995 
and 1998, and the first new textbooks (for grades 1 and 6) were 
introduced in 2000. Two grades have been switched over to the new 
textbooks each year; as of the beginning of the current school year, 
grades 1, 2, 3, 4, 6, 7, 8, and 9 all use the new textbooks. In grade 5 
and the remaining high school grades the older Jordanian and Egyptian 
books are still in use as of this writing. Israeli schools for 
Palestinians in East Jerusalem follow the same pattern, using the same 
books. No academic study has been carried out regarding the older 
books, but they have few defenders. Thus, to our understanding, they do 
include material that is hostile to Jews and Israel.
    The newer Palestinian textbooks have been studied extensively by 
academics and by non-governmental organizations including:
  --Nathan J. Brown, professor of political science and international 
        affairs at George Washington University, has conducted research 
        on the new curriculum with funding from a grant from the U.S. 
        Institute of Peace and a Fulbright research and teaching grant 
        in Israel.
  --The U.S. Department of State, through our embassy in Tel Aviv and 
        the consulate in Jerusalem, commissioned a study conducted by 
        Israeli, Palestinian, and international educational experts 
        under the auspices of the Israel-Palestine Center for Research 
        and Information (IPCRI).
  --A joint project was conducted by an Israeli academic (Ruth Firer) 
        and a Palestinian academic (Sami Adwan), funded in part by the 
        U.S. Institute of Peace, and carried out under the auspices of 
        the George Eckert Institute in Germany, covered both Israeli 
        and Palestinian education.
  --The Center for Monitoring the Impact of Peace (CMIP), an Israeli 
        non-governmental organization, has focused on the topic since 
        1998.
  --The Middle East Media Research Institute (MEMRI) released a report 
        on the first new Palestinian textbooks in 2002.
    All five assessments agree that explicit incitement has decreased 
or been eliminated in the new Palestinian textbooks. The latter two 
organizations still find problematic material and implicit incitement. 
The first three studies, however, found no material that could be 
fairly called incitement. The new textbooks, however, do not treat 
Israel or Jews in any consistent manner. The little material they do 
include reflects a strongly nationalistic point of view (for instance, 
they include illustrations of home demolitions and a short unit on the 
1948 massacre at Deir Yassin). The new textbooks do not make efforts at 
peace education, either avoiding many of the most sensitive topics or 
treating them obliquely. The new textbooks show some progressive 
themes--as on gender, democracy, and human rights issues--but they are 
quite timid on issues related to Israel.
    The Institute is well aware of the serious problem of textbooks 
teaching hate and incitement and has approached it from a number of 
vantage points. Institute staff have worked with our former Board 
member Father Theodore Hesburgh, who traveled to Israel a number of 
times as a member of an official delegation looking into the issue of 
incitement following the signing of the 1998 Wye Agreement. The 
Institute has approached the issue of Palestinian education primarily 
through its Education Program and Grant Program, which are involved in 
teacher training and the development of learning materials for 
Palestinian and Israeli teachers to use in the classroom. The Institute 
has learned from its work in other zones of conflict, such as Northern 
Ireland and the Balkans, that a central component of any effective 
strategy for reaching students is to work with their teachers. This has 
a multiplier effect by influencing the students in the classrooms. If 
teachers are not sensitive to the issue of hate and incitement, then 
what is in the textbooks will have limited effect.
    The following is an account of how the U.S. Institute of Peace is 
doing its part to address incitement by working directly with American, 
Israeli and Palestinian educators and civic groups through our 
Education and Grant making programs:
    1. The Institute has worked with the Middle East Children's 
Association (MECA), a joint Palestinian-Israeli NGO, in a project that 
brings over 250 Palestinian and Israeli elementary and middle school 
teachers together to create learning materials for their students that 
incorporate peace, tolerance, respect, responsibility and non-violence. 
From November 28-30, 2003, the Institute's Education staff conducted a 
training workshop in Cyprus for MECA participants. In this workshop, 
Palestinian and Israeli teachers worked with curriculum developers and 
teacher trainers from other zones of conflict. They drew on the lessons 
and experiences of teachers in other conflict zones, such as Violeta 
Petroska-Beska, a Macedonian educator who was a 2000-2001 Jennings 
Randolph Fellow at the Institute and wrote curriculum development 
guides for teachers and trainers in Macedonia on topics such as 
combating ethnic stereotyping and promoting ethnic tolerance. The MECA 
participants will be training additional teachers inside Israel, the 
West Bank and Gaza Strip. MECA's training initiatives, with the 
Institute's support, will not only engage educators from both sides of 
the conflict, but will directly impact several thousand students. The 
multiplier effect of the Institute's working with and training teachers 
is significant. Programs like MECA provide Israeli and Palestinian 
teachers with the opportunity to counter the incitement that surrounds 
their classrooms and reinforce the message of coexistence to their 
students. The Institute has also provided grants to assist in the 
development of MECA.
    2. Promoting understanding and respect for human rights is another 
critical aspect of the Institute's efforts to reduce incitement and 
strengthen peaceful approaches to resolving differences. A 2002 grant 
to the Hebrew University of Jerusalem mentioned in my testimony is 
supporting a human rights education project to develop, implement and 
evaluate a pilot teacher-training course in Hebrew and Arabic on 
theories of and approaches to promoting human rights. Targeting some 
two dozen Arab and Jewish teachers from underserved areas in Israel and 
East Jerusalem, the program will produce a ``Human Rights Reader'' in 
Arabic to accompany its Hebrew analogue, provide teachers with 
educational tools to integrate human rights concepts into lesson plans, 
and produce a model for human rights education that will be 
disseminated to university schools of education and other teacher-
training institutions throughout the country. In the initial phase, 
this program will reach several hundred Jewish and Arab Israeli 
students as well as Palestinian students in East Jerusalem. In 
collaboration with Haifa University the program will soon be launching 
training programs that will engage between 80-100 Arab and Jewish 
teachers in northern Israel--impacting hundreds of classrooms and 
thousands of students. Discussions are now underway with Ben Gurion 
University of the Negev to mount a similar program for teachers in the 
southern part of the country.
    3. The Institute is a supporter of the Seeds of Peace organization, 
a summer camp experience that sends Arab and Israeli teenagers for six 
weeks of coexistence training in Maine. In 1999, the Institute awarded 
a grant to Seeds of Peace to develop an educational, interactive CD-ROM 
program based on the experiences of Arab and Israeli youth who have 
participated in the summer camp program for use in classrooms around 
the Middle East. The initiative has also prepared related curricular 
materials, a manual to guide educators in the use of the CD-ROM 
program, and a students' handbook. The start of the current Intifada 
has slowed dissemination of the CD-ROM, but even so it is reaching 
schools.
    4. The Institute also provided through a grant to Seeds of Peace 
support for an October 10-17, 2003, Seeds of Peace International Youth 
Conference ``Breaking News, Making Headlines.'' The Conference enabled 
125 youth ages 15-19, including Palestinian and Israeli, to develop the 
independent thinking skills necessary to decipher media and use it to 
make their voices heard. The Conference moved beyond identifying the 
factors that contribute to conflict towards constructive action to 
reverse these trends in their societies, specifically focusing on the 
question: How can we redirect the power of the media towards the 
positive aim of building a culture of peace.
    5. As noted in my testimony, a 2003 Institute grant to the Israeli 
organization, Yesodot--The Center for the Study of Torah and 
Democracy--is enabling this organization of religiously observant 
Jewish Israelis to reach communities long neglected by programs seeking 
to advance tolerance, mutual understanding and peace. This peace-
building training program for 16 religiously observant Jewish and 
Muslim teachers in Israel explores the theological, psychological, and 
social roots of intolerance and conflict. While modest in its early 
stages, the project will expand the small but growing number of 
religious educators promoting shared values of coexistence and mutual 
acceptance, and will reach several hundred students. Moreover, the 
potential growth of this program is significant, with the number of 
Muslim and Jewish student beneficiaries likely to reach several 
thousand.
    6. A 2003 Institute grant to the Jerusalem-based Citizens' Accord 
Forum is funding a coexistence leadership training program for Jewish 
and Arab middle school youth. In the first phase, targeting students 
between the ages of 14-15, the initiative will train and develop the 
skills of a future cadre of outstanding community leaders motivated and 
equipped to be active in the field of coexistence work on a local and 
national level. The initiative will also develop curricula and study 
materials in peacemaking and coexistence, and disseminate a new model 
of collaboration and partnership among Arab and Jewish youth, parents, 
educators, and their broader communities.
    7. As stated above, an Institute-funded project in 1997 based at 
the Hebrew University of Jerusalem examined middle and secondary school 
history and civics textbooks used by Palestinian and Israeli students, 
focusing particular attention on the treatment of Israeli-Palestinian 
history and interaction from 1949 to 1987. A joint Israeli and 
Palestinian research team produced several reports that examined 
national narratives in the textbooks and identified negative 
stereotypes of the other in an attempt to weed out these stereotypes 
and hostile references of each other. The soon-to-be published findings 
of this research have already been used by and had a direct impact on 
curriculum development in the Palestinian Ministry of Education, and 
the development of new junior high school curriculum in Hebrew and 
Arabic on the subjects of geography, literature and civics, is now 
underway.
    8. Also as stated above, the Institute provided a grant in 1999-
2000 to George Washington University Professor Dr. Nathan Brown to 
study the reforms underway in Palestinian politics in the wake of the 
Oslo peace accords. The culmination of this grant was his recently 
released book, Palestinian Politics After the Oslo Accords; Resuming 
Arab Palestine. He devotes a chapter of this book to ``Democracy, 
Nationalism, and Contesting the Palestinian Curriculum.'' In this 
chapter, Dr. Brown sheds light on the challenges facing Palestinian 
educators in their efforts to reform education in Palestinian society, 
advance more modern and democratic approaches to learning, and develop 
and implement new curricula.
    9. With Institute grant funding in 2003, a study based at Brown 
University is currently examining religious educational materials used 
in schools across the Middle East, in an effort to identify and promote 
more tolerant Islamic curricula. The initiative will also assess 
contemporary Islamic education in comparison with the classical 
tradition, explore points of convergence and reciprocity among 
different religious traditions in the Middle East, and probe models for 
Islamic religious education that can inform the development of new, 
more tolerant and inclusive curricula.
    10. In addition, in May 2004, the Institute is planning to conduct 
a conflict resolution education program at Hebrew University of 
Jerusalem that will supplement the education graduate students are 
receiving in conflict resolution studies. The training program will 
bring together Israeli and Palestinians educators who are working to 
incorporate principles of conflict resolution, peace and non-violence 
into their teaching and their classrooms.
    In closing, the Institute is committed to expanding its work with 
educators on anti-incitement education wherever we find receptive 
Israelis and Palestinians partners. We understand that these efforts 
will be substantially constrained until there is leadership in the 
Palestinian Authority that is committed to reform and reconciliation. 
In the meantime, the Institute measures the impact of its programs 
based on increasing dialogues between Israeli and Palestinian teachers 
and getting them to teach their students about peace and conflict 
resolution.
    I want to express the Institute's deep appreciation for your 
support of its work, which is sustained by appropriations from this 
Subcommittee. We look forward to working with you and other members of 
this Subcommittee on this very important subject.

    Senator Specter. Mr. Kunder, I note that the administration 
requested $75 million in direct aid for the Palestinian 
Authority for the fiscal year 2004. The bill drafted by the 
Senate does not contain a specific dollar amount for the 
Palestinians. Is there still a request by the administration 
for $75 million in direct aid for the Palestinian Authority, or 
has that changed with the deterioration of the Palestinian 
Government and the change of Prime Minister?
    Mr. Kunder. Sir, I think Ambassador Satterfield stated 
exactly what the situation is now, that there would be no 
additional direct--it would be considered on a case-by-case 
basis. There would not be additional assistance, except in 
those cases--in those circumstances that he described, that all 
those guarantees would be met. So I take that, his answer to 
your earlier question, as the current state of play.
    Senator Specter. Mr. Kunder, where you fund humanitarian 
projects in the West Bank and Gaza, does that result in the 
indirect release of funds, which can be used by the Palestinian 
Authority for terrorism?
    Mr. Kunder. Sir, whenever we're acting as stewards of the 
taxpayer dollars anywhere around the world, I think the 
question of fungibility always comes up, and we cannot deny 
that in any circumstance a dollar is a dollar, so that a dollar 
going to any entity or any nation or any NGO around the world 
can be seen as a dollar that that organization does not have to 
locate or access from some other source. So at that level of 
generality, of course dollars going to any entity provide 
resources that don't have to be raised somewhere else.
    Senator Specter. Well, it obviously poses a very difficult 
choice. You don't want to free up money to go to terrorist 
operations.
    Mr. Kunder. Yes, sir.
    Senator Specter. And I know there is a real effort to try 
to stimulate some moderate view----
    Mr. Kunder. Yes, sir.
    Senator Specter [continuing]. Within the Palestinian 
Authority to try to advance the peace process. But, to the 
extent possible, are you looking at situations where USAID 
might release money for terrorism, to avoid it where at all 
possible?
    Mr. Kunder. We have a specific certification required of 
all of our grantees that's quite specific--we could certainly 
make a copy of it available to you--that goes into quite 
detailed requirements by any of our recipients, in terms of 
what they can do and cannot do, in terms of the pass-through of 
money.
    Senator Specter. I'm familiar with the certification.
    Mr. Kunder. Yes, sir.
    Senator Specter. It provides that the Palestinian entities 
will not provide material, support, or resources to any 
individual or entity which it knows or has reason to know is 
acting as an agent for any individual or entity that advocates, 
plans, sponsors, engages in, or is engaged in terrorist 
activity. So that's what you were referring to.
    Mr. Kunder. Yes, sir.
    Senator Specter. And we've been advised that many 
Palestinian partners have refused to sign the pledge. Is that 
correct?
    Mr. Kunder. That's correct. Yes, sir.
    Senator Specter. But where they refuse to sign the pledge, 
do you give them American money?
    Mr. Kunder. I'm sorry, sir? They----
    Senator Specter. Where they refused to sign the pledge, do 
you advance U.S. aid to them?
    Mr. Kunder. If this is an--the certification is an absolute 
requirement to receive USAID assistance. If an organization 
does not sign the certification, it will not receive any 
assistance.
    Senator Specter. Well, okay, that's good news.
    Well, thank you very much, gentlemen. It's a very, very 
difficult issue, but what I think we have to look for is 
something that does hand-to-hand combat with those videos. Is 
there any avenue available for the United States or any other 
entity to put on videos to compete with the videos which we 
have seen?
    Mr. Kunder. Sir, if I could, the--on page 3 of my 
testimony--I didn't capture it in my quick overview--but we go 
into some of the peace curriculum and conflict resolution work 
that is being done, the development of curriculum to be 
inserted into the Palestinian school systems. And these 
programs, in answer to your question about what kind of impact, 
have reached tens of thousands of students, and we will be glad 
to provide detailed descriptions of those programs. So there 
are certainly competing curricula out there.
    Senator Specter. Any--never mind curricula--any television? 
Curricula is very passive. Television is very active. Any 
competing television?
    Mr. Kunder. Yes, sir. We are----
    Senator Specter. Such as?
    Mr. Kunder. Both in terms of participation, we are funding 
the coverage, for example, of town meetings and alternate 
moderate voices that--to lobby the Palestinian Legislative 
Council. We have actually funded--because we know the power of 
this kind of media, we have actually funded some soap operas 
that portray--and sometimes in some pretty controversial 
terms--but Israel-Palestinian dialogue. So, yes, sir, we take 
your point, and we're doing some of that.
    Senator Specter. Anything that, head-on, hits the 
inducement to these young Palestinians to commit suicide with a 
bombing?
    Mr. Kunder. Sir, to the best of my knowledge, I don't think 
so, but I will follow up and get that information to the 
committee.
    [The information follows:]

    USAID funds a broad range of activities in the West Bank and Gaza 
that engage the youth population, and are aimed at dissuading 
Palestinian youth from aspiring to be suicide bombers. For example, as 
the attached table of civil society and community service activities 
indicates:
  --Our democracy and governance projects teach the skills of 
        democratic, civil, non-violent mobilization and advocacy. They 
        reach out to school children and university students, providing 
        mentoring, counseling, and structure, and at the same time 
        imparting skills, knowledge, and appreciation for non-violent 
        conflict resolution techniques.
  --USAID-supported civic education media programs are widely 
        disseminated and artfully designed to deliver and reinforce the 
        message that while there are problems, violence is not a 
        solution.
  --Town hall meetings, panel discussions, and young leader training 
        programs reach out into the heart of the communities that have 
        been identified as prime breeding grounds for suicide bombers, 
        providing avenues of communication and organization that are 
        effective and healthy alternatives to violence.
  --Through our various community service programs, we are trying to 
        inculcate skills and positive experiences that will support 
        non-violent conflict resolution behaviors. For Palestinians 
        teens and young adults, we support programs that ``get them off 
        the street'' into positive, healthy, mentored situations where 
        they are engaged in constructive activities and, at the same 
        time, developing attitudes and problem-solving techniques that 
        are conducive to adopting non-violent approaches to resolving 
        the national conflict.
    In addition, a significant portion of our overall programming is 
geared to meeting emergency health and humanitarian needs, creating 
jobs, providing educational opportunities, and supporting economic 
development. In this way, USAID programs give Palestinian youth hope 
for a better life and future.
    This hearing has been useful in sharpening USAID's focus on the 
nature of the issue of suicide bombings. Consequently, this fiscal year 
we plan to use available funds to design and implement additional 
targeted activities, within the parameters of current U.S. law.

  USAID/WEST BANK AND GAZA CIVIL SOCIETY PORTFOLIO CONTRIBUTIO TO ANTI
                             INCITEMENT \1\
------------------------------------------------------------------------
                                  Activity Name/Implementing
             NGO                          Partner(s)             Amount
------------------------------------------------------------------------
                             Moderate Voices
               Academy for Educational Development (AED);
                    Search for Common Ground (SEARCH)
 
The Palestinian Center for     Gaza Conflict Resolution          $54,965
 Helping to Resolve Community   Project--Peer Mediation.          26,662
 Disputes.                     Nablus Youth Parliament........
Middle East Non-violence and   Non-Violence Training Of           49,949
 Democracy (MEND).              Trainers.                         49,494
                               Non Violence Radio Soap Opera..    27,824
                               Training of Media Professional
                                in skills that Promote Non-
                                Violence.
Israel Palestinian Center for  Peace Education Program Non-       25,212
 Research and Information.      Violence Module.
Palestinian Forum for          Non-Violence Training of           48,902
 Democracy.                     Leaders in Gaza.
 
                                 Tamkeen
                             Chemonics Inc.
 
The Palestinian Center for     Advocating Democracy and Human     70,800
 Micro Project Development.     Rights through Combating
                                Social Violence.
Fekra For Educational Art....  Women in Gaza: Expression          85,660
                                through Theater.
Women and Child Development    Democracy Awareness Program for    51,580
 Association.                   Children in Rafah.
Community Training and Crisis  Civic Education Program of         64,320
 Management.                    Youth in the Shejayia and
                                Zeitoun areas.
MAAN.........................  Palestinian Children Taking        98,412
                                Part--A Right and a
                                Responsibility.
International Palestinian      Democracy and Citizenship          68,543
 Youth League.                  Summer Camp.
Panorama.....................  Youth Assembly on Leadership...    95,705
                               Special Interest Groups for        99,475
                                Community participation via
                                Advocacy and Policy
                                Developemtn.
Bisan........................  Advocacy for a Regional Public     97,019
                                Policy on Youth in Civic and
                                Democratic Participation
                                (Nablus).
Gaza Community Mental Health   Cooperation through Video          24,308
 Programme.                     Conferencing.
The Palestinian Association    Supporting the Rule of Law and     78,530
 for Legal Sciences.            Resolving Disputes through
                                Arbitration and Mediation.
Civic Forum..................  Strengthening Palestinian Civil   297,000
                                Society and Grassroots
                                Democratic Development in the
                                Northern, Central, and
                                Southern West Bank.
Al Mamal Foundation for        Contemporary Art for               85,286
 Contemporary Art.              Palestinian Youth.
Maghazi Community              To Enhance Community Based         90,155
 Rehabilitation Society.        Education in Maghazi Camp.
The Palestinian Institute for  Enhancing university Students      50,610
 Community Research and         Role in Public Issues.            50,725
 Training.                     Enhancing Students' Role and
                                Participation in Civil Society
                                Issues and Democratic Reforms
                                in Al Aqsa University.
Al Jalaa For Culture and Arts  Civic Education for Children       95,913
                                through Drama.
El Karmel Cultural             Enhancing Democracy and            51,400
 Association.                   Creativity Among the Children.
Gaza Center for Rights and     Civil Education in Democracy       47,680
 Law.                           and Human Rights for Young
                                Leadership.
Center for Private Sector      The Palestinian Private Sector--   92,682
 Development.                   Towards a More Vibrant Role.
Ashtar Theatre...............  Abu Shaker's Affairs 2002. A       93,700
                                Theatre Performance as a Tool
                                for  Change.
Alpha International..........  Monitoring Attitudes and           94,120
                                Perception of High School
                                Students in Pales-  tine and
                                Utilizing Derived Indicators
                                to Conduct an Array of Public
                                Advocacy Activities on Various
                                Aspects of Survey Findings.
Educational Network Center...  Strengthening the Role of          99,925
                                Education in Building Civil
                                Society in Pales-  tine.
Arab Thought Forum...........  Civil Society Participation        99,292
                                Project.
                               Citizen's Rights Project.......    99,412
                               Youth Leadership Project.......    98,644
Ayyam Al Masrah..............  Theatre Plays with Kids in Gaza    83,330
                                and Hebron.
 
                                 Civitas
            Participating Agencies Services Agreement (PASA)
               with Public Diplomacy, Department of State
 
Palestinian Youth Association  Youth4Change...................    20,000
 for Leadership and Rights
 Activation.
Center for Continuing          Birzeit University.............    19,535
 Education.
Association for Women's        Developing Young Female Leaders    24,000
 Action for Training and
 Rehabilitation.
Palestinian Center for         Empowering Women in the Nablus     20,400
 Resolving Community Disputes.  Area to Understand Legislation
                                and Increase their Capacity
                                for Political Participation.
 
------------------------------------------------------------------------
\1\ Ongoing sub-grants only, not including completed or planned
  activities under these projects.

    Senator Specter. Well, it's a subtle matter as to how you 
combat it. Do you have people working on it to figure out how 
you do it, where you have some, perhaps, other Palestinian 
teenagers talking about living and affirming life, and not 
hatred and suicide?
    Mr. Kunder. Frankly, sir, your hearing here today will 
cause us to look at all these issues more sharply in the 
future, and we will look at that.
    Senator Specter. Well, that's the first time I've heard any 
hearing doing any good, but----
    Mr. Kunder. I'm quite serious. I'm not saying that to make 
you feel good. I'm being quite serious.
    Senator Specter. All right. Let us know what is being done 
at the present time----
    Mr. Kunder. Yes, sir.
    Senator Specter [continuing]. To combat that kind of 
inciting video of the suicide bombers and what you have plans 
to do to come to hand-to-hand combat with that kind of trash, 
garbage, and incitement.
    Mr. Kunder. Yes, sir.
    Senator Specter. Okay, thank you very much, gentlemen.
    Dr. Solomon. Thank you.
    Senator Specter. I'd like to proceed now to our second 
panel, Dr. Hassan Abdel Rahman, Dr. Ziad Asali, and Dr. Morton 
Klein, and also Mr. Itamar Marcus.
    Mr. Marcus, you have already identified yourself, and thank 
you for making those videos available to Members of the Senate 
earlier and for providing them to the hearing today. The floor 
is now yours for 5 minutes.
    Mr. Marcus. Okay, thank you.
    One of the challenges, I think, facing any funding of the 
Palestinian Authority is that not only do the Palestinians use 
television as we've seen, the Palestinians use the full range 
of social structures and cultural structures within Palestinian 
society in order to promote these values. And I wanted to give 
you some examples, and you can actually follow with some of 
these texts there on the screen.
    So, for example, this summer, there was a whole summer-camp 
infrastructure, which we presume is to get children out of the 
cities and out into the country, and yet the summer-camp 
infrastructure was one that was focused, as well, on the 
suicide terrorists.
    So, for example, there was a summer camp named after Wafa 
Idris, who was the first woman suicide bomber. And if you look 
at the bottom of the article here on the screen, you'll see 
that UNICEF was thanked for its support of the camps at the 
closing ceremonies. So you have a camp named after the first 
woman suicide bomber, UNICEF funding for this camp.
    We had another summer camp for the Ayyat al-Akhras, 17-
year-old girl, youngest suicide bomber, again this summer. So 
that summer camps are used as this means, as well.
    Sporting events, which, again, is entertainment around the 
world for children, have been a means also to rave and to 
create role models for children who are terrorists. So that, 
for example, just this past month, there was a soccer 
tournament, a major, major soccer tournament, in the 
Palestinian Authority. The sponsors of the tournament were Saab 
Erekat, Yasser Arafat, Jibril Rajoub, the Minister of Sport, 
the mufti, all of the heads of the Palestinian Authority 
sponsoring a soccer tournament. And the 24 teams, each of the 
24 teams was named after a different shahid, a different 
martyr, including people like Yechya Ayash, who was the first 
Hamas engineer, Dalil Mughrabi, who--involved in a hijacking 
killing 36, including an American. So all of the heads of the 
Palestinian Authority this summer put their names on a sport 
tournament glorifying terrorists.
    This role-modeling, by the way, and naming after 
terrorists, is not limited to terrorists who have killed 
Israeli's; it includes terrorists who have killed Americans in 
Iraq. So, for example, we found in the Palestinian newspaper, 
just 4 days after the first suicide Iraqi terrorist killed four 
U.S. marines, the P.A. renamed a square in Jenin after that 
suicide terrorist. So this role-modeling and turning the 
terrorists into heroes is directed not just at Israelis, but at 
Americans, as well.
    Now, I want to step back for one moment, and I want to show 
you a film here. We've been discussing the level of terrorism, 
but what we haven't discussed at all is the level of ideology. 
And I think this must be understood, because unless we 
understand why the Palestinians are teaching their children to 
fight, we won't understand why they are participating in 
terrorism. And I want to show you a short item here from an 
educational program on Palestinian television. It's significant 
the person speaking is the head of a history department. And in 
understanding what he is saying to these children, you will get 
a sense of the foundation of the conflict that we are having 
today, that continues to until today.
    [Video presentation.]
    Mr. Marcus. Again, I start with this because I think this 
is why we still have a conflict today. This message, we have 
heard hundreds and hundreds of times, to Palestinians, both in 
formal and informal structures, all of Jewish history is lies, 
everything belongs to the Palestinians.
    Interestingly, the new Prime Minister made this comment, 
which appeared in a Palestinian daily just after President Bush 
had made the speech in June of this year talking about the 
Palestinians recognizing Israel as Jewish state. And he said: 
``What is the meaning and the concept of a Jewish state? Does 
this mean that this is a Jewish state, this is Sunni, this is 
Shi'ite, this one is Christian? These differences could plunge 
the region into a whirlpool.'' Even the new Prime Minister 
refuses to acknowledge that the Jews are a nation having a 
right to a state. He puts this in the category of a religion. 
And so we're seeing that this message isn't coming in the 
formal education, it's coming from the political leader. It 
permeates Palestinian society, and I feel this is the 
foundation of the conflict that continues to date.
    This message continues even in the new school books. And I 
will beg to differ, it's not just a sin of omission in the new 
school books; the new schools books continue to de-legitimize 
Israel. And I have a couple of items here that appear in the 
very new school books. Israel is defined as a colony. And to 
the chapter on colonialism, Palestine faced British occupation 
after the first world war, and Israeli occupation in 1948. 
Israel is foreign. They are an occupier.
    Referring to Israel cities and regions, like Beersheba and 
Negev, they're talked about Southern Palestine. The Sea of 
Galilee is referred to as part of Palestine. There is no 
recognition in the school books. People look at the maps, as 
you see here, in the Palestinian school books and say, it is 
because there is no borders, final borders. That is not the way 
they're presenting it to their children. They're presenting it 
to their children that this is the Palestine. These are all 
pictures from new school books.
    Senator Specter. Mr. Marcus, you're a minute over time. 
Could you sum up at this point?
    Mr. Marcus. Yes.
    I just want to put the two messages together with this 
final short video that you will see. This is from a Palestinian 
graduation this summer, and it combines the ideology, as well 
as the desire that the children have--are being taught for the 
use of force to achieve their goals. Again, this is Palestinian 
television, a film from a high school graduation.
    [Video presentation.]

                           prepared statement

    Mr. Marcus. Okay. This summarizes the essential conflict. 
Israeli cities are still being portrayed to the children as 
Palestine, and they will liberate it through their stone and 
their knife.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Itamar Marcus
    Mr. Chairman, Senators, there is significant evidence documenting 
Palestinian Authority [PA] incitement of its children to hatred, 
violence and Death for Allah--the Shahada. This incitement is advanced 
by the PA through the entire social-educational structure, including 
sporting events and summer camps, the media including music videos for 
children and schoolbooks. Jews and Judaism are presented as inherently 
evil, Israel existence as a state is de-legitimized and denied, and 
fighting Jews and Judaism is presented as justified and heroic.
    The PA Ministries of Education and Sport have turned the most 
abhorrent murderers of Jews into role models and heroes for Palestinian 
youth. A soccer tournament for 11-year-old boys was named for Abd Al-
Baset Odeh--the terrorist who murdered 30 in the Passover Seder suicide 
bombing. [Sports section, Al Hayat Al Jadida Jan 21, 2003]. This past 
summer, during the period of the U.S. sponsored Road Map, numerous 
summer camps were named for suicide bombers, including a camp for 
teenagers named after a teenage suicide bomber, a 17 year old girl, 
Ayyat Al Akhras. Another camp for girls was named after Wafa Idris, the 
first woman suicide bomber. Many schools, cultural events, educational 
programs, and trophies, are named after terrorist murderers and suicide 
bombers. There can be no greater incitement to hatred and violence than 
the recurring portrayal of Palestinian terrorists as role models for 
children. As recently as September this year PA Chairman Arafat and 13 
PA Leaders jointly sponsored a soccer tournament honoring arch 
terrorists. The PA leaders included Saeb Erikat; Jibril Rajoub; the 
Minister of Sport--Abdul Fatach Hamal; the Mufti of the PA Ikrama 
Sabri; and 10 other senior PA officials. Each of the 24 soccer teams 
was named for a terrorist or other Shahids [``Martyrs''] including some 
of the most infamous murderers like Yechya Ayash, the first Hamas bomb 
engineer, who initiated the suicide bombings, and Dalal Mughrabi, a 
terrorist woman who hijacked a bus killing 36 including American Gail 
Ruben in 1978; [Al Ayyam, Sept. 21, 2003] At the completion of this 
tournament Saeb Erikat distributed the trophies.
    While Music videos around the world are used to entertain children, 
in the PA they are used to indoctrinate children to hatred, violence, 
and Shahada. Regularly broadcast PA music videos have actors depicting 
Israelis carrying out execution-style murders of old men, woman and 
children, or blowing up mothers with their babies. In one music video 
broadcast continuously in 2003, actors portray a woman being murdered 
in cold blood in front of her daughter. In another, broadcast tens of 
times in 2003, the image of young girl on a swing turns into a flaming 
inferno, and a football blows up after being kicked by a child. 
Children are taught through these videos not only to hate and to be 
violent, but are openly encouraged to aspire to death through Shahada 
[Martyrdom]. Clips designed to offset a child's natural fear of death 
portraying child Shahada as both heroic and tranquil, have appeared on 
PA TV thousands of times over three years. [2000-2003] One clip for 
children ends with the words: ``Ask for Death--the Life will be Given 
to you''. In another, a child writes a farewell letter and goes off to 
die. Children who have achieved death through suicide missions have 
been turned into PA heroes and role models by the PA leaders.
    The hatred, anti Semitism and Shahada encouragement appear in the 
PA schoolbooks as well. The poem The Shahid [The Martyr] in a new PA 
schoolbook includes the phrase: ``I see my death, but I hasten my steps 
toward it'' [Our Beautiful Language, grade 7, p. 97] The PA argument 
that some of the books are copies of Jordanian books is not relevant, 
as a child being taught that Jews are evil is not going to be less 
influenced because of the identity of the publisher. Furthermore, even 
the new PA-produced schoolbooks teach hatred, de-legitimize Israel, and 
include anti-Semitic themes. This education will perpetuate the 
conflict into the next generation.
    It is important to note that the PA is making use of foreign 
funding to promote this hatred among its children. Summer camps named 
for suicide bombers this summer were funded by UNICEF. [Al-Hayat Al-
Jadida, July 22, 2003, Al-Ayyam July 18, 2003, Al-Quds, July 23, 2003]. 
Renovation of a school named for Dalal Maghrabi, a terrorist who 
participated in the murder of 36 including an American, was funded by 
USAID [Al-Hayat Al-Jadida July 30 2002]. And whereas the PA announced 
two days later that they had changed the name, in order to receive the 
USAID funding, PA press reports indicated that the name was still being 
used. [Al-Hayat Al-Jadida, August 16, 2002]
    Clearly, children are being incited to hatred, violence and 
Shahada, not merely by fringe elements in the PA, but by the entire 
mainstream of PA leadership and society. This incitement to hatred and 
violence penetrates the minds of the PA children and, after terrorism 
itself, is the single greatest long-term obstacle to peace.
    Under the Oslo accords and subsequently under the Wye accords, the 
PA obligated itself to cease this incitement, but has ignored its own 
laws. In the interest of achieving a lasting peace, pressure must be 
brought on the PA, through all available means, including temporary 
political isolation and the temporary freezing of financial support, in 
order to impress upon the Palestinians the importance of peace 
education.
    The following concrete steps should be taken by the PA immediately:
    1. Music videos promoting hatred, violence, and Shahada must never 
again be broadcast on PA TV.
    2. The practice of naming schools, cultural events, educational 
programs, sport events and trophies after terrorists and suicide 
bombers must cease. Educational institutions and cultural frameworks 
currently named for terrorists must be changed.
    3. PA children must be taught that Israel is a legitimate country 
with a right to exist.
    4. There is no greater incitement against Israels legitimacy as a 
state, than to mark the word Palestineor occupied Palestinein place of 
Israel on all maps in the PA. These maps must be removed from 
Palestinian schools, schoolbooks and TV broadcasting and be replaced by 
maps that show Israel by name in Arabic. This will be the most 
important act of recognition of Israel by the PA, more important than 
the signing of the Oslo Accords. To continue the current practice, 
makes the statements of recognition of Israel at Oslo irrelevant and 
sends a clear message to the population that is was not said with 
integrity.
    5. The hatred and anti Semitism in the PA schoolbooks must be 
removed. The PA argument that many of the books are copies of Jordanian 
books is not relevant to the issues at hand, which is, the educational 
damage being done to the children. A child being taught that Jews are 
evil is not going to be less influenced because of the identity of the 
publisher. In addition, even the new PA produced schoolbooks educate to 
hatred, de-legitimize Israel, and include anti Semitic themes. The PA 
schoolbooks must be reprinted without the hatred before the start of 
the next school year.

    Senator Specter. Thank you very much, Mr. Marcus.
STATEMENT OF HASSAN ABDEL RAHMAN, CHIEF REPRESENTATIVE, 
            PLO MISSION
    Senator Specter. We now turn to Dr. Hassan Abdel Rahman, 
chief representative of the Palestinian Liberation Organization 
and the Palestinian National Authority in the United States. He 
attended universities in Puerto Rico before earning his Ph.D. 
from the City University of New York.
    Thank you for joining us, Dr. Rahman, and we look forward 
to your testimony.
    Dr. Rahman. Thank you, Senator Specter.
    Let me, at the outset, start on a personal note. I have 
four children, three boys and a girl. The four of them attended 
the camp of Seeds of Peace. I am a founder or co-founder, with 
John Wallach, late John Wallach, of that organization, and my 
name was on the board of that organization.
    I am a believer in the coexistence between the Palestinians 
and the Israelis. I have struggled for that objective since my 
beginning as a representative of the PLO in New York at the 
United Nations since 1974. I don't need to establish my 
credentials as a supporter of peace.
    I have, on many occasions, on Arabic television as well as 
on American television, objected, condemned suicide bombing. I 
am opposed to it. I am against it. And this is the official 
policy also of the Palestinian National Authority.
    Mr. Marcus lives on a settlement on the West Bank. It is 
stolen from the Palestinian people. It is a territory that has 
been taken away from Palestinians. In violation of the policy 
of the U.S. Government, which opposes the building of 
settlements in the Palestine territories, it is in violation of 
the Fourth Geneva Convention, which considers the transfer of 
population of the occupying power to the occupied territory as 
illegal and as a war crime.
    Having said that, I really hesitated before coming to 
appear before this subcommittee for the very simple reason, 
there are two parties to this conflict, Palestinians and the 
Israelis. And there is incitement on both sides. I see only the 
Palestinians brought to a task here, and no mention of what the 
Israeli media, what the Israeli textbooks say or do not say 
about the Palestinians. I would have liked, Mr. Chairman, in 
the spirit of fairness, to have a hearing on the incitement in 
both textbooks and both medias, Palestinians as well as 
Israelis, and then we would have not hesitated to appear before 
this subcommittee. Because there are studies that are made on 
Israeli textbooks, 1,600 textbooks, that never mentions the 
word Palestine or the history of the Palestinian people in 
historic Palestine. Whenever there is a reference to Palestine, 
it is called Israel.
    Mr. Marcus and his colleagues, the 200,000 armed settlers 
in the West Bank and Gaza who stole the land of the 
Palestinians, are armed, and they call the West Bank and Gaza 
as Judea and Samaria. They never call it by its name.
    No amount of education or teaching of the Palestinians how 
important it is will change certain realities, Mr. Specter. 
When there is the generation of Palestinians who have been 
living under foreign military occupation, 35 years of brutal 
military occupation, where bulldozers are used to demolish 
homes, where Apache helicopters given by the United States to 
the Government of Israel are attacking civilians in Gaza and 
elsewhere, where the Israeli Army sanctions the assassination, 
extra-judicially, of Palestine leaders without what you cherish 
the most, the due process of law, in this country, people are 
not--or do not need to be told that the Israeli settlers and 
the Israeli soldiers are bad. They have to live in the West 
Bank and Gaza in order to dislike and even hate the Israelis, 
because the average Palestinian, Mr. Specter, do not see your 
civilian in Ramallah. The average Palestinian encounters two 
kinds of Israelis, and both are armed, the soldier and the 
settler, and both are there to humiliate, oppress, suppress the 
Palestinians.
    If any American would live holed in his home for 20 or 30 
days under curfew, I am sure they would be angry, and anger is 
expressed by different people in different ways. I, personally, 
will express my anger in a different way. Others express it in 
a totally different way, which we do not sanction.
    But instead of cursing the darkness, we have to light a 
candle. We have to stop Israeli from building more settlements. 
We have to improve the conditions for the Palestinians so they 
can have a stake in changing their attitudes. But when they see 
their parents, their neighbors, their mothers, fathers, their 
sisters giving birth on checkpoints, humiliated by Israeli 
soldiers, I assure you they will be angry, and you would be 
angry.
    I looked at those distorted tapes collected by Mr. Marcus, 
and I can take an issue with every statement that was made 
there. But that's not really the objective and my goal today, 
because they are taken out of context, they are translated out 
of the cultural meaning of what is said. I remember that the 
battle cry for Patrick Henry, who wanted to freedom. He said, 
``Give me liberty or give me death,'' and that was the battle 
cry for the independence of this country. Every society has its 
way of encouraging people to make sacrifices for independence, 
for freedom, and for dignity.
    We need an understanding from you and from the Congress of 
the United States that the only way to end incitement is by 
drying off the causes of incitement, freedom for the 
Palestinians so they can live as equal neighbors to Israel. But 
I assure you that the continued occupation of the Palestinians, 
their denial of the God-given right to live as a free, 
dignified people in their own country, is the biggest source of 
incitement. Let's deal with real issues, and not with the 
effects. Let's deal with the causes of incitement.
    Thank you.
    Senator Specter. Well, thank you, Dr. Rahman.
    We invited you here today, and others, to speak on behalf 
of the Palestinian Authority because of our interest in hearing 
what you had to say.
    Dr. Rahman. Yes, thank you.
    Senator Specter. And when you asked for time to state the 
incitement by Israel, we're prepared to give you that time. You 
spoke for longer than the allotted time, but there was quite a 
bit on the other side, and I thought, as a matter of fairness, 
to hear you out, and I would have cared to hear you further----
    Dr. Rahman. Thank you.
    Senator Specter [continuing]. If you care to amplify as to 
the incitement on the part of the Israelis. We're prepared to 
give you whatever time that you'd like to have.
    Dr. Rahman. No, Mr. Chairman, I know you are a fair person, 
and I know that you want to help. But, again, what I wanted to 
say, that after the Wye River Accords we established a 
trilateral commission of the Israelis, Palestinians, and 
Americans to monitor the media and monitor incitement on both 
sides. And a great deal has been done in that regard. And we 
continue to express our readiness to work with the Israelis and 
with the Americans to monitor incitement on both sides.
    But I cannot accept that the basis for the position of the 
U.S. Senate will be a distorted videotape collected by Mr. 
Marcus, who is a settler on the West Bank. That is absolutely 
unfair to the Palestinians, because those are a collection of 
items taken out of context, Senator. They are not accurate 
translations of what has been said.
    Senator Specter. Well, Dr. Rahman, let's examine that. 
Customarily, we go through the entire panel before questioning, 
but we're going to proceed just a little differently because of 
what you've said. I'm going to take a few minutes, then yield 
to Senator Clinton to give her an opportunity to raise 
questions.
    Where you're saying the comments were taken out of 
context----
    Dr. Rahman. Right.
    Senator Specter [continuing]. We just saw the videos, and I 
am not in a position to have translated them, but we have seen 
teenagers, an 11-year-old girl----
    Dr. Rahman. Yes.
    Senator Specter [continuing]. Say that she was prepared to 
give her life as a suicide bomber in order to go to heaven. Was 
that an inaccurate translation of what she said?
    Dr. Rahman. Well, what she was saying, she was making a 
religious statement, which every religion--if I go to the 
Torah, I will find references that I may not like, and that--I 
have, in fact, a statement here about what happened in Jericho 
after the invasion of Jericho, and it really--it is--I may not 
like it. So we cannot translate religious statements into 
policies. There is a difference there, Mr. Chairman, and I'm 
sure that you are aware of that.
    So we keep religious discussion out of it. When there's a 
reference to the history, the--of history, who said something 
about the war, that it did not exist. But if you ask the 
Jewish--followers of the Jewish religion and ask them, ``Did 
Mohammed--was he a prophet,'' they will tell you no. I don't 
take that as an offense. That is their religious belief. We 
have to put religion aside.
    So--and we deal with politics here. If we want to take a 
statement that was made by a sheik in a mosque and base our 
policy on that statement, we go nowhere, and we would reach the 
wrong conclusions.
    I am saying that we have textbooks that we have to deal 
with. We have television stations we have to deal with. We have 
incitement, yes. But the incitement is the product of the 
conditions that exist in the Palestinian territories.
    Senator Specter. Well, Dr. Rahman, how about the part where 
the young man had written a letter to his father saying, ``Do 
not grieve for me. I have given my life for my country, and I 
have sacrificed myself so that I can go to heaven.'' Was that 
also a religious statement or----
    Dr. Rahman. Yeah, I would----
    Senator Specter. Well, let me finish my question.
    Dr. Rahman. Yes, I'm sorry.
    Senator Specter. Or wasn't that a statement by a young man 
who had, in fact, been a suicide bomber?
    Dr. Rahman. If I remember correctly what was said, the kid 
is 14 years old. He's saying to his father, ``When I become 18, 
I'm going to fight for my country and be a shahid for my 
country.'' He did not do it, he was not a shahid yet.
    Senator Specter. Well, Dr. Rahman----
    Dr. Rahman. If I recall correctly what I saw.
    Senator Specter. Well, Dr. Rahman, isn't it true that there 
have been very young people, Palestinians, who have become 
suicide bombers----
    Dr. Rahman. Yes.
    Senator Specter [continuing]. Really in carrying out just 
exactly the theme which we saw on the videos?
    Dr. Rahman. Yes, sir. I believe that there has been, and 
there is, and there may be going to be more suicide bombing. 
Because you go today to Gaza, where 70 percent of the 
population are unemployed and hungry. Where do they turn to? 
They turn to God. They turn to the mosque. And they are 
recruited there by the most vicious people. So instead of--why 
did not in the year 2000, Senator Specter, did not have one 
suicide bombing? Why not? Because there was a light at the end 
of the tunnel. People felt that finally they will be free. Not 
one single suicide bombing in the year 2000 until the beginning 
of the intifada. Why? People felt there is a possibility for 
peace.
    So instead of cursing the darkness, we have really to light 
candles, and candles are telling people: ``Listen, no more 
Jewish settlement on Palestinian territories. There's no 
apartheid wall in the West Bank. There is no assassination, no 
demolishing of homes, no destruction of crops, no, no, no.'' 
Then people will have something to look for. But as long as 
those things are continuing, I cannot guarantee that there will 
not be suicide bombing.
    Senator Specter. Well, Dr. Rahman, I agree with you totally 
that, as you have articulated, instead of cursing the darkness, 
let us light a candle. Where do we go from here? When former 
Prime Minister Barak offered statehood at Camp David and it was 
declined by Chairman Arafat, where do we go from here? Where do 
we light the candle? How?
    Dr. Rahman. Well, sir, I happened to be a witness to the 
Camp David, and I assure you that what Mr. Barak offered them 
was not an independent Palestinian state. He offered a free--in 
the West Bank that were not independent. We have the roadmap 
today that is ahead of us. We agreed to it, we accept it, and I 
believe that it can guide our efforts to achieve peace. If the 
Israelis are serious, we are serious. We can get tomorrow into 
the implementation of the roadmap.
    What was offered in Camp David was unacceptable to the 
Palestinians, because it does not give back to them what--the 
minimum. The Palestinians then were asking for 22 percent of 
historic Palestine, and they were, in exchange, conceding and 
recognizing the right of Israel within 78 percent of historic 
Palestine.
    Senator Specter. Well, Dr. Rahman, in articulating the view 
that you accept the roadmap, the roadmap calls for the 
Palestinian Authority to exercise its maximum efforts to stop 
violence.
    Dr. Rahman. Yes.
    Senator Specter. Wouldn't that comprehend stopping the 
playing of these kinds of videos, which incite suicide bombing 
by teenagers?
    Dr. Rahman. Yes, the roadmap asked both parties to do 
certain things, asked the Palestinians to stop violence and do 
everything within their power to do that, and we did achieve 51 
days of total calm; while, on the other side, it asked Israel 
to dismantle Jewish settlements, outposts, in the West Bank. 
Did not. They asked Israel to stop assassination of 
Palestinians. It did not. It asked Israel to stop building the 
wall. It did not. So there were, on both sides, not total 
compliance. But we had 51 days of total quiet, while on the 
Israeli side, within 51 days, over 80 Palestinians were killed 
by Israel.
    Senator Specter. If you have something to add, fine. If 
not, let's turn to Dr. Ziad Asali, and we'll come back to you, 
Dr. Rahman, if you care to----
    Dr. Rahman. Thank you, Senator.
    Senator Specter [continuing]. Address the subject further.
STATEMENT OF ZIAD ASALI, PRESIDENT, AMERICAN TASK FORCE 
            ON PALESTINE
    Senator Specter. Now, Dr. Asali is president and founder of 
the American Task Force on Palestine. He has been a member of 
the Chairman's Council of the American-Arab Anti-Discrimination 
Committee since 1982, received his undergraduate degree from 
American University at Beirut, and an M.D. from the American 
University of Beirut Medical School.
    Thank you for joining us, Dr. Asali, and we look forward to 
your testimony.
    Dr. Asali. Thank you, Mr. Chairman. It's an honor and a 
privilege to appear before you.
    Senator Specter. Dr. Asali, they have just started a vote. 
And before you testify, not to interrupt you, it would be a 
good time for me to leave, and I will be back in a very, very 
few minutes. And you can start at the beginning and--without 
interruption.
    Dr. Asali. Yes, we will gladly wait.
    Senator Specter. We will recess for a few moments.
    Dr. Asali. Thank you.
    Senator Specter. The hearing will resume. For those who are 
uninformed about the interruption, when we have a vote, that 
takes precedence over everything. Sometimes a group of Members 
will be at the White House on some very important matter, 
talking to the President. If the word comes through that there 
is a vote, we all leave. The President can't even come and 
vote. It's kind of impolite, in a sense, but when the vote is 
called, we all go to vote.
    But I came back as soon as I could, because we want to 
proceed. We have other witnesses, and we're on a very important 
subject. I saw Senator Clinton on her way to vote. She's going 
to return.
    So now, Dr. Asali, the floor is yours.
    Dr. Asali. Thank you very much, Mr. Chairman.
    It is an honor and a privilege to appear before you. I 
received an invitation to this hearing the night before last 
while at an Iftar dinner at the table of the President of the 
United States. At that time, I learned that other Arab-American 
Palestinian leaders had turned down this opportunity, and I, 
myself, was strongly advised against accepting it. It is, 
however, my judgment that each and every occasion should be 
explored to bring about peace and amity to the longsuffering 
Palestinian and Israeli people.
    Before--I appear here before you as a citizen, a man 
concerned about the tragic and dehumanizing cycle in the Middle 
East, and physicians who want to maintain the health and well-
being of all people and individuals, as an individual who was 
born and raised in Jerusalem and was privileged to become an 
American citizen and enjoy the attendant benefits such as 
testifying before this august body.
    Fear, anger, despair, violence, and an almost exclusive 
sense of victimization on both sides, the Palestinians and 
Israelis have their most damaging consequences in narrowing the 
space needed for policy options and rational debate. Public 
discourse is stunted, simplistic, and crude. It is easier in 
this climate to follow the safe course of demonizing and 
dehumanizing ``the other.'' To assume the worst, and to impugn 
the motives of ``the other'' is much safer than to explore the 
possibilities of compromise and working out solutions.
    This is the kind of atmosphere that makes it possible to 
advance racist and fascist arguments, sometimes openly stated, 
but more often felt and implied. They are not human, they 
understand nothing but force and violence, we should never show 
them any mercy, because they will think it is a sign of 
weakness, a face for an eye. In short, a prescription for more 
disasters and mayhem.
    The problem with history is that it has been around for too 
long. It has provided arguments based in fact, fiction, or 
perceived wisdom for each party to the conflict, and even for 
those who seem to have no axe to grind. The difference between 
the Palestinian and Israeli narratives continues to feed 
polarizing and centrifugal forces that fail to see the 
existential need for compromise. Each and every effort directed 
against divisional peace, the two-state solution so clearly 
stated by President Bush, is yet another tool to extend the 
violent and destructive realities of the status quo. It is in 
this context that we should view all facets of this conflict, 
education included.
    Because the time allotted for me is so brief, and because 
others, I know, who have spent years studying this subject and 
writing about it are not present on this panel, I'll sketch 
briefly the contours of the argument, as I see them, for 
education.
    I am, for the record, including what I think are useful and 
thoughtful studies about the issue of Palestinian textbooks and 
hope that people entrusted with making decisions about it, or 
are serious students of it, will take time to read them.
    Jordanian textbooks in the West Bank and Egyptian textbooks 
in Gaza continued to be taught to students from 1948 through 
1967, and for decades, several decades, after that, under 
Israeli occupation, til the problem of their content was faced 
after Oslo by the Palestinian Authority in 1994. At that time, 
the Curriculum Development Center, CDC, was established, and it 
began studying and overhauling the educational system and 
started over to phase in a new set of books, beginning with the 
academic year 2000/2001.
    Much, if not all, of the criticism leveled at the 
Palestinian textbooks for incitement, anti-Semitism, or 
marginalizing Jewish history has, in fact, been directed at the 
Egyptian and Jordanian textbooks over which the Palestinians 
had no control. In fact, it was the Palestinians who toiled for 
years after Oslo to give birth to reasoned and thoughtful 
solutions through the unique issues that face a people under 
occupation and how they should educate their children.
    No serious scholarly substantiated criticism has so far 
been directed against the new books, although strident, 
emotionally charged, and factually challenged statements 
continue to be bandied about.
    Akiva Eldar, the renowned Ha'aretz columnist, wrote, in 
January 2, 2001, ``The Palestinians are punished twice. First, 
they are criticized for books produced by the education 
ministries of others. Second, their children study from books 
that ignore their own nation's narrative.'' I have included his 
article for the record.
    The European Union, in a statement issued in Brussels on 
May 15, 2002, concluded that quotations attributed earlier by 
the Center for Monitoring the Impact on Peace, CMIP, are not 
found in the new Palestinian Authority school books. New 
textbooks, although not perfect, are free of inciteful content 
and improve on the previous textbooks, constituting a valuable 
contribution to the education of young Palestinians. It 
concluded: ``Therefore, allegations against the new textbooks 
funded by EU members have proven unfounded.'' I have included 
that statement for the record.
    The eminent scholar, Nathan Brown, professor of political 
science and international affairs at George Washington 
University, issued a 26-page report in November 2001, prepared 
for the Adam Institute, on democracy, history, and a contest 
over the Palestinian curriculum that made a most significant 
contribution to this subject. He concluded by saying, ``Harsh 
external critics of the PNA curriculum and textbooks have had 
to rely on misleading and contentious reports to support their 
claim of incitement.'' A reading of his full report that I 
included for the record is most compelling.
    The daily life of the Palestinian children with occupation, 
closures, violence, demolitions, checkpoints, bravado, fear, 
suicide bombing, air raids, humiliations, economic hardship, 
vengeance, religious extremism, as well as a breakdown of 
traditional values are realities--realities that cannot be 
dissociated from the classroom. It is those realities that we 
need to resolve by bringing about peace and security for all.
    Textbooks that Israeli students read can also be reviewed 
to bridge the gap between their realities and their classrooms 
as we improve on those realities, too.

                           prepared statement

    In conclusion, I would like to say that history has been 
unkind to the Jews, the Israelis, and the Palestinians. There 
are narratives of pogroms, ghettos, holocaust survival and 
achievement, on the one hand, and dispossession, occupation, 
demolition, and humiliation, as well as resistance and 
persistence, on the other hand, are but just sad tales of two 
people caught in the complex web of history. Let us at least, 
those of us with hope for humanity, try with our thoughts 
focused on the future of our children rather than the past of 
our forefathers, work for peace and dignity for these two 
courageous peoples. Let us not allow the demagogues, demagogues 
of all sides, the violent elements and the ones with the least 
sense of fundamental human values, dictate the agenda and 
undermine peace.
    Thank you for your attention.
    [The statement follows:]
                  Prepared Statement of Dr. Ziad Asali
    Mr. Chairman, Honorable Members of the Committee. It is an honor 
and a privilege to appear before you to testify about yet one more 
vexing problem of the Palestinian Israeli conflict, that of the 
Palestinian education.
    I received an invitation to this hearing the night before last 
while at an Iftar dinner at the table of the President of the United 
States. I learned that other Arab American and Palestinian leaders had 
turned down this opportunity, and I myself was strongly advised by 
friends and people more experienced with the affairs of the Hill than I 
against accepting it. It is, however, my judgment that each and every 
occasion should be explored to bring about peace and amity to the long-
suffering Palestinian and Israeli people. Therefore I appear here 
before you as a citizen, a man concerned about the tragic and 
dehumanizing cycle of violence in the Middle East, a physician sworn to 
maintain the health and well being of all people and an individual who 
was born and raised in Jerusalem and was privileged to become an 
American citizen and enjoy the attendant benefits such as testifying 
before this august body.
    Fear, anger, despair, violence and an almost exclusive sense of 
victimization on both sides, the Palestinians and Israelis, have their 
most damaging consequences in narrowing the space needed for policy 
options and rational debate. Public discourse is stunted, simplistic 
and crude. It is easier in this climate to follow the safe course of 
demonizing and dehumanizing ``the other''. To assume the worst and to 
impugn the motives of the other is much safer than to explore 
possibilities of compromise and working out solutions. This is the kind 
of atmosphere that makes it possible to advance racist and fascist 
arguments sometimes openly stated but more often felt and implied, 
``They are not human; they understand nothing but force and violence; 
we should never show them any mercy because they will think it is a 
sign of weakness; a face for an eye''. In short a prescription for more 
disasters and mayhem.
    The problem with history is that it has been around too long. It 
has provided arguments, based in fact, fiction or perceived wisdom, for 
each party to the conflict and even for those who seem to have no axe 
to grind. The difference between the Palestinian and Israeli narratives 
continues to feed polarizing and centrifugal forces that fail to see 
the existential need for compromise. Each and every effort directed 
against the vision of peace, the two-state solution so clearly stated 
by President Bush, is yet one more tool to extend the violent and 
destructive realities of the status quo. It is in this context that we 
should view all facets of this conflict, education included.
    Because the time allotted to me is so brief, and because others I 
know who have spent years studying this subject and writing about it 
are not present on this panel, I will sketch briefly the contours of 
the arguments as I see them. I am for the record enclosing what I think 
are useful and thoughtful studies about the issue of Palestinian 
textbooks and hope that people entrusted with making decisions about 
it; or are serious students of it, will take time to read them.
    Jordanian Textbooks in the West Bank and Egyptian Textbooks in Gaza 
continued to be taught to students from 1948 through 1967 and for 
several decades after that under Israeli occupation till the problem of 
their content was faced after Oslo by the Palestinian authority in 
1994. At that time the Curriculum Development Center (CDC) was 
established and it began studying and overhauling the educational 
system and started over to phase in a new set of books beginning with 
the academic year 2000-2001. Much, if not all of the criticism leveled 
at the ``Palestinian Textbooks'' for incitement, anti-Semitism or 
marginalizing Jewish history has in fact been directed at the Egyptian 
and Jordanian textbooks over which the Palestinians had no control. In 
fact it was the Palestinians who toiled for years after Oslo to give 
birth to reasoned and thoughtful solutions to the unique issues that 
face a people under occupation and how they should educate their 
children. No serious scholarly substantiated criticism has so far been 
directed against the new textbooks, although strident, emotionally- 
charged and factually- challenged statements continue to be bandied 
about.
    Akiva Eldar, the renowned Ha'aretz columnist wrote in January 2, 
2001: ``The Palestinians are punished twice. First, they are criticized 
for books produced by the education ministries of others. Secondly, 
their children study from books that ignore their own nation's 
narratives.'' I have included his article for the record.
    The European Union, in a statement issued in Brussels on May 15, 
2002 concluded that ``Quotations attributed by earlier Center for 
Monitoring the Impact on Peace, CMIP, are not found in the new 
Palestinian Authority schoolbooks''. ``New Textbooks, although not 
perfect, are free of inciteful content and improve the previous 
textbooks, constituting a valuable contribution to the education of 
young Palestinians.'' It concluded, ``Therefore, allegations against 
the new textbooks funded by EU members have proven unfounded''. I have 
included that statement in the record.
    The eminent scholar Nathan Brown, Professor of political science 
and international affairs at the George Washington University issued a 
26-page report in November 2001 prepared for the Adam Institute on 
Democracy, History, and the Contest over the Palestinian Curriculum 
that made a most significant contribution to this subject. He concluded 
by stating, ``Harsh external critics of the PNA curriculum and 
textbooks have had to rely on misleading and tendentious reports to 
support their claim of incitement.'' A reading of this full report that 
I included for the record is most enlightening.
    No full understanding of this issue can be claimed without reading 
the Israel/Palestine Center for Research and Information IPCRI Report I 
submitted to the Public Affairs Office, US Consulate General in 
Jerusalem on March 2003. This scholarly, textured report grounded in a 
context, cannot be reduced to a concluding statement but it sheds light 
on complicated issues that ought not be subjected to strident and 
simplistic generalizations. A careful reading of this document that I 
submit for the record is most informative.
    The daily life of these children, with occupation, closures, 
violence, demolitions, checkpoints, bravado, fear, suicide bombing, air 
raids, humiliation, economic hardship, vengeance, religious extremism 
as well as breakdown of traditional values are realities that cannot be 
dissociated from the classroom. It is those realities that we need to 
resolve by bringing about peace and security for all. Textbooks that 
Israeli students read can also be reviewed to bridge the gap between 
their realities and their classrooms as we improve on those realities 
too.
    In conclusion I would like to say that history has been unkind to 
the Jews, the Israelis and the Palestinians. Their narratives of 
pogroms, ghettos, Holocaust, survival and achievement on the one hand, 
and dispossession, occupation, demolition; and humiliation as well as 
resistance and persistence on the other are but just sad tales of two 
people caught in a complex web of history. Let us, at least those of us 
with hope for humanity, try with our thoughts focused on the future of 
our children rather than the past of our forefathers, work for peace 
and dignity for these two courageous people. Let us not allow the 
demagogues of all sides, the violent elements, and the ones with the 
least sense of fundamental human values, dictate the agenda and 
undermine peace.
    Thank you for your attention and for the opportunity to speak.

Attachments.
  Democracy, History, and the Contest over the Palestinian Curriculum

 [By Nathan J. Brown, Professor of Political Science and International 
  Affairs, The George Washington University, Washington, DC 20052] \1\
---------------------------------------------------------------------------

    \1\ I gratefully acknowledge the assistance and comments provided 
by the late Ibrahim Abu Lughod, Sam Kaplan, Ali Jarbawi, Elie Podeh, 
Lara Friedman, David Matz, Khalil Mahshi, Ismail Nujum, Maher Hashweh, 
Rifat Sabah, and Fouad Moughrabi. This research was funded by a 
Fulbright grant and a grant from the United States Institute of Peace. 
The opinions expressed are solely my own and do not necessarily reflect 
the views of Fulbright or the USIP.
---------------------------------------------------------------------------
    Almost any discussion of education in the Middle East posits it as 
part of the problem rather than part of the solution. Those who seek 
peace, democracy, or economic development generally claim that existing 
educational institutions and practices stand in their way. Palestinian 
education is particularly notable for the number and variety of its 
detractors. Outside the country, critics charge that it incites rather 
than educates; Palestinian critics claim that education does little to 
foster democratic and productive citizens.
    The external and internal critics may be placing an unrealistic 
burden on what any curriculum and cadre of teachers can accomplish. 
Palestinian political and economic realities are often grim, and 
schools hardly have a monopoly on communicating ways to interpret such 
realities, especially in matters that are so deeply felt and 
encountered on a daily basis. Still, the critics charge, the 
Palestinian educational system, and especially the curriculum, 
exacerbates existing problems.
    This paper is devoted to an examination of the Palestinian 
curriculum, especially as it approaches issues of history and identity. 
More specifically, the paper is broken into four sections:
  --First, it will be necessary to clear up some misconceptions 
        prevalent about the curriculum and the textbooks: the 
        Palestinian curriculum is not a war curriculum; while highly 
        nationalistic, it does not incite hatred, violence, and anti-
        Semitism. It cannot be described as a ``peace curriculum'' 
        either, but the charges against it are often wildly exaggerated 
        or inaccurate.
  --Second, the treatment of history in the Palestinian curriculum will 
        be examined in some detail. The purpose will be to present 
        patterns both in what it covers and what it declines to cover.
  --Third, the goals that motivate this coverage of history will be 
        examined. Two primary goals--inculcation of identity and 
        respect for authority--will receive special attention. While 
        the curriculum can thus be presented as authoritarian in some 
        respects, it will also be observed that it is simultaneously 
        democratic in its determination to reflect the national 
        consensus rather than develop an elitist approach.
  --Fourth and finally, the paper will examine an alternative 
        educational vision that has been crystallizing among 
        Palestinian educators and the effect of that alternative on the 
        existing curriculum. That alternative vision--that the 
        educational system should promote the development of active 
        learners, critical thinkers, and democratic citizens--has yet 
        to approach issues of identity directly. Yet it is increasingly 
        influential and has had some impact on the current curriculum.
    Before turning to these four sections, a brief overview of the 
history of the Palestinian curriculum is necessary in order to clarify 
the context in which current efforts are occurring.
        introduction: a brief overview of palestinian education
    After 1948, the West Bank was annexed to Jordan and Gaza was 
administered by Egypt. Accordingly, West Bank schools followed the 
Jordanian curriculum, while Gazan schools adopted the Egyptian. In 
1967, Israel occupied both areas and maintained the existing curricula 
for Palestinian schools. It did attempt unsuccessfully to bring its own 
curriculum into Jerusalem, and it also reviewed Jordanian and Egyptian 
books, censoring material that it found objectionable. In 1994, 
Palestinian education in the West Bank (including, to a limited and 
unacknowledged extent, Jerusalem) and Gaza was transferred to the new 
Palestinian National Authority (PNA). The PNA immediately established a 
``Curriculum Development Center'' to formulate its own approach. While 
the Center was working, two interim measures were taken. First, the 
Jordanian and Egyptian curricula were restored temporarily in their 
entirety. Second, a supplementary series of texts covering National 
Education was hastily written for grades one through six to compensate 
for the non-Palestinian nature of the temporary curriculum.
    The Curriculum Development Center completed its work in 1996 and 
presented a 600-page report that amounted to a stinging indictment of 
current educational institutions, practices, and pedagogy. The Ministry 
of Education drew back from some of the radical proposals of the report 
in developing its own plan, which it presented in 1997 to the cabinet 
and the Palestinian Legislative Council. After receiving approval from 
both bodies, the Ministry established a new Curriculum Development 
Center to write new books, which were to be introduced two grades at a 
time, beginning with the 2000/2001 school year. As of this writing, the 
plan has proceeded on schedule, with the new curriculum and textbooks 
in effect in grades one, two, six, and seven. The other grades will 
shift over to the new curriculum and books over the next three years.
                         the incitement charge
    Any treatment of Palestinian education must confront at the outset 
the oft-repeated claims that Palestinian textbooks instill hatred of 
Israel and Jews. In a sense, this issue is at most tangential to this 
paper, which focuses on internal Palestinian politics and portrays 
textbooks as outcomes of domestic struggle more than producers of 
international conflict. But virtually every discussion in English on 
Palestinian education repeats the charge that Palestinian textbooks 
incite students against Jews and Israel. It may therefore come as a 
surprise to readers that the books authored under the PNA are largely 
innocent of these charges. What is more remarkable than any statements 
they make on the subject is their silence--the PNA-authored books often 
stubbornly avoid treating anything controversial regarding current 
Palestinian national identity, forcing them into awkward omissions and 
gaps. The first generation of Palestinian textbooks written in 1994, 
the National Education series, make no mention of any location as 
Palestinian outside of the territories occupied by Israel in 1967; 
those books go to some lengths to avoid saying anything about Israel at 
all and the few exceptions are hardly pejorative. The second generation 
of books--issued beginning in 2000--breaks some of that silence but 
with neither the consistency nor the stridency that critics of the 
textbooks allege.
    Then where do persistent reports of incitement in Palestinian 
textbooks come from? Virtually all can be traced back to the work of a 
single organization, the ``Center for Monitoring the Impact of Peace.'' 
The Center claims that its purpose is ``to encourage the development 
and fostering of peaceful relations between peoples and nations, by 
establishing a climate of tolerance and mutual respect founded on the 
rejection of violence as a means to resolving conflicts.'' \2\ Critics 
charge that the Center's real purpose is to launch attacks on the 
Palestinian National Authority, and it would be difficult to contest 
such a conclusion. They point to the identity of the Center's first 
director, Itamar Marcus, to support their suspicions.\3\
---------------------------------------------------------------------------
    \2\ See the Center's website, www.edume.org.
    \3\ An Israeli resident of the West Bank settlement of Efrat, 
Marcus previously lobbied to keep West Bank aquifers under Israeli 
control. His work on textbooks led Prime Minister Binyamin Netanyahu to 
appoint him to a joint committee with the Palestinians on incitement. 
He then went on to found an organization that searches Palestinian 
media for anti-Israeli and anti-Jewish statements, following a similar 
method to that followed for textbooks.
    For an example of a criticism of the Center's work that focuses on 
Marcus personally, see the document submitted by the PLO to the 
Mitchell Commission, ``Third Submission of the Palestine Liberation 
Organization to the Sharm El-Sheikh Fact-Finding Committee,'' 3 April 
2001, www.nad-plo.org/eye/Response%20to%20Israeli%20Submission.5.pdf, 
p. 22.
---------------------------------------------------------------------------
    The Center's own reports suggest such suspicions are well-founded. 
The Center began operation by issuing its first report in 1998 on 
Palestinian textbooks that might best be described as tendentious and 
highly misleading. When the PNA issued a new series of books for grades 
one and six in 2000, the Center rushed out its second report that 
passed over significant changes quite quickly before presenting its 
allegations of ``delegitimization of Israel's existence,'' implicit 
``seeking of Israel's destruction,'' ``defamation of Israel,'' and 
``encouraging militarism and violence.'' However, in contrast to the 
alarm and alacrity with which it studied Palestinian textbooks, the 
Center's work on Israeli textbooks showed a far more generous spirit 
and proceeded at a far more leisurely pace, taking years rather than 
months. The report on Israeli books followed a very different method: 
rather than quoting example after example of offending passages with 
little historical context or explanation (a method that would have 
produced a very damning report indeed), the report on Israeli textbooks 
is nuanced and far more careful. Incendiary quotations are explained, 
analyzed and contextualized in the report on Israeli books; they are 
listed with only brief and sensationalist explanations in the reports 
on Palestinian books. In short, the Center is fair, balanced, and 
understanding for Israeli textbooks but tendentious on Palestinian 
books.
    The Center's work has been widely circulated: its reports are the 
source for virtually any quotation in English from the Palestinian 
curriculum. Indeed, its influence has begun to be felt in policy 
circles, and has informed congressional and presidential statements in 
the United States, numerous newspaper columns, and--more recently--a 
decision by some external donors to cut off funds for Palestinian 
education. Recently some European parliamentarians have begun to press 
their governments and the European Union as a whole, and an Israeli 
cabinet minister has spoken of taking the issue to the United Nations. 
Since the Center's reports have dominated the public debate with 
considerable effect and little contestation, it makes some sense to 
examine them.
    While often highly misleading and always unreliable, most of the 
contents of the Center's reports are not fabricated. Clearly false 
statements are rare, though when they do occur they are far from minor. 
For instance, the Center's first report on Palestinian textbooks, 
issued in 1998, included the statement that: ``PA TV is a division of 
the Palestinian Authority Ministry of Education,'' which allowed the 
report to saddle the Palestinian educational establishment with any 
statement broadcast on Palestinian television. The statement was false, 
however. In its second comprehensive report on Palestinian textbooks, 
issued in 2000 on the new books for the first and sixth grades, the 
Center claims that ``the PA has rejected international calls'' to 
modify books for the other grades. In fact, as will become clear, the 
plan to replace the textbooks in question was as old as the PNA itself 
and was proceeding according to a well-published schedule when the 
Center's report was issued. Several lesser errors occur throughout the 
Center's work.
    But the real problems with the Center's reports lie elsewhere. In 
particular, three sets of flaws characterize its work (and much of the 
public debate about Palestinian textbooks more generally). First, the 
Center generally ignores any historical context in a way that renders 
some of its claims sharply misleading. In its 1998 report, the Center 
adduced numerous incendiary statements about Israel and Jews from books 
in use in Palestinian schools. The statements quoted were accurate. 
Some indeed were highly offensive to Jews and sharply anti-Israeli.\4\ 
Yet they came not from books authored by Palestinians but from Egyptian 
and Jordanian books used in Gaza and the West Bank, respectively.\5\ 
The books were distributed by the PNA, to be sure, but they antedated 
its establishment. (The Center's report does hold the PNA responsible 
for distributing the Egyptian and Jordanian books and therefore holds 
Palestinians responsible for the content. Here it displays an odd 
double standard: it does not note that Israel has distributed the exact 
same books in East Jerusalem, removing only the cover. The only books 
that the Israelis refused to distribute after 1994 were those authored 
by the PNA--the National Education series--even though those books were 
free of the content that Israel objected to. The likely reason for this 
odd policy is that Palestinian sovereignty in Jerusalem--implied by 
using PNA-authored books--was far more problematic for Israel than 
anti-Semitism.)
---------------------------------------------------------------------------
    \4\ The report's method of listing large number of statements from 
the books led it to include all sorts of material under the anti-Israel 
rubric. For instance, any mention of a Palestinian character to 
Jerusalem was listed as questioning the Israeli nature of the city. 
Since Jerusalem was designated as a matter for final status 
negotiations, the idea that the Palestinians questioned Israeli 
annexation should have been unsurprising. What is more surprising--and 
unremarked in the report--is that all mentions of locations in 
Jerusalem in the Palestinian-authored books refer only to the Old City 
and a few Arab neighborhoods. If textbooks are taken as indications of 
negotiating positions--an implicit assumption of the report--then the 
Palestinians showed far more willingness to compromise on Jerusalem 
than Israel.
    \5\ The Center's report does include some excerpts from the 1994 
Palestinian-authored books but none can fairly be viewed as hostile to 
Israel or to Jews. The texts are examined in more detail below.
---------------------------------------------------------------------------
    By sharp contrast to the Egyptian and Jordanian books, the 1994 
National Education series, actually authored by the PNA, verged on 
blandness. The first generation of books made no mention of any 
Palestinian area within the 1967 borders (the second generation of 
books--written after the Center's first report--reversed this policy). 
Indeed, the 1994 books went to some length to avoid any controversial 
matter whatsoever. An organization claiming to ``monitor the impact of 
peace'' might be expected to compare the older, non-Palestinian books 
with the newer, Palestinian ones. Indeed, such a task would seem basic 
to its mission. The Center goes beyond failing to live up to its name; 
its reports are written to obfuscate the distinction between the old 
and new books. It does not simply fail to note the change, but, in one 
of its rare falsehoods, the Center claims that in the 1994 series, 
Israel does not exist.\6\ (The treatment of Palestinian history in the 
1994 books is extremely brief, but Israel is indeed referred to; 
remarkably, the 1994 texts resorts to awkward phrasing to avoid citing 
Israel in some negative contexts.) It is difficult escape the 
conclusion that the Center was far more interested in criticizing the 
PNA than in an honest assessment of the changes produced in Palestinian 
education by the Oslo Accords.
---------------------------------------------------------------------------
    \6\ http://www.edume.org/news/news1.htm
---------------------------------------------------------------------------
    The second problem with the Center's work is its prosecutorial 
style. Its reports offer little more than brief themes and then list 
statement after statement purporting to prove the point. Any evidence 
that contradicts the Center's harsh message is ignored, obscured, or 
dismissed, such as maps that clearly draw Palestinian governorates as 
covering only the West Bank and Gaza, an extended and laudatory 
treatment of Gandhi's nonviolence, or a tour of Palestinian cities that 
includes only those under PNA rule. Other evidence is interpreted 
inaccurately. For instance, a topographical map of Palestine (inserted 
most likely to avoid drawing any sensitive political issues regarding 
borders) is presented as a denial of Israel's existence. Many of the 
selections included are presented in a highly tendentious manner: a 
unit on tolerance is criticized for omitting Jews, while a reading of 
the entire unit makes perfectly clear that its topic is tolerance 
within Palestinian society.\7\ Izz al-Din al-Qassam is mentioned in 
texts as a Palestinian national hero; the Center's 2000 report 
explains:
---------------------------------------------------------------------------
    \7\ My son attended a Tel Aviv school which celebrated ``tolerance 
day,'' assuring all students that Israelis can be religious or secular, 
light-skinned or dark-skinned, and Jewish or Arab. Following the 
Center's methodology, such a unit might be lambasted for failing to 
include Palestinians who do not hold Israeli citizenship and for 
---------------------------------------------------------------------------
denying Palestinian identity (by not mentioning it).

    ``The primary terrorist organization operating against Israel since 
the signing of the Oslo Accords is the Hamas, whose members terrorized 
Israeli citizens with suicide attacks, primarily on buses. The terror 
wing of the group is called the ``Az Aldin Al Kassam'' squad, named 
after the terrorist who fought the British and Jews before the 
establishment of the State of Israel. The new PA schoolbook glorifies 
---------------------------------------------------------------------------
Kassam . . .''

    In essence, the Center provides a context for the mention of al-
Qassam that, while accurate, is irrelevant to the text: it deliberately 
obscures how the text itself presents al-Qassam or how Palestinians 
would understand a reference to him. Al-Qassam was killed at the 
beginning of his attempt to organize a rebellion against the British 
mandate. Subsequent generations of Palestinians have been able to read 
various dimensions into his short career: for mainstream nationalists, 
he is a rebel against the British, for Islamists, a warrior for Islam, 
and for leftists, he is a mobilizer of the popular classes. To imply 
that mentioning al-Qassam is an implicit endorsement of suicide attacks 
and bus bombings is thus based on a hostile, inaccurate, and even 
dishonest reading--what matters is not whether the textbooks cite him 
but how they present him. Palestinian texts mention him only as a 
martyr in the struggle against British imperialism.\8\
---------------------------------------------------------------------------
    \8\ To follow the Center's methodology, an American textbook from 
the late 1930s mentioning Abraham Lincoln might be seen as carrying a 
pro-Communist message because of the role of the Abraham Lincoln 
Brigade in the Spanish Civil War. Certainly the Center's logic could be 
used to cite any Israeli textbook mentioning Yitzhak Shamir as 
encouraging massacres of Palestinians and political assassinations of 
British and U.N. officials.

    Clerk's Note: The full report can be found on the web.
                                 ______
                                 
         What Did You Study In School Today, Palestinian Child?

                            [By Akiva Eldar]

    After the sovereignty on the Temple Mount and the Palestinian right 
of return, the debate is now turning to the textbooks, the poisonous 
material brainwashing the young minds of school children in the 
territories. Even the firmest supporters of the left have a problem 
with the anti-Semitic quotes that Jewish organizations and right-wing 
research institutes find in the textbooks used by our partners in 
peace. Their huge advertisements, published in newspapers in Israel and 
the United States, remind us week after week who we are dealing with. 
What fool will hand over vital territory and holy sites to a neighbor 
who teaches his children that the neighbor across the street is a cruel 
and evil enemy? How can one build a relationship of trust with regimes 
that educate their sons and daughters to hate Israel and the Jews?
    And who, dear children, is taught in the first grade that the Jews 
are treacherous people and the Israelis are evil enemies? Please circle 
the correct answer: Egyptian President Hosni Mubarak's grandson, 
Jordanian King Abdullah's nephew, or Yasser Arafat's daughter (when she 
is not in Paris with her mother?) The answer: These anti-Semitic and 
racist stereotypes are taken from Jordanian and Egyptian textbooks. For 
the past 33 years, these books have also been used by the Palestinian 
schools in the West Bank, the Gaza Strip and East Jerusalem. Every 
prime minister, military governor and Jerusalem mayor knows that to 
this day the Palestinians have not had any impact on the contents of 
the textbooks their children learn from in class (due to budgetary 
problems, the students are required to leave the books in school).
    The harsh abuse against Israel included in the various Jordanian 
and Egyptian textbooks has for years starred in the Foreign Ministry's 
public relations material, as well as in ``the white paper'' recently 
published by the Prime Minister's Office. But these book critiques have 
not been directed against the charming king to the east, nor against 
the important president to the south. There are no such things in their 
countries. And if there are, ``the fundamentalist opposition'' is 
surely to blame. Not their narrative.
    On the other hand, the Palestinians are punished twice. First, they 
are criticized for books produced by the education ministries of 
others. Secondly, their children study from books that ignore their own 
nation's narrative. The Arab states are uncomfortable with Palestinian 
children born in their countries knowing that they did not make much of 
an effort to help the refugees. Even today, the Jordanians do not allow 
national aspirations to be cultivated among the children of the 
refugees living under the Hashemite rule. Their textbooks simply skip 
over the insignificant event of the creation of the refugee problem in 
1948.
    The Palestinians are being rebuked where they should in fact be 
praised. For this school year the Palestinian Authority has, for the 
first time ever, printed its own textbooks. A research team from the 
Harry S. Truman Research Institute for the Advancement of Peace, led by 
Dr. Ruth Firer, has established that the new books are ``freer of 
negative stereotypes of Jews and Israelis, compared to Jordanian and 
Egyptian books.'' The defense establishment has investigated and 
confirmed this finding.
    The Truman team compared the new Palestinian books with Israeli 
textbooks from the 1930s and 1950s that were then used by the state as 
a tool for political indoctrination. ``We were surprised to find how 
moderate the anger directed toward Israelis in the Palestinian 
textbooks is, compared to the Palestinian predicament and suffering,'' 
Firer says. ``This surprise is doubled when you compare the Palestinian 
books to Israeli ones from the 1950s and 1960s, which mentioned 
gentiles [only] in the context of pogroms and the Holocaust.''
    The study, performed in compliance with universal criteria for 
textbook analysis, took five years to complete and will soon be 
published. The researchers examined the narrative of the Israeli-Arab 
conflict from the end of the 19th century until present days, through 
20 books on both sides of the conflict. The team reviewed history and 
civics textbooks, as well as some literature books, for junior high and 
high school students in the territories. According to Firer, ``the 
Palestinian narrative describes Jews, Israelis and Zionism in a 
negative way, as part of Western colonialism in the Middle East. The 
Arabs, and especially the Palestinians, are portrayed as victims. This 
narrative follows through to the new books published by the Palestinian 
Authority, but these books are freer of negative stereotypes compared 
to their Jordanian and Egyptian equivalents.''
    A comparison between Palestinian textbooks and Israeli ones also 
astounded the scholars. ``Israeli books, especially those published 
from the 1980s and on, include almost no derogative stereotypes of 
Arabs or Palestinians,'' Firer says, ``but the basic narrative is still 
the same, at least until the mid 1990s. The change in the Zionist 
narrative which portrayed Israelis as a heroic, pioneering people, was 
prompted by the publications of the New Historians. Wherever this does 
occur, it is usually on a very small scale, and sometimes as an 
afterthought to the traditional narrative. New history books stirred 
such public debate that some were even taken off the curriculum (as 
happened with ``A World of Changes: History for Ninth Grade'' (1999), 
edited by Danny Ya'akobi).
                          kids can't be duped
    This Thursday at the Truman Institute, Firer will be the last 
speaker at the seminar on the image of the other in textbooks on Middle 
East conflicts. Before that, Itamar Marcus, who runs the Center for 
Monitoring the Impact of Peace (CMIP), will be speaking about how 
Palestinians perceive Jews. In recent years Marcus has been making a 
living translating and disseminating defamatory communications against 
Israel, extracted by his staff from Palestinian publications. Marcus, a 
settler, used to work for David Bar Illan, Benjamin Netanyahu's PR 
chief, and served on the Joint Israeli Palestinian Anti-Incitement 
Committee. Marcus's center routinely feeds the media with excerpts from 
``Palestinian'' textbooks that call for Israel's annihilation. He 
doesn't bother to point out that the texts quoted in fact come from 
Egypt and Jordan.
    In an executive summary he published for Thursday's seminar, Marcus 
makes a report of the 14 new textbooks published by the PA's ``Center 
for Developing the Palestinian Curricula,'' replacing the old books. 
Marcus concedes there were ``a few changes,'' like the fact that ``The 
open calls for Israel's destruction found in the previous books are no 
longer present'' and that ``references defining Jews and Israelis as 
`treacherous' or `the evil enemy,' common in the previous books, are 
likewise not present.'' But this, to Marcus, is not enough. He 
complains that the new books ``continue to teach non-recognition of 
Israel,'' and that the maps portray greater Palestine, with no 
boundaries separating the territories and Israel (just like the 
official textbooks and maps used by most Israeli institutions). ``A 
chapter in `National Education for Grade Six' is dedicated to 
`Tolerance.' Yet the PA schoolbook does not mention Jews or Israelis in 
the entire chapter. A prominent picture shows a Christian shaking hands 
with a Muslim,'' Marcus complains.
    Firer's co-researcher, Prof. Sami Adwan, of Bethlehem University, 
can't make up his mind whether to laugh or cry at Marcus's grievances. 
``How does he expect my child to interpret a Jew's handshake, the same 
hand that causes my child daily suffering. Textbooks become a dead 
letter if the message is too far removed from reality. The teacher has 
to be able to answer a child's question, `Why should I love Israelis?' 
Can your textbooks decree that you must love Germans? I know it isn't 
the same, but suffering is suffering. What am I supposed to tell my 
kids after settlers attack us on the way to visit their 85-year- old 
grandfather? Kids can't be duped.''
    The educator from Beit Jala says that what children see on the 
street, on TV and on the Net has a far greater impact than any 
textbook. ``How can a Palestinian write in a textbook that Israelis or 
Jews should be loved, while what he is experiencing is death, land 
expropriation, demolition of homes and daily degradation? Give us a 
chance to teach loving. [That will happen] when they stop seeing 
Israelis as soldiers or bulldozer operators. Let us breathe. Give us a 
chance to love you.''
    Adwan will not be attending the seminar on Mount Scopus. His 
village is under closure. Only Israelis will be speaking at the seminar 
on the image of the other, and all the presentations will be in Hebrew.
                                 ______
                                 
                        Palestinian Schoolbooks
    In September 2000 Palestinian Authority and UNRWA schools 
introduced the new Palestinian school curriculum and a first set of 
textbooks (grades 1 and 6) published by the Palestinian Authority, that 
were to replace the previous textbooks. At the beginning of the 2001 
academic year, books for grades 2 and 7 were introduced. This 
replacement process will be gradually implemented over the coming 
years.
    Parallel to this process, allegations of anti-Israeli and anti-
Jewish bias and incitement contained in Palestinian textbooks were 
made, directly or indirectly based on documentation prepared by the 
CMIP (Centre for Monitoring the Impact on Peace). CMIP based those 
claims on specific quotations from these books inciting anti-Semitism 
and urging the destruction of Israel.
    A number of EU donors support the Palestinian education sector and 
a few of them sponsored the preparation of the first Palestinian 
curriculum and the production of new textbooks.
    Information gathered by the EU missions on the ground, as well as 
independent studies carried out by Israeli and Palestinian academics 
and educators that have examined the new textbooks, show that:
    1. Quotations attributed by earlier CMIP reports to the Palestinian 
textbooks are not found in the new Palestinian Authority schoolbooks 
funded by some EU Member States; some were traced to the old Egyptian 
and Jordanian text books that they are replacing, some to other books 
outside the school curriculum, and others not traced at all. While many 
of the quotations attributed to the new textbooks by the most recent 
CMIP report of November 2001 could be confirmed, these have been found 
to be often badly translated or quoted out of context, thus suggesting 
an anti-Jewish incitement that the books do not contain.
    2. New textbooks, though not perfect, are free of inciteful content 
and improve the previous textbooks, constituting a valuable 
contribution to the education of young Palestinians. Palestinian 
Authority Ministry of Education has accepted the need for ongoing 
review, revision and improvement.
    Therefore, allegations against the new textbooks funded by EU 
members have proven unfounded.
    In the line with the EU's political and financial commitment to 
help establish a sovereign, peaceful, democratic and viable Palestinian 
State, continued support to the Palestinian education sector is 
essential.
    EU missions on the ground will keep the issue under review and 
assist in the task of monitoring the content of Palestinian Authority 
textbooks as they are published. In the framework of the UNESCO 
Executive Board Resolution of June 2001, Israeli and PLO 
representatives agreed to undertake a joint review of Israeli and 
Palestinian textbooks.
                                 ______
                                 
  Report I.--Analysis and Evaluation of the New Palestinian Curriculum
   reviewing palestinian textbooks and tolerance education program--
   submitted to: the public affairs office, u.s. consulate general, 
                         jerusalem, march 2003
                           executive summary
    The Palestinian Authority (PA) established the Curriculum 
Development Center (CDC) in 1994. It was commissioned with formulating 
a Palestinian vision of a national educational policy and of a national 
curriculum. Work on a comprehensive framework was completed in 1996. 
Shortly after that, the PA's Ministry of Education (MOE) established a 
new curriculum center commissioned with writing new school textbooks. 
The curriculum plan assumed concrete form during the 2000-2001 school 
year.
    In the past three years, the Palestinian MOE introduced a number of 
new textbooks and a few teachers' guides for grades 1, 2, 3, 6, 7, and 
8. The production of these textbooks involved hundreds of authors, 
reviewers, supervisors, teacher trainers, illustrators and technical 
support personnel.
    The present investigation is an earnest attempt to present a 
professional analysis/evaluation of the new Palestinian curriculum, 
especially as it relates to the principles of civil society, peace, 
tolerance and diversity. It covers all textbooks that relate to the 
objectives and tasks of the investigation. However, a special focus is 
placed on language arts, religious education, history, civil education, 
and national education curricula.
    The major goals of the new Palestinian educational system are 
nationalistic, cognitive and social in nature. A review of the new 
textbooks revealed that the major goals of the history, national 
education, civil education, religious education and language arts 
textbooks are to reinforce the Palestinian national, civic and 
religious identity and to promote respect for authority (local and 
national government, family and religious and civic institutions). The 
curriculum attempts, among other things, to promote national 
aspirations and condemn occupation practices. In doing so, it briefly 
and inadequately addresses some of the conflictive and sensitive issues 
that relate to the prevailing political situation.
    Another interesting dimension of the curriculum is its focus on 
promoting students' faculties of critical thinking, creative thinking, 
decision-making and problem solving. Moreover, the innovative 
instructional strategies recommended (role-playing, simulation, case 
studies, and other cooperative learning techniques) point to the 
national interest in promoting the principles of human rights, 
democracy, diversity, tolerance and pluralism which, in turn, help in 
the development of active learners and democratic citizens.
    The curriculum, moreover, attempts to (re)shape students' 
perceptions, beliefs and attitudes toward a number of concepts and 
issues, many of which relate to the Israeli-Palestinian conflict. Thus, 
one finds references in almost all disciplines to the concepts of 
loving peace, openness to and respect for other cultures, and promotion 
of peace, global and environmental awareness. Most of these instances, 
however, fail to reflect a much-needed practical dimension of a truly 
regional and global multicultural perspective that promotes mutual 
understanding, respect, and tolerance.
    The curriculum undoubtedly bears the marks of unresolved 
(historical and contemporary) controversies both among Palestinians and 
with the neighbors of the emerging Palestinian state. As such, the 
textbooks do not openly or adequately reflect the multiethnic, 
multicultural and multi-religious history of the region. Furthermore, 
they do not present a multi-perspective account of several of the 
formative historical events and several of the still-unresolved issues 
(Jerusalem, water, borders, settlements and refugees). According to a 
MOE position paper (December 2002), ``The new curriculum, politically 
speaking, and as reflected in the textbooks already produced, remains 
to be a tentative and transitional attempt to account for the political 
complexities at this political juncture.''
    Educationally speaking, the curriculum adopts a student-centered 
pedagogy that acknowledges and utilizes the pluralism of intelligence 
and a diversity of learning styles in the learning process. It is also 
an activity-based and issue-oriented curriculum that encourages 
cooperative learning, and is structured to assist learners in viewing 
all subject-matter content in the context of their own communities and 
the surrounding ones.
    Peace and Tolerance.--The overall orientation of the curriculum is 
peaceful despite the harsh and violent realities on the ground. It does 
not openly incite against Israel and the Jews. It does not openly 
incite hatred and violence. Religious and political tolerance is 
emphasized in a good number of textbooks and in multiple contexts. Some 
textbooks devote whole units or lessons to talking about these values 
and encourage students to adopt them. Inter-religious tolerance towards 
the followers of the other monotheistic religions, traditionally 
referred to as ``Ahl al-Kitab'' (the People of the Book), is emphasized 
in the framework of the teachings of Islam. In principle, these calls 
apply to both Christians and Jews. However, the textbooks fail to 
extend these principles and concepts to include Jews and to the State 
of Israel. In addition, and although the curriculum provides the 
opportunity for students to recognize and respect beliefs and practices 
of ``others,'' the concept of the `other,'' in most cases, is limited 
to Christians.
    Civil Society.--Although many concepts, principles and skills that 
relate to civil society and democracy figure prominently in the new 
Palestinian textbooks (human rights, freedom of speech, the justice 
system, pluralism, the role of central and local government, the 
legislative council, elections, voluntary work, teamwork, fair 
resolution and fair competition, a sense of right and wrong, respect 
for law, and accepting responsibility), other essential ones are 
lacking. These include ethical and moral judgment, community 
understanding, independence of thought, genuine understanding and 
respect for differences, information management, and taking action.
    Also prominent in the new curriculum are attempts to enhance 
students' social interaction and communication skills such as enquiry 
and communication, participation and responsible action, active 
listening, decision-making, problem solving and conflict resolution. 
These concepts, principles and skills are introduced as they relate to 
the national and local levels and do not clearly or adequately reflect 
regional and global dimensions. In addition, the curriculum fails, in 
crucial instances, to make the connection between local, regional and 
global concerns, especially as it relates to environmental awareness, 
community involvement, and global social and moral responsibility.
    Cultural Literacy.--The curriculum also falls short in its attempt 
to promote the concept of ``cultural literacy'' as presented by Hirsch 
(1987). Although the principles that embody ``cultural literacy'' are 
included in the curriculum framework, the authoring teams have failed 
to adequately translate the principles and concepts into subjectmatter 
content and activities. Thus, one finds few references that focus on 
the inclusion of people, places, events or any ideas that reflect both 
a broader nature of multiculturalism and a more international 
perspective, thereby giving credence to contributions coming from other 
ethnic and religious groups.
    Coverage of Historical Events.--Generally speaking, coverage and 
presentation of history and historical facts can be characterized as 
being selective. History textbooks, one cannot fail to notice, treat 
the ancient and modern history of the region and that of Palestine in a 
selective way, ignoring some historical events while depicting others 
from one perspective. In particular, one notices a number of cases in 
which Judaism and the Jews are inadequately and inappropriately 
represented in relation to their presence in the region. Different 
dimensions of region's positive and intercultural history are sometimes 
missing, thus giving the impression of insignificance of other 
cultures, religions and political institutions in the development of 
the region's present-day profile.
    One also notices the lack of a sustained account of the recent 
history of Palestine and the absence or the peripheral treatment of 
some of the formative events in the region's history. The focus, 
moreover, is on the national Palestinian narrative. The materials do 
not openly reflect readiness to consider the Jewish and Israeli 
narratives.
    The history curriculum, however, does not show signs of ``misuse of 
history.'' Although some may feel that history is being used as an 
instrument of ideological anipulation, there are very few instances in 
which texts are implicitly exploited to promote intolerance and ultra-
nationalistic or racist issues.
    National, Civil, and Religious Identity.--In the National Education 
and the Civic Education textbooks, one notices a focus on Arab and 
Palestinian ethnic, national, civil and religious identity. The same 
applies to the focus on the Arab character of East Jerusalem. It does 
not deny the Israeli and Jewish character of, for example, the Jewish 
holy places or Jewish history in the city, but does seem to ignore 
their existence or their importance to Jews and to the State of Israel. 
One also notices an emphasis on the duty of students to love their 
land, family, towns, state, the Arab world and the Islamic world.
    Palestine/Homeland, Jerusalem.--The concept of ``Palestine'' is 
used in both historical and modern contexts, the former being in a 
general geo-historical sense and the latter in reference a political 
entity in the making. Generally speaking, ``Palestine'' is mostly 
presented in its historical context. References to ``Palestine'' are 
mostly made to reflect the Palestine of pre-1948 War, the pre-Partition 
plan. The concept of ``The Homeland,'' in almost all instances refers 
to the West Bank and the Gaza Strip. This creates significant confusion 
particularly when maps are presented showing towns and cities that are 
located within the State of Israel while indicating a map of Palestine.
    Jerusalem is portrayed (historically, religiously, culturally, 
socially, demographically) in relation to its Arab and Islamic nature. 
Several references are made of the Christian presence in Jerusalem. All 
illustrations and photos of Jerusalem reflect those found in the 
Eastern or Arab part of the city (mostly, the old city). It is also 
almost always referred to as the ``Capital of Palestine.'' References 
reflect the national, political, cultural, economic, religious and 
historical importance of the city and its Arab and Islamic 
characteristics. However, there is no mention of its religious and 
historical significance to Judaism and to the Jews, or that of the 
State of Israel for which Jerusalem is its capital.
    Israel/Israelis/Judaism/Jews.--Israel, as a sovereign state 
(political and geographic entity), is not clearly or adequately 
represented in the textbooks. Israel is referred to indirectly using 
different terms such as ``the Land of the 1948'', ``the Interior'', 
etc. In some contexts, Jews, in historical and modern-day contexts 
(occupation, Zionism, settlers) are negatively represented in 
Palestinian textbooks.
    References to the ``other/Israel/Israelis'' are also presented in 
excerpts from the modern Palestinian literature. Most references 
reflect pain, suffering and bitterness experienced by Palestinians as a 
result of the ongoing Israeli-Arab conflict. In several instances, the 
State of Israel is presented as a usurper, an occupation force and a 
foreign occupier of Palestine. Israel is blamed for the suffering of 
the Palestinian people.
    There are several references to Jews relating to the life and death 
of Jesus Christ. Jews are also presented in reference to Jesus' 
teachings on marriage and divorce in the Jewish and Christian 
traditions. These instances reflect that state of affairs that 
prevailed in the Holy Land at the time of Jesus, especially as it 
related to religious and social sects, such as the Sadducees and the 
Pharisees.
    Holy Places.--Holy sites in Palestine do not include those of Jews 
except for the ones that are holy to both Muslims and Jews (Al-Buraq 
Wall/the Wailing Wall, the Sanctuary of Abraham/Al-Haram al-Ibrahimi 
as-Shareef, Jacob's Well and Joseph's Tomb). When mentioned, no 
reference is made to their significance to the Jewish tradition.
    Maps.--Several books contain and make reference to maps of 
historical Palestine as a geographical and historical entity. Some of 
the maps show Palestine as part of the Arab world (regional maps), 
whereas others show it in isolation. Some maps highlight the location 
of the Israeli settlements in the West Bank and the Gaza Strip. In all 
cases, the maps are not labeled in any way. In some maps the boundaries 
of the West Bank and Gaza Strip are contoured. This is the case when 
reference is made to the demographic distribution of Palestinians and 
to the administrative breakdown of the PA territory in terms of 
governorates.)
    Jihad and Martyrdom.--References to jihad and shahadah or istishad 
(martyrdom) are made in historical and modern contexts. References are 
made in militant as well as peaceful and constructive contexts. Along 
the same lines, the concepts of defending and liberating Palestine as 
the ``homeland'' are presented both in historical and present-day 
contexts (Crusaders, Ottoman Empire, British Mandate, and Israeli 
occupation). In several instances, jihad and martyrdom are presented 
both as a ``religious'' and a ``national'' duty. There are also few 
examples (linguistic and other) that praise the use of violence against 
others. These examples are present in the framework of talking about 
the duty to defend and liberate the homeland.
    The Right of Return.--The right of return of the Palestinian 
refugees to their homeland, as stipulated in the U.N. resolutions, is 
emphasized in several texts. It is also an important part of the 
Palestinian national anthem, the words of which carry the meanings of 
sacrifice for the homeland and the determination to reclaim it.
    Bilateral and International Agreements.--There is not much mention 
of or many references to the international and bilateral agreements 
signed between the Israeli government and the PLO. The Oslo Accords, 
the Declaration of Principles, the Taba and Hebron agreements are not 
frequently mentioned and not adequately discussed.
    When, mentioned, the reference is usually made in the context of 
talking about the PA, demographic and economic issues.

Clerk's Note.--The full report can be found on the web.

    Senator Specter. Well, Dr. Asali, thank you very much for 
joining this subcommittee today and for that very profound 
statement. When you talk, as you did at the opening, about: 
``fear, anger, despair, violence, and almost an exclusive sense 
of victimization on both sides,'' very poignant, very profound. 
And your conclusion about the unkindness of history to the 
Jews, Israelis, Palestinians, and your call to prohibit the 
demagogues and the violent elements and the ones with the least 
sense of fundamental human values dictate the agenda and 
undermine peace, again, profound and right to the point.
    What would your suggestion be as to where we go from this 
point forward?
    Dr. Asali. It has been a most frustrating problem to me 
that the collective will of people who do want peace, who want 
a two-state solution, as expressed in polls showing that 70 
percent of the American people, 70 percent of Jewish Americans, 
65 percent of Israelis, are all for a two-state solution, as we 
understand it with the general two-for-two based--two states 
share Jerusalem, et cetera, et cetera. That collective will has 
been undermined, vetoed, and prevented from fruition by more 
strident voices, more energetic and polarizing forces that 
appeals to the lower instincts of people on all sides. It is 
time to redefine this conflict, in my mind, as not one between 
the Israelis and the Palestinians, between the Arabs and the 
Jews, between the Muslims and the Christians. It is, rather, 
between those who are for peace from all these categories, who 
are for a peaceful resolution of this long conflict, to 
establish a two-state solution, as defined by so many people, 
and those who oppose it vehemently. It is time to have those 
bridges established and have fundamental relations and 
political forces realigned courageously and publicly, and take 
the credit or the blame for these stands in order to thwart the 
forces that have used demagoguery, violence, and whatever 
political or military clout that they could to frustrate the 
rest of us.
    Senator Specter. Thank you, Dr. Asali.
    Dr. Asali. Thank you.
    Senator Specter. Senator Clinton, would you care to make an 
opening statement at this time, or question?

          OPENING STATEMENT OF SENATOR HILLARY RODHAM CLINTON

    Senator Clinton. Well, I thank you very much, Senator 
Specter, for holding this important hearing, and I will submit 
my entire statement for the record.
    I wholeheartedly agree with what I heard as I came in, from 
Dr. Asali's testimony about advocating for a two-state solution 
that is premised on security and peace and opportunity. And 
it's long been my position that's the only option available for 
people of good faith.
    It is troubling, though, and that is something that I think 
we have to recognize, that with the testimony and the 
documentary evidence concerning the--actually, the 
glorification of suicide killers and the incitement of young 
people to aspire to that position and the martyrdom that it 
may, in their minds, offer them, that's very hard, for any of 
us who believe there has to be some resolution of the ongoing 
dispute, to understand. And I don't believe that there has been 
an adequate and consistent repudiation of the rhetoric of hate 
and the incitement of young people by the authorities in the 
Palestinian Authority. And I think that's so important, and I 
think it needs to be not just done once, but over and over and 
over again.
    The position that I bring to this is that for, you know, 
many years I've tried to do what I could to help children and 
to provide better opportunities for them. And my heart goes out 
to the Palestinian children, as well as the Israeli children, 
who had nothing to do with creating the conditions in which 
this violence occurs, and yet are having to grow up fearful, 
having to grow up and see the losses of loved ones, for 
whatever reason. You know, let's not talk about who did what to 
whom and what the history is. But the fact is, we owe our 
children better than that. And I think that it is just 
heartbreaking to see the portrayal of martyrdom as something 
that a young child should be encouraged to hope for and aspire 
to. It's not just in the testimony and the evidence presented 
today, but in many other settings. I've seen similar messages, 
and they are broadcast on the Palestinian Authority TV, played 
over and over again, children playing death games, children, 
you know, being interviewed and kind of rote-ly reciting that 
death by Shahada is good. It is a chilling example, and it's a 
real distortion of childhood and of adult responsibility.
    I mean, we can have all the arguments we want, and we can 
accuse each other of all the wrongdoing that goes back as far 
as the mind can remember, but we should not do it at the 
expense of, you know, further undermining the opportunities and 
the futures of these children.
    So I just have to say that what is happening now, and what 
seems to be endorsed and supported by the Palestinian 
leadership through the P.A. TV is troubling, and that has to 
end. I mean, there are many other arguments still to be had. 
And as we all remember, you know, many people thought that we 
were very close, in the year 2000, from Camp David forward, and 
we couldn't. We couldn't continue the negotiations, we couldn't 
get a responsive partner on the other side. It was very 
discouraging.
    But, from my perspective, no matter what the ongoing 
political, diplomatic, historical arguments must be worked out, 
these horrible examples of encouraging young people to be tools 
in this adult conflict is just not to be condoned or permitted 
to continue.
    You know, I saw reports of a recent book called ``Army of 
Roses'' by Barbara Victor about women suicide bombers. You 
know, that's a new development. Now, you know, I believe in 
women's participation in societies as fully as possible. It's 
just tragic that that is now a way in which some women are 
choosing to conduct themselves. But in this book, the author 
has very compelling evidence about the fact that suicide 
bombers often are trained and brainwashed into seeing 
themselves as these martyrs.
    The author did something which I found, as a mother, very 
touching. You know, oftentimes you see the mothers of the 
suicide bombers, both young men and young women, and they are 
appearing fearless and very devoted to the cause and very proud 
of their daughter or their son who's gone off to blow 
themselves up and kill others with them. But this author went 
behind the scenes and actually talked to these mothers when the 
cameras were off, and they were reduced to tears, and they 
shared the feelings that any mother would about. ``What is 
happening? Why would my child do this?'' And often these are 
children with some of the very best futures for a Palestinian 
state. These are children who are going to college. These are 
children who have the opportunity to contribute to building a 
strong Palestinian state. And, instead, they are, in my view, 
brainwashed into committing suicide for reasons that have very 
little to do, other than the continuing desire by those who 
encourage them to pursue a path of terrorism and violence.

                           prepared statement

    So there must be a way out of this on the diplomatic and 
political front. But, in the meantime, all adults, no matter 
what our political position, no matter what the grievances that 
we may carry toward another, should be at least united in 
saying, ``Let our children live to make their own decisions in 
the future.'' And it would be extremely beneficial to achieve 
the goals that I think many of us, or at least I'll speak for 
myself and what I heard from Dr. Asali share, of someday seeing 
the children of Israel and Palestine living in peace, to, 
without equivocation, repudiate and condemn this continuing 
abuse of children and this incitement to hatred that we have 
much more evidence of than just what has been presented by Mr. 
Marcus.
    [The statement follows:]
          Prepared Statement of Senator Hillary Rodham Clinton
    Thank you, Senator Specter, for the opportunity to join you today 
for this important hearing. I look forward to continuing to work with 
you to advance this issue.
    I have been speaking out against the incitement of hate and 
violence in Palestinian textbooks for years. In September of 2000, I 
had the honor of joining Nobel Peace Prize winner Elie Wiesel in New 
York to denounce the lessons of hatred and violence that were part of 
the core curriculum in Palestinian schools.
    And a year and a half ago my colleague, Senator Schumer, and I 
wrote a letter to President Bush urging his Administration to do 
everything in his power to persuade the Palestinians to reverse their 
hateful rhetoric and embrace the opportunity to move toward a strong 
and lasting peace in the region. We know that if there is to be real 
peace between Israelis and Palestinians, there must be a full and 
immediate cessation of hateful rhetoric on the part of the Palestinian 
Authority.
    In our letter, we noted that the rhetoric of hate was mounting 
daily. At the time, Yasser Arafat delivered a speech ``commemorating 
the `catastrophe' of Israel's creation in 1948, in which he reiterated 
his theme that the violent Palestinian struggle will continue `until 
the flag of Palestine is raised over holy Jerusalem.' A book that was 
required reading for Palestinian six graders actually starts off 
stating, `There is no alternative to destroying Israel.' When 
Palestinian children are brought up to hate Israel, how can we ever 
expect a commitment to a lasting peace?''
    What we see evidence of today is even more alarming. According to 
research done by the Palestinian Media Watch organization, the Middle 
East Media Research Institute, the American Jewish Committee and 
others, we are seeing children being indoctrinated to yearn for 
Shahada--or martyrdom. And according to the evidence presented here, 
this is a clear strategy by the Palestinian Authority.
    I recently met with Itamar Marcus of Palestinian Media Watch who is 
here to testify. He presented me with some horrifying stories of the 
messages the Palestinian Authority is conveying to its children.
    As you saw in the opening videos, one film clip broadcast daily on 
Palestinian Authority TV (PATV) called the ``Farewell Letter,'' 
portrays the martyrdom as blissful and tranquil. A young boy leaves a 
farewell letter explaining his choice to achieve shahada. The words 
'How sweet is shahada when I embrace you, oh my land!' are sung as the 
child actor falls dead on the ground.
    Messages like this on official PATV, played over and over, have had 
an effect. In some Palestinian polls as many as 80 percent of 
Palestinian children desire death as martyrs. Children play death 
games, in which they take turns playing the prize role--that of the 
martyr. And in an interview last year, one 11-year old girl, stated 
that ``. . . death by Shahada is very good. Every Palestinian child 
aged, say 12, says `Oh Lord, I would like to become a Shahid.' ''
    These chilling examples demonstrate how deeply these impulses have 
seeped into the culture and into the hearts and minds of Palestinian 
children; and it is shameful and reproachful that these lessons come 
from the public officials whose aim should be to protect children--not 
send them to their graves.
    As an advocate for children for over 25 years, I have worked to 
fight abuse and neglect of children wherever I saw it. I worked with 
doctors and nurses to help them identify abuse and worked within the 
legal system to protect children whose lives were at risk. What is 
happening in the Palestinian Authority now is frightening. It is an 
abdication of adult responsibility of the highest order. Instead of 
working to find an end to the violence, this propaganda from the 
Palestinian Authority appears to be taking advantage of young, supple 
minds and encouraging children to see the beauty of their own deaths.
    Yasser Arafat has demonstrated a manifest unwillingness to address 
this issue. He speaks to the international community as a victim, and 
then encourages the children of his people to desire the ultimate 
sacrifice. Instead of filling young minds with the promise of their 
futures, Palestinian leadership--through PATV--is fabricating a deceit 
based on hate and destruction. The ramifications go well beyond the 
Middle East.
    Anti-Semitism, of course, is not a new phenomenon, but it seems to 
have gathered new life of late as witnessed by the recent statements of 
the outgoing Prime Minister of Malaysia, Dr. Mahathir Mohamad. History 
has taught us how important it is to condemn anti-Semitism as early and 
as strongly as we can--which is why I co-sponsored a resolution urging 
President Bush to condemn Dr. Mohamad's hateful words. The continuing 
rise of anti-Semitic acts and statements around the world is shocking 
and disturbing and must be met with clear and immediate condemnation. 
We cannot stand by and tolerate these kinds of remarks, especially from 
a Head of State.
    However, Dr. Mohamad s vicious words were not isolated. His attacks 
on Jews came from the same bitter well of hatred that informs a growing 
anti-American and anti-Western fervor worldwide, which is stoked by 
leaders who offer few positive solutions to their people's problems. 
Mort Zuckerman recently noted in U.S. News ``That rhetoric is the 
product of careful calculation by Arab political leaders who recognized 
the popular appeal of scapegoating Israel for their failure to provide 
for their own people while legitimizing their regimes.''
    What we are seeing in today's hearing is a frightening foreboding 
of violence and danger to come--not only against Israelis, but against 
any institution of progress, freedom and democracy. This indoctrination 
must be stopped.
    I'd like to say a final word about the effects of this 
indoctrination on the fabric of Palestinian families and the larger 
society.
    I have seen reports recently about a book called Army of Roses by 
Barbara Victor about women suicide bombers. The author spoke about the 
fact that suicide bombers ``training'' begins ``from the cradle on . . 
. . From the age of six years old, they talk about their desire to die 
and their desire to be a martyr.'' She went on to discuss the mothers 
of suicide bombers, who appear fearless on television as they tout 
their child's bravery and heroism, only to be reduced to waves of tears 
and weeping moments later--like any mother who lost a child. She 
recently said ``People think these aren't like other mothers. They 
don't have the same feelings. And of course, they have.''
    Only when we have a Palestinian leadership that chooses to enhance 
the lives of its children, rather than inciting hate and the desire for 
death, and a Palestinian leadership that allows mothers to mourn their 
lost babies, instead of putting on a show of heroism, will we have a 
Palestinian leadership with which we can work towards peace in a 
meaningful way.
    The U.S. Government must deliver this message loud and clear to the 
Palestinian Authority: the Palestinian Authority must reverse its 
hateful rhetoric and embrace the opportunity to move toward a strong 
and lasting peace in the region. This has to be the top priority of all 
people who care about children, who care about peace, who care about 
the kind of stability, safety, and security that Israel should be 
guaranteed, and who care about the future of the Palestinian people. It 
cannot be done if we don't take a strong stand against hateful 
rhetoric.

    Senator Specter. Thank you very much, Senator Clinton.
STATEMENT OF MORTON KLEIN, PRESIDENT, ZIONIST 
            ORGANIZATION OF AMERICA
    Senator Specter. We now turn to our final witness on the 
panel, and that is Dr. Morton Klein, national president of the 
Zionist Organization of America, a member of the Executive 
Committee of the American Israeli Public Affairs Committee. He 
has led successful campaigns against anti-Israel bias in 
leading textbooks, travel guides, and the media. He served as 
an economist in the Nixon, Ford, and Carter administrations, 
and has been an outspoken advocate against terrorism and ways 
of bringing Palestinian terrorists to justice in the United 
States under our Terrorist Prosecution Act.
    Thank you for joining us, Dr. Klein, and the floor is 
yours.
    Mr. Klein. Thank you, Mr. Chairman, for the opportunity to 
address this panel, and I would ask that my remarks be placed 
as part of the record.
    Thank you----
    Senator Specter. Your full statement will be made part of 
the record, as will all other full statements, without 
objection.
    Mr. Klein. And thank you, Senator Clinton, for being part 
of this important discussion.
    First of all, I want to make a few opening remarks. I was 
troubled by--I didn't understand Dr. Rahman initially stating 
that these translations were incorrect and incorrect. And 
without telling us what they really said, he then went on to 
say that they're simply religious statements, so they don't 
matter anyway. Well, it can't be both ways.
    He also talked about the fact that Palestine--that this was 
Palestine-Arab land all these years. In fact, we should 
understand that Palestine was never a country. It was only a 
region controlled by Turkey and the British until 1948. And, in 
fact, even Mark Twain wrote an essay in 1868 saying he went 
through the length and breadth of Palestine, and there was 
virtually no people there; it was just marshes and swamps. He 
didn't understand why Jews even wanted to come and live there. 
And I would ask Dr. Rahman, you know, can he name any 
Palestinian kings and queens. I mean, this was not a country of 
Palestinian Arabs. And, in fact, of all the censuses done in 
Jerusalem, the majority of people living in Jerusalem since the 
mid 1800s was Jewish.
    Also, about Barak, President Clinton and Dennis Ross, our 
lead negotiator, made it clear that this was a real offer of 97 
percent of Judea and Samaria. Contiguous land was emphasized, 
that this was contiguous, billions of dollars in aid, all of 
Gaza and half of Jerusalem. And instead of having even a 
counter offer, the Palestinian Authority simply launched a 
terror war. And the reason that the Jews in Judea and Samaria 
are armed are not to intimidate Palestinian Arabs or to hurt 
them; it's because they are constantly threatened by terror. 
It's to defend themselves. There's been virtually no terror 
attacks or killings, with rare exception, of Palestinian Arabs 
by Jews who live in Judea and Samaria. And I find it utterly 
racist, frankly, to ask Jews not to live in Judea and Samaria. 
Why can't 200,000 Jews live among 2\1/2\ million Arabs in Judea 
and Samaria and Gaza, when 1 million Arabs live among 5 million 
Jews in Israel proper? I think we have to understand that.
    By the way, there are many other polls. Mr. Asali mentioned 
some polls--McLaughlin Group, Hannock Smith, who's the Gallup 
Poll of Israel--showing a clear majority of Americans and 
Israelis against the state, a Palestinian state, because they 
believe it will be a terrorist state.
    Tragically, in the last 10 years, there's not been a halt 
to anti-Jewish and anti-Israel incitement in the schools, 
media, and children's camps. An entire culture of hatred has 
developed. Finally, with the suicide bombers, the P.A. pays for 
such posters of killers. This is one of the suicide bombing 
killers posted all over the schools, universities, high 
schools, the streets, honoring suicide bombers, paid for by the 
Palestinian Authority. It's just awful.
    The children's camps teach Arab youngsters how to kidnap 
and murder Jews. Streets, cities, schools, summer camps are 
named after the suicide bombers, honoring them. It's just a 
tragic situation.
    If the Palestinian Authority was serious about peace, not 
only would they end this culture of hatred and murder, they 
would confiscate the tens of thousands of illegal weapons in 
the hands of terrorists, they would get rid of Hamas Islamic 
Jihad. Instead, they refuse to do anything. They've arrested 
virtually no terrorists over this 10-year period. And as 
Madeleine Albright said, it's a revolving door, justice. The 
few times they've arrested terrorists, they were released 
within a matter of weeks or months. Even Mahmoud Abbas and the 
current Prime Minister Ahmed Qureia have vowed they will not 
fight against Hamas and Islamic Jihad. This is not how we can 
get the peace.
    The human rights abuses in the region in the Palestinian 
Arab territories are legion. Human Rights Watch, Palestinian 
human rights monitoring group, have said that there is large-
scale torture of dissidents perpetrated by the Palestinian 
Authority regime, and dozens of people have been tortured and 
murdered in P.A. prisons.
    Christians are persecuted so ruthlessly by the P.A. regime 
that several U.S. courts have granted Christians asylum in 
American on the grounds that they would be persecuted for their 
religion if they returned to P.A.-controlled territories.
    The P.A. continues to engage in actions hostile to the 
United States. It shelters dozens of terrorists who have been 
identified as murderers of Americans. It refused, only 
recently, to permit the FBI to investigate the recent terrorist 
murders of three U.S. diplomatic personnel. The P.A. 
vociferously supported Saddam Hussein and other enemies of the 
United States and constantly distributes vicious anti-America 
propaganda in the official P.A. media. It pays salaries to 
imprison terrorists who have murdered Americans, and named 
streets and parks after killers of American citizens. The P.A. 
runs bomb factories and smuggles weapons through tunnels from 
Egypt into Gaza, and the violence, of course, continues.
    How should we respond to this? Until now, I believe 
tragically and mistakenly, the U.S. policy has been focused on 
trying to appease the P.A. regime. Dennis Ross said recently 
that they made a serious mistake ignoring this incitement for 
all these many years. The present administration is offering 
the P.A. a sovereign state and has more than doubled the annual 
aid allotment to $213 million. The assumption is that offering 
funds in the state, they would agree to live in peace. But 
recent studies show that suicide bombers are better educated 
and more affluent than their fellow Palestinians, and a recent 
survey shows a majority of Palestinians today want violence 
against Israelis to continue even if a Palestinian state is 
established. That survey was done only this past week. And, 
remember, Syria, Libya, Iraq, and North Korea are sovereign 
states; they're not lovely places. Sovereignty will not ensure 
a lovely, civilized, democratic situation.
    Throughout history, appeasement has never worked. Professor 
Donald Kagan, of Yale, a distinguished classicist and 
historian, in his book on, ``The Origins of War,'' wrote that 
in studying 3,000 years of international treaties, appeasement 
has always failed in those 3,000 years, and it hasn't worked 
with the P.A. either.
    The message given in speeches to Arab audiences by P.A. 
officials constantly say that all of Palestine includes Israel, 
and we must destroy Israel. The message of wiping out Israel is 
reinforced in the maps, in the offices, and even on P.A. 
official letterhead.
    I happen to have an actual letterhead that Hassan Abdel 
Rahman has used in his own testimonies in the past. At the top, 
there's an emblem of the Palestinian Authority, with a map--if 
you see the black there, the small--it's all of Israel is 
Palestine, on their official stationary used in testimony 
before the Senate Subcommittee on Foreign Operations. And that 
is the message that's being sent, that all of Israel is 
Palestine. The same in their atlases. The yellow there, which 
is Israel within the green line, is described as Palestine, not 
as Israel. The name Israel doesn't appear on any of the atlases 
whatsoever.
    The time has come for a new approach. It's time to come to 
recognize that P.A. is not a partner for peace; it is a corrupt 
terrorist regime that must be dismantled, just as the Saddam 
Hussein was dismantled. Saddam's loyalists are not allowed to 
serve in a new Iraqi Government, and neither should those who 
are officers or officials in the present regime be allowed to 
participate in any new regime that will be moderate and 
peaceful.
    There is strong precedent for cutting off relations with 
the Palestinian Authority. The previous President Bush 
undertook an experiment to test the PLO's intentions in 1988. 
When it failed, Bush acknowledged the failure. The first 
President George Bush cut off relations. I believe we must do 
this yet again.
    Second, Congress must take immediate action with regard to 
the P.A.'s educational system. Raising children to hate Jews, 
Israel, and America dooms any hope in the region for any 
serious peace. If you educate for violence, you're going to get 
violence.
    We should make U.S. aid to the Palestine Arabs conditional, 
and only if they completely reform their educational system 
with serious new textbooks, new teachers, new maps, and other 
classroom materials.
    Paul Johnson wrote, in his history of the Jews, ``One of 
the principal lessons of Jewish history is that repeated verbal 
slanders are sooner or later followed by violent physical 
deeds.'' And how true that statement is.
    The aid should be linked not just to the small portion that 
goes directly to the P.A. The bulk of the $213 million aid 
package is not sent directly to the P.A., but does assist the 
P.A. since money is fungible, as we all understand.
    Finally, in addition, Congress should make further U.S. 
contributions to UNRWA conditional on changes in the Palestine 
Arab schools that UNRWA administers. American public opinion 
supports suspension of U.S. aid. Seventy-six percent of 
Americans oppose financial aid to the Palestine Arabs, 
according to a recent poll by McLaughlin Associates.
    Making the aid conditional in this way will accomplish 
three crucial objectives. It'll put meaningful pressure on the 
P.A. to change its educational system, it'll send a message to 
all regimes which promote hatred that they may forfeit American 
assistance or friendship if they fail to change their 
educational systems, and it will create the first real hope of 
raising a generation in Gaza and Ramallah that will be willing 
to live in peace with Israel. We must stop rewarding terrorism 
by funding this regime.
    Fouad Ajami, the great scholar at Hopkins, wrote: ``We buy 
no friendship in Arab lands with pro-Palestinian diplomacy. We 
ward off no Arab-American terrorism.''
    I will end by saying I used to work for Professor Linus 
Pauling, the great two-time Nobel prize-winning chemist, as a 
biostatistician. I was responsible for analyzing the data at 
the end of experiments, and he would say to me: ``Mort, I'm not 
interested in your hopes and dreams. Tell me what the data 
requires us to believe.''
    I want peace, all of us want peace, but we must look at the 
evidence. The evidence shows the Palestinian Authority, 
tragically, is not interested in peace. It's interested in 
working to destroy Israel as a Jewish state. And, at this 
point, we should do everything at our disposal to end aid to 
the Palestinian Authority until it changes, and to end 
relations until it changes. This would have an electric effect 
by saying, as we haven't said, that there is a price to be paid 
for the constant outrages against Israelis. It will not go by 
simply saying: ``We're sorry about the deaths. Let's continue 
the negotiations.'' If we end the negotiations, it would send 
the message that the P.A. would have to make a serious choice. 
Either negotiate and end terrorism, or there will be no hope of 
them achieving anything.

                           prepared statement

    So I urge this panel to consider ending aid to the P.A., 
ending relations until there's a dramatic transportation of the 
P.A. authority. Stop rewarding terrorism.
    Thank you very much.
    [The statement follows:]
                 Prepared Statement of Morton A. Klein
    The Palestinian Authority's policy of educating children to hate 
Jews, Israel, and America is just one part of a much bigger problem: 
the continuing refusal of the Palestinian Arabs to give up violence and 
their goal of eventually destroying the State of Israel.
    The process which began with the signing of the Oslo accords in 
1993 was based on the assumption that the Palestine Liberation 
Organization, under the leadership of Yasir Arafat, could be trusted 
when it claimed that it would stop all violence and live in peace with 
Israel. But events have proven that assumption was terribly mistaken.
    Both the Oslo accords and the Bush Road Map plan require the PLO 
and the Palestinian Authority, which it created, to undertake a number 
of steps to facilitate peace and demonstrate that they would peacefully 
coexist with Israel. They failed to take any of those steps.
    They failed to outlaw terrorist groups like Hamas and Islamic 
Jihad. They failed to confiscate the terrorists' tens of thousands of 
weapons, to arrest terrorists, and to dismantle the terrorists' 
infrastructure of training camps and arms depots. Their leaders, 
including past prime minister Mahmoud Abbas and current prime minister 
Ahmed Qurei, have vowed that they will never fight against Hamas and 
Islamic Jihad.
    Instead of halting anti-Jewish and anti-Israel incitement, as the 
accords require, they increased the incitement. They developed an 
entire culture of hatred. The textbooks used in official PA schools 
teach that Jews are ``treacherous,'' ``enemies of the prophets,'' and 
``foment wars.'' PA summer camps train Arab youngsters how to kidnap 
and murder Jews. Streets in PA cities are named after suicide bombers, 
and posters glorifying suicide bombers appear on the walls of PA 
schools and universities. PA-appointed Muslim clergymen regularly 
preach sermons of hate, which are broadcast on PA radio and television. 
In one recent sermon, Sheikh Ibrahim Madhi declared, ``O Allah, 
annihilate the Jews,'' while Sheikh Ibrahim Abu-Awkal urged his 
followers to ``cleanse the land from the filth of the Jews.''
    They were obligated to implement the rule of law, to hold 
democratic elections, and to respect human rights. Instead they became, 
as one newspaper put it, ``the world's smallest police state.'' 
Newspapers that failed to toe Arafat's line are shut down. Critics of 
the regime are routinely jailed. Even pro-Arab groups such as Human 
Rights Watch and the Palestinian Human Rights Monitoring Group have 
documented what they called ``large scale torture'' of dissidents by 
the PA regime. At least 18 people have been tortured to death in PA 
prisons. Christians are persecuted so ruthlessly by the Muslim PA 
regime that several U.S. courts have granted them asylum in America on 
the grounds that they would be persecuted for their religion if they 
return to PA-controlled territories.
    Moreover, the PA has continued to engage in actions hostile to the 
United States. It shelters dozens of terrorists who have been 
identified as murderers of American citizens. It refused to permit the 
FBI to investigate the recent terrorist murders of three U.S. 
diplomatic personnel. The PA vociferously supporting Saddam Hussein and 
other enemies of the United States. It constantly distributes vicious 
anti-American propaganda in the official PA media. It pays salaries to 
imprisoned terrorists who have murdered Americans; and naming streets 
and parks after killers of Americans.
    Most of all, the PA refused to abide by the most basic obligation 
of the Oslo accords and the Road Map: to halt the use of violence. In 
October 2000, the PA launched a terrorist war against Israel that 
continues to this day. Arafat's own Fatah movement carries out the 
majority of the terrorist attacks. The PA itself runs bomb factories 
and smuggles weapons through tunnels from the Sinai, into Gaza. The 
PA's central role in the violence that began in 2000 has been amply 
proven by thousands of documents discovered by Israeli forces during 
counter-terror raids over the past year.
    How should the United States respond?
    Until now, U.S. policy has focused on trying to appease the PA 
regime. The Clinton administration bent over backwards to avoid 
acknowledging the PA's violations, and it gave the Palestinian Arabs 
$100 million each year. The Bush administration went even further. It 
has offered them a sovereign state, and more than doubled the annual 
aid allotment to $213.5 million. The assumption was that by offering 
them funds and a state, they would agree to live in peace.
    But throughout history, appeasement has never worked. Professor 
Donald Kagan of Yale, in his book On the Origins of War, wrote that in 
studying 3,000 years of international treaties, appeasement has never 
worked. And it hasn't worked with the PA either, because the PA has 
made it clear that its goal is not the creation of a small state next 
door to Israel, but rather to eventually destroy all of Israel. 
Americans understand this. Recent polls show that by a 2-to-1 margin, 
we Americans believe that a Palestinian state will be a terrorist 
state.
    In their speeches to Arab audiences, PA officials constantly invoke 
two models for their political strategy. First, they cite a treaty that 
Mohammed signed, in the 7th century CE, with an enemy tribe, which 
promised peace; but ten years later, when Mohammed's forces had 
improved their military position, he tore up the treaty and slaughtered 
his enemies. Second, they cite the PLO's own ``Strategy of Phases,'' 
adopted in 1974, according to which the PLO will first create a small 
state next to Israel, and then use that as a launching pad to destroy 
the rest of Israel. This message of eventually wiping out Israel is 
reinforced every day in the maps that appear in PA schoolbooks, in the 
PA's offices, even on the PA's official letterhead--maps that show all 
of Israel labeled ``Palestine.''
    What this means is that the appeasement approach cannot work.
    The time has come for a new approach.
    First, the time has come to recognize that the Palestinian 
Authority is not a partner for peace. Not just Yasir Arafat, but the 
entire PA is a corrupt terrorist regime that must be dismantled, 
exactly as the regimes of Hitler and Saddam Hussein were dismantled. 
Hitler's aides were not permitted to become officials of the postwar 
German government. Saddam's loyalists are not allowed to serve in the 
new Iraqi government. Arafat's regime is evil from top to bottom.
    There is strong precedent for cutting off relations with the PA. 
The previous President Bush undertook the first experiment to test the 
PLO's intentions, and when the experiment failed, Bush acknowledged the 
failure. In December 1988, he opened U.S. negotiations with the PLO, 
based on Arafat's promise to stop engaging in terrorism. After 18 
months, in the spring of 1990, the evidence of the PLO's continued 
involvement in terrorism was so overwhelming that the Bush 
administration announced it was canceling all contacts with the PLO. It 
did so after just 18 months. It has now been 10 years since the United 
States renewed contacts with the PLO, and once again the PLO has 
demonstrated that it never changed. The current president Bush should 
follow in his father's footsteps.
    Second, Congress should take immediate action with regard to the 
PA's educational system. Raising children to hate Jews, Israel, and 
America dooms any hope for Middle East peace and undermines everything 
the United States has been trying to accomplish in the region for the 
past decade.
    Congress should make U.S. aid to the Palestinian Arabs conditional 
on the complete reforming of their educational system. New textbooks, 
new teachers, new maps and other classroom materials.
    All the aid should be linked, not just the small portion that goes 
directly to the PA. The bulk of the $213 million aid package is not 
sent directly to the PA but in fact it does assist the PA, since it 
frees up PA money that would have otherwise been used for the projects 
that the indirect aid is paying for.
    In addition, Congress should make further U.S. contributions to the 
United Nations Relief and Works Agency, or UNRWA, conditional on 
changes in the Palestinian Arabs schools that UNRWA administers.
    American public opinion will strongly support a suspension of U.S. 
aid to the Palestinian Arabs. A poll earlier this year by McLaughlin & 
Associates found that 76 percent of Americans oppose U.S. financial aid 
to the Palestinian Arabs; only 11.5 percent favor it. Making the aid 
conditional in this way will accomplish three crucial objectives:
  --It will put meaningful pressure on the PA to change its educational 
        system.
  --It will send a message to all regimes which promote hatred that 
        they too may forfeit American assistance if they fail to change 
        their educational systems.
  --And it will create the first real hope of raising a generation in 
        Gaza and Ramallah that will be willing to live in peace with 
        Israel.
    As you may know, I formerly worked as biostatistician for the two-
time Nobel laureate Linus Pauling. I was responsible for analyzing the 
data of experiments, and after each experiment, Professor Pauling would 
say, ``I am not interested in what your hopes and dreams for this 
experiment were, I am only interested in what the data shows.'' In the 
same way, when you look at the evidence you must conclude that the 
Palestinian Arabs are not interested in peace with Israel.

    Senator Specter. Thank you, Dr. Klein.
    Before going to a round of questioning, 5 minutes, by other 
members of the panels here, we'll give Dr. Rahman an 
opportunity, if he chooses to, to respond to any of the 
comments made by Dr. Klein.
    Dr. Rahman. I honestly don't know where to start, Senator. 
But I can assure you----
    Senator Specter. You can take your time, Dr. Rahman. We 
have allowed overtime here because of the importance of the 
subject and also because of the passion of the subject.
    Dr. Rahman. I think, at the outset of my intervention, I 
made it clear that I'm one of those who believe in the two-
state solution. I have struggled for it. I continue to believe 
that's the only way to achieve an end to the tragic situation 
that we both live in.
    I just want to--first of all, Mr. Klein showed a poster, 
and he said this is a suicide bomber, and it is paid for by the 
Palestinian Authority. First of all, the name on that poster is 
that of Yechya Ayash, who was assassinated in 1999, and it is a 
Hamas poster, and it is not a Palestinian Authority poster. 
This shows you the example of the distortions that I'm talking 
about.
    Second, I have here in my hand a map that was published 
just a few days ago by the Israeli Minister of Defense. I don't 
see the name Palestine on it, and I don't see a delineation of 
the West Bank and Gaza. On the contrary, what I see here is the 
wall, separating wall. So if Israel has not told us where its 
borders end and where the Palestinian state starts, how can we 
do it unilaterally?
    Listen, I acknowledge, and I said that from the very 
beginning, that there is incitement on both sides. On the 
Palestinian side there is incitement, which we call 
nationalistic. I may agree or disagree, but that is the 
explanation that is given. On the Israeli side, there is not 
only incitement, but actions on the ground that instigate 
violence, which I totally oppose--the violence as well as the 
actions by Israel.
    Let's take some of the statement--part of the statement 
that Mr. Klein made. He never referred to Palestine. He never 
said he recognizes the rights of the Palestinian people to have 
a state. In fact, all his arguments were against an independent 
Palestinian state. He referred to it as Judea and Samaria, 
rather than the West Bank and Gaza, the name which is known by 
everyone.
    So what I'm here to say, that the demagogues on both sides, 
whether it is on our side or on this side, are the dangerous 
elements. They are really confiscating our agenda. What we are 
trying to do is to bring back the agenda to the people. That's 
why we support efforts like those made by Mr. Ayalon, with Sari 
Nusseibeh. We support efforts that are made by the group that 
went to Geneva, the Geneva document that was laughed at by Yosi 
Beilin and Yasser Abed Rabbo and groups that really sanctioned 
by the Palestinian Authority with the hope to tell both sides 
that there is an alternative to this quagmire that we live in 
and that there is a possibility. And, Mr. Chairman, I really 
would like to see an effort supporting those efforts made by 
those people, by the people who are pushing peace and not 
taking us back to the confrontation like we see today here.
    I am making speeches around the country of the United 
States to the Palestinian Arab community telling them that we 
have an option, and the option is--that was worked out in 
Geneva--the option is the roadmap, the option is the statement 
that was made by Sari Nusseibeh and Ayalon. Those are the kind 
of efforts that we want really to highlight and encourage and 
show that--both Palestinians and Americans that--and the 
Israelis--that there is a way out. And we seek your support in 
those efforts.
    Senator Specter. Well, Senator Clinton has another 
commitment, so we'll yield to Senator Clinton at this point for 
questioning.
    Senator Clinton. I thank you, Mr. Chairman.
    Dr. Rahman, can I just focus on the issue before us? And 
perhaps it is a narrow issue, but I think it's a fundamental 
and profound one. Will the Palestinian Authority direct the 
P.A. TV to remove any reference to martyrdom, Shahada, and the 
glorification of suicide bombers from the television?
    Dr. Rahman. Senator Clinton, there was an effort made by 
the previous government of Mahmoud Abbas, and there was a 
meeting held between Nabil Amre, who is the Minister of 
Information, and Mr. Shalom, the Foreign Minister of Israel, 
working towards that end, How can we improve the coverage in 
both areas, in the Palestinian as well as on the Israeli 
television? And even Mr. Shalom acknowledged then that progress 
was made. Yes--the answer to your question, yes, we are making 
an effort.
    But, again, I mean, I understand that you are--you want to 
focus on this issue, but I, personally, honestly cannot 
separate this from the wider context.
    Senator Clinton. I understand that.
    Dr. Rahman. Yes.
    Senator Clinton. And I----
    Dr. Rahman. And, therefore, we cannot really, Senator--and 
I hate to interrupt, but we cannot overlook the situation on 
the ground, because this will do an injustice----
    Senator Clinton. I understand your position, and I can only 
say that there are many--in fact, myriad of issues of 
importance to be discussed between Israelis and the 
Palestinians if there is to be any hope of resolution. But on 
this issue, I do not understand why the Palestinian Authority 
cannot separate out a legitimate perspective on what is 
happening--and, look, we all see everything through the prism 
of our own experience, so the news coverage on the Palestinian 
TV is certainly going to be very different than the news 
coverage on Israeli TV or on American TV. We all understand 
that. But I'm talking about the affirmative support that the 
Palestinian Authority is giving in rhetoric and in propaganda 
and through the media to this phenomenon of suicide bombing.
    Now, to me, that is separable. I'm not asking that you 
would in any way abdicate what you view as your rightful 
perspective to say that you disagree with settlements or you 
disagree with, you know other policy of the Israeli Government. 
Of course. That is part of the dispute that has to be resolved.
    But on this issue, it was, for many years, not a part of 
the repertoire of either incitement or violence by those who 
are influenced or directed by any group in Palestine. Now it 
has become the weapon of choice. And it seems to me that there 
is a very big difference from people arming themselves, however 
much I may disrespect that or disagree with it, and going forth 
to do battle with whomever they see as the enemy, and having 
young people strap bombs on themselves, going forth killing 
themselves, killing other innocent people, and then being 
glorified. Now, that, to me, is a separate issue that should be 
addressed in order to demonstrate what you are telling us, 
which is that the Palestinian Authority does wish to engage in 
an ongoing effort, they do wish to create circumstances for a 
two-state solution, and they do wish to be separated from the 
demagogues and the terrorists. This would be a very strong 
piece of evidence that that is not just rhetoric, but action. I 
don't see where it undermines the Palestinian position. In 
fact, I think it strengthens the legitimate Palestinian 
Authority position to be separate from those who would engage 
in such incitement and, in fact, in my view, brainwashing of 
young people for such horrible purposes.
    Why can't we just focus on that one thing? We will never, 
in this forum, resolve the other issues that separate the 
parties.
    Dr. Rahman. Senator, I appreciate your outrage about 
suicide bombers, because I am outraged by it, too, personally, 
and I believe that the majority of the Palestinian people, 
notwithstanding what has been stated here.
    I agree that suicide bombing is unacceptable. It has to be 
rejected, et cetera, et cetera. Everything--anything that you 
want to say against it, I would say it even more and harder, 
because I will never support a culture of death. We want our 
children to live like I want my children to be productive and 
live as a productive citizens.
    I have said that, and I believe that we also have to be 
careful about what we saw here today. There is a difference, 
Senator. And I don't want to be put in the position where I 
have to make explanations for things that I do not believe in 
and I don't agree with. But there's a difference between 
Shahada and suicide bombing. You have really to realize this. 
Shahada is really to sacrifice for your own country. And you 
say this to your people, and Americans said it, and the 
Israelis call on their young people to do it every day, to 
sacrifice in order to protect their homeland. That is Shahada. 
But suicide bombing is totally--something totally different, 
and we cannot confuse the two, and we cannot accept the 
confusion between the two.
    So, please, what I'm trying to explain here, that what we 
saw today here, when you speak Shahada, that does not mean 
suicide bombing. It does not.
    Senator Specter. Dr. Rahman, as we have seen the videos, 
Shahada has been equated with suicide bombing. Why do you say 
that there is a difference?
    Dr. Rahman. I'll tell you why. Because when President 
Arafat was shown here, and he--the reporter asked him, he 
said--asked him, ``What message do you give to the people?'' 
And he said that: ``This young 14-years-old kid is facing an 
Israeli tank with a stone, and he was shahid,'' meaning that 
the Israelis shot him and they killed him. He was not a suicide 
bomber. And this boy, yes, he was 14-years-old, and he was 
killed by the Israeli Army.
    Senator Specter. But when----
    Dr. Rahman. So he was not a suicide bomber. He was standing 
in front of a tank with a stone. So does that mean that he was 
a suicide bomber?
    Senator Specter. But we have--we have seen on the videos 
repeatedly, an 11-year-old, a 14-year-old, a 12-year-old, say 
that they wished Shahada, and they plan to be--to give their 
life as a martyr in a suicide bombing.
    Dr. Rahman. Not in a--with suicide bombers. I did not hear 
it once, and I'm willing to listen to it again.
    Senator Specter. Well, I think that Senator Clinton has----
    Dr. Rahman. I want to listen to it again. It does not say 
suicide bomber, Senator.
    Senator Specter. Well, let's see it again.
    Dr. Rahman. Let's see it.
    Senator Specter. I think, before you do, just let me say 
that I think Senator Clinton has put her finger on the critical 
point about the Palestinian Authority repudiating suicide 
bombing and acting to take it off of television. And what I 
will do is, I'm going to send a transcript of this hearing to 
Chairman Arafat and to the Palestinian Authority Prime Minister 
with the question: Will they act to stop Palestinian television 
carrying these messages?
    But let's take a look at it again.
    Mr. Marcus. If I may say something, the film that was--that 
we saw, the two girls expressed the desire to achieve the 
Shahada, the death for Allah. And the end, there was a caller 
who called in, and they spoke about a 17-year-old girl who 
actually did go and was a suicide bomber, Ayyat al-Akhras.
    Senator Specter. Let us turn to the films themselves. And 
if you care to make a commentary after you show the film, that 
would be the appropriate time.
    [Video presentation replayed.]
    Senator Specter. Right there, Mr. Marcus. Would you stop 
it? Right there----
    Mr. Marcus. Yes.
    Senator Specter [continuing]. Where you say ``The Shahadas 
go to paradise,'' isn't that in the context, Dr. Rahman, of a 
suicide bombing?
    Dr. Rahman. Not necessarily. I may become a Shahid even 
praying--praying, not fighting. Going to Mecca as a pilgrim, I 
can die and become a Shahid.
    Senator Specter. Go ahead, Mr. Marcus.
    Dr. Rahman. So there's--this is a religious connotation. It 
has nothing to do with suicide bombing.
    Senator Specter. Mr. Marcus, proceed with the----
    Mr. Marcus. Yes.
    Senator Specter [continuing]. Video.
    Mr. Marcus. In the context of--oh, continue with the video? 
In the context of this video, the two first girls were talking 
about their desire for the Shahada. The third girl who was 
speaking was specifically applying this to a 17-year-old 
suicide bomber. And the moderator said: ``Is this natural, for 
a 17-year-old girl to blow herself up?'' And she said: ``Yes, 
it is natural.'' And the two girls, in the continuation, which 
wasn't shown, for time limitations, were actually asked about 
this, and then expressed similar sentiment.
    So Shahada definitely can mean anyone who has died in the 
conflict. The Palestinians define all of the suicide bombers as 
shahids, as martyrs----
    Senator Specter. Let us proceed with the video and ask Dr. 
Rahman or Dr. Asali if they agree with other portions, that it 
equates with suicide bombers.
    [Video presentation continued.]
    Mr. Marcus. Okay. So that was it: ``Is it natural for the 
17-year-old to blow herself up to become a shahid?'' And the 
answer was: ``It is natural.'' So that is the way it's 
presented.
    Senator Specter. What do you think, Dr. Asali?
    Dr. Rahman. Yes, this is a talk show, Senator, somebody 
expressing. It is not--he is--the reporter is not telling her 
that--but she is saying that: ``I want to sacrifice for my 
country,'' and I--they asked--in fact, even al-Jazeera network, 
every single Arab network refers to the suicide bombers as 
Shahada. That is--it is a religious--whether he is Shahid or 
not, I am not a God to really make a judgement on him. I, 
personally, call it suicide bombers. Others call it Shahid. But 
Shahada is not exclusive to suicide bombers. That's what I'm 
trying to say.
    Senator Specter. Dr.----
    Dr. Rahman. They----
    Senator Specter. Go ahead, Dr. Rahman. I don't want to cut 
you off.
    Dr. Rahman. No, no. What I'm trying to say here is, we--
this is an inclusive. Anyone who sacrifices for his country is 
a Shahid. So we cannot tell people, ``Don't sacrifice for your 
country.''
    Dr. Asali. If I may?
    Senator Specter. Dr. Asali?
    Dr. Asali. Actually, the literal translation, if there is 
such a thing for a word that exists only in Arabic, of Shahid 
or Shahada is the one who dies for the sake of God. It is a 
religious concept. Anybody who dies in conflict, for instance, 
at a war, would be a Shahid. Anybody who would be killed by an 
enemy who is fighting the Arabs or the Muslims, et cetera, 
would be a Shahid. Somebody who would be at prayer and he would 
be killed without lifting a finger, he would be a Shahid. So we 
need to understand it in that context.
    Actually, the--you know, we may run the risk of trying to 
get bogged down in minutia. I think those videos do show a 
level of--a highly developed level of frustration that these 
young people have achieved in their own life of complete 
frustration with the way they live, that they do, in fact, 
condone and consider it natural for a 17-year-old person to die 
like this. You know, I----
    Senator Specter. To die as a martyr.
    Dr. Asali. As a martyr. As a martyr. I do want to mention 
something. You know, the day-to-day life of the Palestinians 
under their present circumstances is really rather unbearable. 
You know, there are 160 checkpoints in Palestine. There are, 
you know, like, 5,000 houses demolished. There are 128 
Palestinian women who gave birth at checkpoints, 70 percent 
malnutrition, terrible way of life. These people are, by 
definition, liable to be exploited by those who would have 
appealed to their sense of frustration to do things like, you 
know, suicide bombing or others.
    We do need to get back into a--in geopolitical context to 
resolve this question, and not focus very, very narrowly on 
these people. They're actually--the whole problem for suicide 
bombing, if I may say, is two problems that are lumped 
together. One is for the young people, themselves, who blow 
themselves up; and another is for the people who send them to 
do that. These young kids just don't go off, you know. They 
have to have a support system somewhere that exploits their 
sense of frustration.
    They are, by and large, perhaps innocent, and somehow--
sometimes privileged kids who feel so absolutely desperate and 
losing their dignity and their future, so the others, who are 
much more calculating, and none of them is young, and none of 
them would send their own kids to do this, would take advantage 
of that situation. That puts the whole problem in a political 
context that we cannot avoid.
    Senator Specter. Well, I think we've gone about as far as 
we can go on this particular interpretation. It's now noon. 
It's been a very long hearing, and we thank you all for 
staying. I know people want to make additional comments, so 
what I would like to do is give each of you 2 minutes to sum 
up.
    Mr. Marcus, you had asked for an opportunity to reply to 
some of the things which had been said. If you could limit it 
to 2 minutes, we'd appreciate it.
    Mr. Marcus. Okay.
    Senator Specter. We're going to have another vote here 
within the hour, and there are a number of other things which 
have to be taken care of. So to the extent you can hold 
yourself to 2 minutes, we'd appreciate it.
    Mr. Marcus. The Palestinian Authority has been giving 
active promotion to suicide bombings. When teenage children 
participate in a summer camp named after Ayyat al-Akhras, a 17-
year-old girl who was a suicide bomber, there is no greater 
promotion and no greater role-modeling for teenagers than 
telling them this is the person who we're admiring.
    The fact that Dr. Rahman is arguing about the nuance of a 
film does not erase the entire society's promotion of the 
suicide bombing as well as the Shahada, as well as the Shahada 
especially among children, as well.
    Dr. Rahman commented on the religions nature of this 
belief, and that is not an excuse. That is, in fact, even 
worse. These children are taught--and we're talking about a 
very religious society, the Palestinian society--these children 
are taught that they have the religious achievement. This is 
not true that these children are frustrated and that's why 
they're blowing themselves up. They are blowing themselves up 
because they want to aspire to the afterlife. They have been 
convinced, because of their religious beliefs that they have 
been ingrained with, that doing this, this type of a suicide 
bombing, or just achieving the Shahada, will actually give them 
great rewards in this future.
    So the religious component actually compounds the problem, 
and that's why 11-year-olds are talking about, ``We don't care 
about this life. We only care about the afterlife.''
    Senator Specter. Dr. Rahman, would you care to sum?
    Dr. Rahman. Well, I'm listening, and I cannot really 
believe what I heard, because Mr. Marcus is on the West Bank 
because he believes that God gave him that land. That's a 
religious statement, and he is opposing Palestinians for being 
religious? What else of an argument that he has to be on the 
West Bank except that he is Jewish?
    Listen, I would say the following. We do not support 
suicide bombers. We, the Palestinian Authority, made itself 
very clear on this issue over and over again. We are looking 
for the opportunity to take action when the Israeli Army 
withdraws from the West Bank, because while we have 50,000 
Israeli soldiers in the West Bank and in Gaza, it is impossible 
for the Palestinian security forces to take action.
    We are ready to do that. Our new Prime Minister just made a 
statement yesterday. He said: ``We are ready to declare a 
unilateral cease fire.'' He is engaged in the Palestinian 
organizations. We hope that the Israeli Government will 
reciprocate and accept an overall cease fire. That will end the 
violence between the two people so we can really put things on 
the track of political negotiations.
    Senator Specter. Would that cease fire bind Hamas and Islam 
Jihad?
    Dr. Rahman. Yes, absolutely. That's what he said. He said: 
``I am negotiating with Hamas and Jihad Islam, and every other 
organization for a unilateral cease fire, which I'm going to 
take it to the Israelis and I hope that the Israelis will 
reciprocate and we can turn it into a permanent cease fire and 
move on political negotiations.'' And I hope that Israelis will 
reciprocate.
    Senator Specter. Dr. Asali, would you care to sum up?
    Dr. Asali. Yes. I think it is always helpful in this 
conflict to tone down the rhetoric, and I think we should focus 
on the grand political objective. A two-state solution cannot 
be achieved to be negotiated between the Israelis and the 
Palestinians, left on their own devices. Political will, 
political muscle has to be applied, especially in this country, 
which is the only country that is in a position to do so, to 
make it happen by applying the needed incentives, rewards, and 
disincentives to both parties.
    Senator Specter. Thank you, Dr. Asali.
    Dr. Klein, would you care to sum up?
    Mr. Klein. Yes. First of all, I wanted to mention, Israel 
has handed over to the Bush administration literally thousands 
of documents showing that the Palestinian Authority has paid 
for the types of posters that I just showed here. This has been 
written up and shown in Time magazine and many other major 
publications the actual documents.
    In addition, the schools, camps, and streets are named 
after suicide bombers who have murdered Israelis, not martyrs 
who have died in some other way.
    The polls, by the way, by--their own Palestinian Authority 
pollsters show that 60 to 90 percent of Palestinians tragically 
and shockingly support suicide bombings. And, in fact, when 
Joseph Lelyveld, the former editor-in-chief of the New York 
Times wrote an article about suicide bombers' families, he 
wrote that he was shocked and stunned that when he interviewed 
the families they said how proud they are of their children, 
who have killed themselves while murdering Jews.
    Finally, the checkpoints are there to stop terrorists from 
coming into Israel. If there was no terrorism, there would be 
no more checkpoints, it would be the end of checkpoints. And I 
find it really tragically and disappointingly racist statements 
to say that Jews shouldn't live in Judea and Samaria. This 
was--is uninhabited land where the Jews have moved into.
    The cease fire? We don't need a temporary cease fire. That 
would be pleasant. It didn't work before, and cease fires are 
something that will not work in any long-term situation. We 
must have the P.A. arrest the terrorists and outlaw Hamas and 
Islamic Jihad, and we must have Hassan Abdel Rahman and others 
in the territories and ask him to stop showing all of Israeli 
as Palestine on their official stationary, on their maps, on 
their atlases. Do I'd ask Dr. Rahman to change this stationary 
and stop sending the message that all of Israel is Palestine.
    Thank you very much.
    Senator Specter. Gentlemen, thank you very much.
    I intend to send this transcript to Chairman Arafat and the 
Prime Minister of Palestinian Authority, with the request that 
they stop showing these videos on Palestinian television.

                     ADDITIONAL SUBMITTED STATEMENT

    We have received a statement from The American Jewish 
Committee that will be made part of the hearing record.
    [The statement follows:]
          Prepared Statement of The American Jewish Committee
    Thank you, Chairman Specter, for allowing me this opportunity to 
submit a statement for the record.
    I wish to express appreciation to the Subcommittee for 
investigating the current nature of the Palestinian education system so 
that we can better understand how to further the process of replacing 
the teaching of hatred and violence in Palestinian schools with the 
teaching of principles of coexistence, democracy, and mutual 
understanding.
    The American Jewish Committee welcomes your initiative in holding a 
vitally important hearing on October 30 to bring to light the rampant 
teaching of hatred and glorification of violence in Palestinian 
schools, and the concomitant incitement to violence and hate that 
permeates the broader Palestinian culture and is aimed in particular at 
young people. We encourage the Subcommittee to continue to press all 
American authorities that deal with the Palestinian Authority, as you 
strongly did at the hearing, to demand of the Palestinian Authority 
Ministries of Education and Sport a revamping of the educational 
curricula that they disseminate. The basis for shared trust must begin 
with clear messages from the Palestinian leadership to its children 
that indeed there is a bright future for pluralism and coexistence in 
the Middle East, precisely the opposite of what is being taught today. 
The celebration of hate and violence that encourages children to commit 
acts of terrorism, including homicide bombings, is, as Senator Clinton 
noted at the hearing, a form of child abuse. The cessation of such 
incitement must not await a resolution of the political issues 
underlying the Israeli-Palestinian conflicts. It is a sine qua non of 
that resolution.
    Of additional concern, such incitement is by no means a problem 
limited to the Palestinian territories, but a malevolent trend to be 
found in far too many parts of the Muslim world. We are familiar with 
the vile anti-Semitic speech delivered by Malaysian Prime Minister 
Mahathir Mohamad to the Organization of the Islamic Conference last 
month, at which, to the everlasting shame of those attending this 
largest of gatherings of Muslim national leaders, his words were 
greeted not with condemnation, but with a standing ovation. And, as in 
the Palestinian Authority, one finds teaching of hatred that is 
directed at the young in other places as well.
    This past February, the American Jewish Committee and the Center 
for Monitoring Peace jointly released the most comprehensive survey 
ever prepared of the official Saudi worldview to which students between 
the ages of six and sixteen are exposed through the medium of subject 
textbooks. In analyzing the 93 school textbooks published by the Saudi 
Ministry of Education and in circulation between 1999 and 2002, the 
report reveals the widespread presence of contempt towards Western 
civilization and followers of other religions.
    Here are the main findings from our report:
  --Islam is taught as the only true religion and Saudi Arabia is the 
        leader of the Muslim world.--Islam is presented as the only 
        true religion, while all other religions are presented as 
        false. Consequently, Muslims are portrayed as superior to 
        followers of all other religions. Islam plays the dominant role 
        in state and society, in the judicial and educational systems, 
        and in everyday life. Saudi Arabia assumes, in turn, a leading 
        role in the Muslim world and sees itself as the champion of 
        Islam.
  --Christians and Jews are denounced as infidels.--Christians and Jews 
        are presented as enemies of Islam and of Muslims. Therefore, 
        Muslims may not befriend them nor emulate them in any way, lest 
        that lead to love and friendship, which is forbidden.
  --The West is a decaying society on its way to extinction, and is the 
        source of past and present misfortunes of the Muslim world.--
        Western civilization is presented in a state of cultural and 
        religious decline, the symptoms of which are the absence of 
        spirituality, the practice of adultery, and the large number of 
        suicides in Western society. The West is also blamed for 
        desiring world domination and targeting the Muslim world by 
        aggressively promoting Western practices, ideologies, and 
        lifestyle habits among Muslim society. In addition, Saudi 
        school children are taught to reject all notions of Western 
        democracy.
  --Peace between Muslims and non-Muslims is ostensibly rejected.--
        Saudi Arabian schoolbooks, even grammar books, are full of 
        phrases exalting war, jihad, and martyrdom. And though all 
        forms of terror are rejected by the Saudi Arabian schoolbooks, 
        it appears that such prohibitions do not apply to cases that 
        fall in the categories of jihad and martyrdom.
  --The Jews are a wicked nation, characterized by bribery, slyness, 
        deception, and aggressiveness.--According to the Saudi 
        schoolbooks, the present Jewish occupation of Palestine 
        constitutes a danger to the neighboring Muslim countries. 
        Zionism is presented as an evil movement, based on ancient 
        Jewish notions.
  --Israel is not recognized as a sovereign state in Saudi Arabian 
        schoolbooks, and its name does not appear on any map.--All maps 
        in Saudi schoolbooks bear only the name Palestine. Palestine is 
        presented as a Muslim country occupied by foreigners who defile 
        its Muslim holy places, especially the Al-Aqsa Mosque in 
        Jerusalem. The occupation of Palestine is portrayed as the most 
        crucial problem of the Arabs and the Muslims, who should all 
        join forces for the total liberation of Palestine.
    So that Members of the Subcommittee may familiarize themselves with 
our findings in greater detail, I am submitting for the record our 
comprehensive study, The West, Christians and Jews in Saudi Arabian 
Schoolbooks.
    The Saudi Government has responded to criticism of its shameful 
education policies by claiming that it is working to bring about 
constructive reform in its curriculum and education system, but it is 
now high time for the Saudis to match deeds with words. As one of the 
strongest allies of the United States, the Saudi government needs to 
take a hard look at its educational system and introduce immediate 
reforms that remove hate and promote genuine tolerance of and respect 
for other faiths.
    To this end, we urge that Congress move quickly to adopt a 
Congressional initiative spearheaded by Senators Gordon Smith (R-OR) 
and Charles Schumer (D-NY) in the Senate and Representatives Jim Davis 
(D-FL) and Doug Bereuter (R-NE) in the House. The resolution, S. Con. 
Res. 14/H. Con. Res. 242, calls on the Saudi government to ``reform its 
education curriculum in a manner that promotes tolerance, develops 
civil society, and encourages functionality in the global economy.''
    As always, the American Jewish Committee stands with all people of 
good will, regardless of their race, nationality, or religion, in an 
effort to promote peace, democracy, and mutual understanding. My thanks 
go again to the Subcommittee, and to its Chairman, for their continued 
attention to these matters of utmost importance.

                         CONCLUSION OF HEARING

    Senator Specter. Thank you all very much for being here. 
That concludes our hearing.
    [Whereupon, at 12:07 p.m., Tuesday, October 30, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
